No. 20-____
IN THE

Supreme Court of the United States
————
SOO LINE RAILROAD COMPANY D/B/A
CANADIAN PACIFIC,
Petitioner,
v.
CONSOLIDATED RAIL CORPORATION, et al.,
Respondents.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
ANDREW W. DAVIS
STINSON LLP
50 South Sixth Street
Suite 2600
Minneapolis, MN 55402
(612) 335-1500
andrew.davis@stinson.com
DOUGLAS DALGLEISH
STINSON LLP
1201 Walnut Street
Suite 2900
Kansas City, MO 64106
(816) 842-8600
doug.dalgleish@stinson.com

DENNIS LANE
Counsel of Record
DAVID RIFKIND
STINSON LLP
1775 Pennsylvania Ave. NW
Suite 800
Washington, D.C. 20006
(202) 785-9100
dennis.lane@stinson.com
david.rifkind@stinson.com

Counsel for Petitioners
November 6, 2020

WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTION PRESENTED
Whether the court of appeals erroneously held that
the exemption provision of the Interstate Commerce
Commission Termination Act (49 U.S.C. § 11321(a))
independently preempts an action grounded in state
law against a rail corporation without consideration of
the limits on preemption set by the exclusive jurisdiction provision (49 U.S.C. § 10501(b)) of the Act.

(i)

ii
LIST OF PARTIES TO THE PROCEEDINGS
Petitioner, and appellant below, is Soo Line Railroad
Company d/b/a Canadian Pacific (“CP”). Respondents,
and appellees below, are Consolidated Rail Corporation;
CSX Transportation, Inc.; Indiana Harbor Belt Railroad
Company; Norfolk Southern Railway Company; John
Hart; Terry Evans; Conrail, Inc.; Mike Pendergrass;
Tom Werner; CSX Corporation; and Norfolk Southern
Corporation.
CORPORATE DISCLOSURE STATEMENT
Soo Line Railroad Company d/b/a CP is an indirect
wholly-owned subsidiary of Canadian Pacific Railway
Limited, a Canadian corporation which is publicly
traded on the New York and Toronto Stock Exchanges.

TABLE OF CONTENTS
Page
QUESTION PRESENTED ..................................

i

LIST OF PARTIES TO THE PROCEEDINGS ...

ii

CORPORATE DISCLOSURE STATEMENT .....

ii

TABLE OF AUTHORITIES ................................

v

OPINIONS BELOW ............................................

1

JURISDICTION ..................................................

1

STATUTORY PROVISIONS ...............................

1

STATEMENT OF THE CASE ............................

1

REASONS FOR GRANTING THE WRIT ..........

4

CONCLUSION ....................................................

14

APPENDIX
APPENDIX A: Opinion (7th Cir. DE 58,
July 15, 2020) .................................................

1a

APPENDIX B: Opinion and Order (USDC
IN/ND DE 106, March 29, 2018) ...................

11a

APPENDIX C: Opinion and Order (USDC
IN/ND DE 131, September 27, 2019) ............

29a

APPENDIX D: Surface Transportation Board
Decision on Petition for Stay, 2017 WL
992358 (served March 13, 2017) ....................

35a

APPENDIX E: Order on Petition for Panel
Rehearing (7th Cir. DE 63, August 11,
2020) ...............................................................

44a

APPENDIX F: Verified Notices of Exemptions Before the Surface Transportation Board
(USDC IN/ND DE 108-1, April 12, 2018) ......

45a

(iii)

iv
TABLE OF CONTENTS—Continued
Page
APPENDIX G: Verified First Amended
Complaint and Demand for Jury Trial
(USDC IN/ND DE 43, June 13, 2017) ...........

59a

APPENDIX H: Resolution of the Directors
of Indiana Harbor Belt Railroad Company
(December 7, 2016) .........................................

96a

APPENDIX I: 1906 Agreement between
Chicago, Indiana and Southern Railroad Company and Indiana Harbor Railroad Company
(USDC IN/ND DE 78, April 9, 1906) .............

99a

APPENDIX J: Soo Line Railroad Company
Petition for Stay Before the Surface
Transportation Board (USDC IN/ND DE 983, March 8, 2017) ............................................ 141a
APPENDIX K: Indiana
Harbor
Belt
Railroad Company, CSX Transportation,
Inc., and Norfolk Southern Railway
Company’s Reply to Petition for Stay Before
the Surface Transportation Board (USDC
IN/ND DE 98-1, March 10, 2017) .................. 161a
APPENDIX L: RESOLUTIONS, New Agreement (September 1, 2016) .............................. 172a
APPENDIX M: RESOLUTIONS (January
1, 2017) ........................................................... 175a
APPENDIX N:
49 U.S.C. § 10501 ...................................... 178a
49 U.S.C. § 11321 ...................................... 184a

v
TABLE OF AUTHORITIES
CASES

Page(s)

AT & T Commc’ns, Inc. v.
Consol. Rail Corp.,
285 F. Supp. 2d 649 (E.D. Pa. 2003) ........

9

Boyle v. United Techs. Corp.,
487 U.S. 500 (1988) ...................................

12

Chesney v. Tenn. Valley Auth.,
782 F. Supp. 2d 570 (E.D. Tenn. 2011) ....

12

Corley v. United States,
556 U.S. 303 (2009) ...................................

10

Elam v. Kansas City S. Ry. Co.,
635 F.3d 796 (5th Cir. 2011) .....................

7

Hagerman v. United Transp. Union,
281 F.3d 1189 (10th Cir. 2002) .................

8

In re KBR, Inc., Burn Pit Litig.,
744 F.3d 326 (4th Cir. 2014) .....................

12

In re U.S. Office of Pers. Mgmt. Data
Sec. Breach Litig.,
928 F.3d 42 (D.C. Cir. 2019) .....................

12

Indiana Harbor Belt R.R.—Trackage
Right—Consolidated Rail Corp.,
CSX Transp., Inc., & Norfolk S. Ry.,
No. FD 36099, 2017 WL 992358
(March 13, 2017) .......................................

1

Mangold v. Analytic Servs., Inc.,
77 F.3d 1442 (4th Cir. 1996) .....................

12

Norfolk & W. Ry. Co. v. Am. Train
Dispatchers Ass’n,
499 U.S. 117 (1991) ...................................

8

vi
TABLE OF AUTHORITIES—Continued
Page(s)
Okla. Tax Comm’n v. United States,
319 U.S. 598 (1943) ...................................

5

Porter v. Aetna Cas. & Sur. Co.,
370 U.S. 159 (1962) ...................................

5

Ry. Labor Executives’ Ass’n v.
Southern Pacific Transp. Co.,
7 F.3d 902 (9th Cir. 1993).........................

8, 9

Soo Line R.R. Co. v. Consol. Rail Corp.,
965 F.3d 596 (7th Cir. 2020), reh’g
denied (Aug. 11, 2020) .......................... 1, 4, 6, 9
Soo Line R.R. Co. v. Consol. Rail Corp.,
No. 2:17-CV-106, 2019 WL 4752767
(N.D. Ind. Sept. 27, 2019) .........................

1, 4

Soo Line R.R. Co. v. Consol. Rail Corp.,
No. 2:17-CV-106, 2018 WL 156616
(N.D. Ind. March 29, 2018) .......................

1

Union R.R. Co. v. United Steelworkers of Am.,
242 F.3d 458 (3d Cir. 2001) ......................

8, 9

United States v. W. Pac. R. Co.,
352 U.S. 59 (1956) .....................................

7

United Transp. Union v. Burlington
N. Santa Fe R. Co.,
528 F.3d 674 (9th Cir. 2008) .....................

5

Yearsley v. W.A. Ross Const. Co.,
309 U.S. 18 (1940) .....................................

12

vii
TABLE OF AUTHORITIES—Continued
STATUTES AND REGULATIONS

Page(s)

28 U.S.C. § 1254(1) .......................................

1

49 U.S.C. § 10501(b) ....................................passim
49 U.S.C. § 11321(a) ....................................passim
49 C.F.R. § 1180.2(d) ....................................

12

TREATISES
Charles A. Wright & Arthur R. Miller, Fed.
Prac. & Proc. Judicial Review (2d ed.).....

7

OTHER AUTHORITIES
Aaron J. Lockwood, The Primary Jurisdiction Doctrine: Competing Standards of
Appellate Review, 64 Wash. & Lee L. Rev.
707 (2007) ..................................................

7

Carter H. Strickland, Jr., Revitalizing the
Presumption Against Preemption to Prevent
Regulatory Gaps: Railroad Deregulation
and Waste Transfer Stations, 34 Ecology
L.Q. 1147 (2007) ........................................

8

Kathryn R. Johnson, Shields of War: Defining Military Contractors’ Liability for
Torture, 61 Am. U. L. Rev. 1417 (2012) ... 11-12
Mary J. Davis, The Supreme Court and Our
Culture of Irresponsibility, 31 Wake
Forest L. Rev. 1075 (1996) ........................

13

PETITION FOR A WRIT OF CERTIORARI
Canadian Pacific (“CP”) petitions for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Seventh Circuit.
OPINIONS BELOW
The opinion of the court of appeals is reported at 965
F.3d 596 (7th Cir. 2020). The decision of the United
States District Court for the Northern District of Indiana
is available at 2019 WL 4752767 (Sept. 27, 2019) and
2018 WL 1566816 (Mar. 29, 2018). The decision of the
Surface Transportation Board denying the petition to
stay is reported at FD 36099 (Mar. 13, 2017).
JURISDICTION
The court of appeals affirmed the district court on
July 15, 2020, and denied the petition for rehearing on
August 11, 2020. This Court has jurisdiction pursuant
to 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS
The relevant provisions of the Interstate Commerce
Commission Termination Act, 49 U.S.C. §§ 10501(b)
and 11321(a), are reproduced at App. 178a–185a.
STATEMENT OF THE CASE
This is a minority shareholder oppression case
arising under Indiana state law prohibiting selfdealing and corporate misconduct. The corporation at
issue, the Indiana Harbor Belt Railroad Company
(“IHB”), is a regional switching carrier operating
in Lake County, Indiana and Cook County, Illinois,
and organized under Indiana law. App. 62a–63a. IHB
operates on a number of rail lines, including some
owned by Respondents Consolidated Rail Corporation
(“Conrail”), CSX Corporation, and Norfolk Southern,

2
and provides switching of rail cars operating in
Chicago. Id. CP, a minority owner of IHB, has been
supporting IHB management in its negotiations with
its landlords who are also its majority owners. See id.
at 64a–65a. CP owns 49% of IHB and has three
directors on IHB’s board of directors. Id. at 62a, 64a–
65a. Conrail owns 51% and has four directors. Id. at
62a, 64a–65a. Norfolk Southern Corporation and CSX
Corporation indirectly own Conrail and each have two
of Conrail’s four directors on IHB’s board. Id. The
majority directors vote in bloc per a voting rights
agreement. Id. at 64a.
IHB’s use of the rail lines was governed by a 1906
agreement between IHB and Conrail’s predecessor.
Id. at 64a–65a, 99a–140a. The 1906 agreement was a
99-year contract and expired in 2005. Id. at 64a–66a.
Conrail and IHB, and by extension CP as a minority
owner, engaged in efforts to reach a new agreement
that would govern IHB’s operation on the lines owned
by the Respondents. See id. at 65a–77a. During the
negotiations, the landlord Respondents have consistently put forth terms contrary to the interests of IHB
and CP. Id.
The difference between the parties is crystallized in
their conflicting positions about the appropriate level
of rent. Respondents proposed over the course of
four years annual rent that ranged from $5.5 million
to $7.4 million increasing to $8 million per year,
and, then back down to $5.6 million per year. Id. at
65a–74a. Each time, IHB’s management rejected the
proposal as contrary to IHB’s best interests. Id. at
64a–68a, 73a–76a. IHB management eventually hired
an independent appraiser who recommended rent of
$1.35 million per year. Id. at 71a–73a. Despite the
Respondents’ opposition, IHB’s board unanimously

3
accepted the independent appraiser’s recommendation.
Id. at 73a–76a.
The board’s acceptance triggered an aggressive
pressure campaign from the Respondents to convince
IHB management and the board to backtrack on their
acceptance of the independent appraiser’s recommendation. This pressure campaign included demanding
back rent, threatening to evict IHB, and circulating
minutes misstating the board’s prior acceptance of the
appraiser’s recommendation. Id. at 75a–79a. These
tactics provide the factual support for the minority
oppression lawsuit under Indiana state law. Bowing
to this unrelenting pressure, IHB’s management
ultimately withdrew support for the previously-approved
agreement to accept the independent appraiser’s
recommendation. Id. at 77a–79a. The board, over
the objections of CP’s directors, then adopted a new
agreement that required IHB to pay $5 million in rent
per year. Id. The new agreement reverses the longstanding arrangements by significantly decreasing
IHB’s profits as a result of the significantly increased
rent paid to the Respondents. Id. at 78a–80a.
Shortly after the new agreement was accepted, CP
pursued claims of breach of fiduciary duty against
Respondents in federal court, id. at 161a–71a, and
Respondents sought approval for the transaction from
the Surface Transportation Board (“Board”) utilizing
the Board’s exemption procedures. Id. at 45a–58a. CP
filed a motion to stay the effectiveness of the exemption pending the federal litigation. In rejecting CP’s
petition, the Board recognized the continuing validity
of CP’s lawsuit, stating “adequate compensatory or
other corrective relief will be available [to CP] at a
later date, in the ordinary course of litigation” in
federal court. Id. at 35a–43a.

4
In the federal court litigation, however, the district
court dismissed CP’s complaint, on the Respondents’
motion, concluding that CP’s breach of fiduciary duty
claim was both preempted by 49 U.S.C. § 10501(b) and
exempted under §11321(a), because “CP’s state-law
claim and its requested relief required the court to
adjudicate the fairness of the rental rates, and therefore interfered with the STB’s exclusive jurisdiction.”
Soo Line R.R. Co. v. Consol. Rail Corp., No. 2:17-CV106, 2019 WL 4752767, at *2 (N.D. Ind. Sept. 27,
2019); App. 29a–34a. The Seventh Circuit affirmed
the district court, but solely on the basis that
§ 11321(a) preempted CP’s complaint, without any
consideration of the limits imposed on the Board’s
preemptive authority under § 10501(b). Soo Line R.R.
Co. v. Consol. Rail Corp., 965 F.3d 596 (7th Cir. 2020),
reh’g denied (Aug. 11, 2020); App. 1a–10a. The Seventh
Circuit’s opinion assessed the two statutory provisions
as each providing an independent ground for preemption dismissal. Id. at 598. By erroneously finding that
§ 11321(a) was controlling, the court failed to consider
its interrelationship with § 10501(b) at all. Id.
REASONS FOR GRANTING THE WRIT
The Seventh Circuit’s opinion ignores the interrelationship between § 10501(b) and § 11321(a) within
the statute and in doing so effectively makes rail
carriers immune from any law on any matters related
to their rail operations. The court’s ruling, if not
overturned by this Court, would have serious adverse
consequences throughout the rail industry because it
fundamentally disregards the balance created by the
Interstate Commerce Commission Termination Act
(“ICCTA”) when read in its entirety: on one side, rail
carriers and corporations are shielded from duplicative or multiplicative laws that are preempted by

5
§ 10501(b), but on the other side, the limited exemption under § 11321(a) does not shield rail carriers from
state or federal actions that fall beyond the exclusive
jurisdiction and preemptive scope of § 10501(b). In
essence, the Seventh Circuit opinion disregarded this
balance by concluding that the exemption under
§ 11321(a) applies to any action of a rail carrier or
corporation involving a rail transaction, rather than
only to those actions that fall within the scope of
§ 10501(b). The Seventh Circuit’s reading of the statute
thus fundamentally misconstrues the interrelated
structure of the two provisions at issue, as well as the
principles and policies underlying federal preemption
and limited immunity more generally.
These two provisions of the ICCTA grant the Board
regulatory authority over certain aspects of commercial transactions involving rail transportation. Section
10501(b) delegates to the Board exclusive jurisdiction
over the regulation of rates, construction, acquisition,
operation, abandonment, and facilities, and preempts
any “remedies provided under Federal or State law”
“with respect to regulation of rail transportation.” 49
U.S.C. § 10501(b). Section 11321(a) allows the Board
to exempt rail carriers from “the antitrust laws and
from all other law” in matters that fall within the
Board’s § 10501(b) exclusive jurisdiction, effectively
providing those carriers with immunity in such cases.
Cf. Porter v. Aetna Cas. & Sur. Co., 370 U.S. 159, 161
(1962) (describing exemption from taxation and
creditor actions as immunity); Okla. Tax Comm’n v.
United States, 319 U.S. 598, 619–20 (1943) (same); see
also United Transp. Union v. Burlington N. Santa Fe
R. Co., 528 F.3d 674, 679 (9th Cir. 2008) (describing
exemption under § 11321(a) as “immunity”).

6
1. The Seventh Circuit’s analysis rests on the premise that these “two statutes independently preempted
Canadian Pacific’s claims” that the Respondents breached
their fiduciary duty. Soo Line R.R. Co, 965 F.3d at 598
(internal citations omitted). After assuming these
two provisions were fully independent of each other
and that each had preclusive preemptive effect, the
Seventh Circuit did not consider § 10501(b) at all,
much less how it interacts with § 11321(a). Instead,
the Seventh Circuit held that § 11321(a) preempted
CP’s claims and that CP waived any arguments that
§ 11321(a) did not apply to the conduct and transaction in question.1 Id.
Critically, the Seventh Circuit’s analysis failed to
consider whether the disputed conduct fit within the
preemptive boundaries of § 10501(b), before determining if that conduct was immune under § 11321(a). The
Seventh Circuit’s assumption that these two provisions
are independent, instead of interrelated, fundamentally misconstrues the structure of the ICCTA. Rather
than being an independent preemption provision,
§ 11321(a) narrowly grants immunity only in limited
circumstances that are necessarily confined to the
parameters of the Board’s exclusive jurisdiction outlined
in § 10501(b). Thus, by ignoring § 10501(b) and
looking only to § 11321(a), the Seventh Circuit not
only violated the statute’s language and intent, but it
also ignored fundamental principles of statutory
interpretation. In doing so, the Seventh Circuit upset
ICCTA’s careful balance between the need for uniform,
federal regulation on certain statutorily-enumerated
aspects of rail transportation, and the check on a rail

1

CP disputes that it waived the argument.

7
carrier’s unlawful activities through reliance on the
continued application of traditional state corporate law.
The structure of ICCTA dictates that the Seventh
Circuit should have considered the scope of preemption under § 10501(b) in conjunction with—not
independent of—the limited immunity granted by
§ 11321(a). Section 10501(b) establishes the Board’s
preemptive regulatory authority over enumerated
aspects of rail transportation. See Elam v. Kansas
City S. Ry. Co., 635 F.3d 796, 810 (5th Cir. 2011)
(explaining that § 10501(b) vested the Board with the
same regulatory authority over rail transportation as
its predecessor, the Interstate Commerce Commission,
had before it); see also United States v. W. Pac. R. Co.,
352 U.S. 59, 63 (1956) (establishing ICC’s regulatory
jurisdiction over certain “matters affecting transportation policy”).
Preemptive regulatory authority provisions are a
specific statutory tool that Congress deploys in situations where it recognizes the need for uniform rules
and expert deliberation in a specific area of law. Cf.
W. Pac. R., 352 U.S. at 63–66. These provisions are
important because they define the scope of the agency’s
authority and expertise. See 33 Charles A. Wright &
Arthur R. Miller, Fed. Prac. & Proc. Judicial Review
§ 8366 (2d ed.) (questions of primary jurisdiction turn
on scope of agency’s authority and expertise); see also
Aaron J. Lockwood, The Primary Jurisdiction Doctrine:
Competing Standards of Appellate Review, 64 Wash.
& Lee L. Rev. 707, 710 (2007).
The first question under the ICCTA’s statutory
scheme, and one not addressed let alone answered by
the Seventh Circuit, is whether the state action at
issue is within the Board’s congressionally articulated
area of exclusive authority under § 10501(b).

8
Section 10501(b) sets the outer boundaries for the
Board’s authority. Those boundaries necessarily cabin
the rest of the statute, including in § 11321(a). Without those boundaries, the text of § 11321(a) could be
read in isolation to have potentially incredible and
unlimited reach, well beyond the structure and
purpose of ICCTA. See Norfolk & W. Ry. Co. v. Am.
Train Dispatchers Ass’n, 499 U.S. 117, 129 (1991). In
the words of one commentator, “[t]here must be some
logical limit to the exclusivity of the Board’s powers.
To take an extreme example, Congress surely did not
intend to allow railroads to open gambling or prostitution businesses that are exempt from generally
applicable state laws, and subject only to Board
supervision.” Carter H. Strickland, Jr., Revitalizing
the Presumption Against Preemption to Prevent Regulatory Gaps: Railroad Deregulation and Waste Transfer
Stations, 34 Ecology L.Q. 1147, 1165 (2007) (emphasis
added).
Consistent with basic statutory interpretation
principles, it is therefore necessary to read § 11321(a)
in the context of the boundaries set by § 10501(b).
When read together, the exemption under § 11321(a)
is necessarily limited to those areas within the Board’s
delegated authority under § 10501(b).
Significantly, other court decisions involving immunity under § 11321(a) have limited that immunity to
issues within the Board’s exclusive jurisdiction. Those
decisions overwhelmingly involve collective bargaining and the applicability of the Railway Labor Act (“RLA”)
to rail carriers. See. e.g., Hagerman v. United Transp.
Union, 281 F.3d 1189, 1194–95 (10th Cir. 2002); Union
R. Co. v. United Steelworkers of Am., 242 F.3d 458,
464, 466–68 (3d Cir. 2001); Ry. Labor Executives’ Ass’n
v. S. Pac. Transp. Co., 7 F.3d 902, 904 (9th Cir. 1993).

9
Those cases looked first to the limits set by § 10501(b)
to determine that rail carriers are immune from the
RLA, because “[a]mong the matters which the ICA
puts within the exclusive jurisdiction of the STB is the
relationship between the railroad and its employees.”
Steelworkers, 242 F.3d at 466; see also AT & T
Commc’ns, Inc. v. Consol. Rail Corp., 285 F. Supp. 2d
649, 659 (E.D. Pa. 2003) (“The plaintiffs in Southern
Pacific and Steelworkers sought to avoid the procedures developed by the STB itself in carrying out its
statutory mandate to protect affected employees—the
New York Dock conditions—in favor of the RLA
procedures . . . .”).
The Seventh Circuit ignored this fundamental
point—that § 10501(b) sets the outer bounds for the
rest of the statute—apparently because it blindly
accepted the Respondents’ description of the two
provisions as independent of each other and each
capable of preempting CP’s claims. Soo Line R.R. Co.,
965 F.3d at 598. In any event, the Seventh Circuit
never independently examined the text of § 10501(b)
or considered its interrelationship with § 11321(a).
The entire opinion treats § 11321(a) as if it exists in a
vacuum, entirely outside the boundaries created by
§ 10501(b).
Because § 10501(b) specifically defines and circumscribes the Board’s exclusive authority, it was error for
the Seventh Circuit to consider § 11321(a) independent of and separate from § 10501(b). It should have
first looked to whether the claims asserted by CP were
within the scope of the Board’s exclusive jurisdiction
before considering whether § 11321(a) could exempt
CP’s specific corporate state law claims. Critically, the
Board itself did not think CP’s state law claims
were exempted from judicial review. See App. 35a–43a

10
(Board recognizes that “adequate compensatory or
other corrective relief will be available [to CP] at a
later date, in the ordinary course of litigation” in
federal court).
To view § 11321(a) in isolation, as the Seventh
Circuit did, undermines the meaning of ICCTA in its
entirety, misconstrues the extent of the Board’s
authority and its role in regulating rail transportation,
and eliminates any limits to the reach of § 11321(a).
The Seventh Circuit’s opinion thus upsets the balance
in ICCTA between streamlining certain regulations
affecting rail transportation and leaving in place the
traditional corporate law checks and balances that
provide corporations with stability, predictability, and
accountability, when dealing with conduct and activities that are outside the Board’s scope of delegated
preemptive authority.
Not only does the Seventh Circuit’s unmoored
reading of § 11321(a) frustrate the purpose of the
statute, it violates “one of the most basic interpretive
canons, that a statute should be construed so that
effect is given to all its provisions, so that no part will
be inoperative or superfluous, void or insignificant.”
Corley v. United States, 556 U.S. 303, 314 (2009)
(internal alterations omitted). The Seventh Circuit’s
interpretation of § 11321(a) effectively renders § 10501(b)
superfluous. When Congress has carefully circumscribed
the reach of the Board’s authority, a court should not
then expand that reach to exempt rail carriers from
any type of misconduct involving a rail transaction. If
§ 11321(a) had the type of unfettered reach the
Seventh Circuit held it does, then § 10501(b) would be
mere surplusage, eliminating the clear dividing line
between those matters that are and are not within the
Board’s exclusive authority. The Seventh Circuit

11
could not rely solely upon § 11321(a) without rendering the boundaries set by § 10501(b) inconsequential.
It was therefore error for the Seventh Circuit to base
its decision solely on the exemption provision under
§ 11321(a) without first considering whether the disputed
conduct fit within the boundaries of § 10501(b).
2. Section 10501(b) also clearly functions as a
preemption provision, providing that “the remedies
provided under this part with respect to regulation
of rail transportation are exclusive and preempt
the remedies provided under Federal or State law.”
49 U.S.C. § 10501(b). As a preemption provision,
§ 10501(b) is specifically limited to “the remedies
provided under this part” related to regulation of
rail transportation, not to any and all aspects of
rail transportation. Section 11321(a), an immunity
provision, “exempt[s] [rail carriers] from the antitrust
laws and from all other law . . . as necessary
to . . . carry out the transaction” that is under the
Board’s jurisdiction. 49 U.S.C. § 11321(a). Read
together, the reach of § 11321(a)’s immunity is
necessarily cabined by the jurisdictional limitation of
those “remedies provided” under ICCTA. In other
words, § 11321(a)’s immunity does not remove rail
carriers and corporations from the reach of all laws no
matter what, and in particular the Indiana law at
issue here, but only from the reach of regulation that
is exclusive to the Board under section 10501(b).
This statutory construction also comports with
general legal principles. Preemption and immunity
serve distinct purposes. As succinctly explained by
one commentator, “Preemption analysis determines
whether state law can apply. Immunity, on the other
hand, determines whether any law will apply.”
Kathryn R. Johnson, Shields of War: Defining Military

12
Contractors’ Liability for Torture, 61 Am. U. L. Rev.
1417, 1427 (2012). Where statutory schemes have
both immunity and preemption provisions, courts
have limited the availability of immunity to unique
circumstances. Compare Yearsley v. W.A. Ross Const.
Co., 309 U.S. 18, 20–21 (1940), with Boyle v. United
Techs. Corp., 487 U.S. 500, 504, 507–09, 512–13 (1988)
(treating immunity and preemption in the context of
government contract law).
Typically, immunity extends in a narrow set of
circumstances that is more circumscribed than those
where preemption may apply. See In re KBR, Inc.,
Burn Pit Litig., 744 F.3d 326, 342 n.6 (4th Cir. 2014)
(explaining the differences between immunity and
preemption); In re U.S. Office of Pers. Mgmt. Data
Sec. Breach Litig., 928 F.3d 42, 80 (D.C. Cir. 2019)
(Williams, J. concurring); Chesney v. Tenn. Valley
Auth., 782 F. Supp. 2d 570, 581 (E.D. Tenn. 2011).
This distinction is, in part, a recognition that “absolute
immunity, however, has its costs, since illegal and
even offensive conduct may go unredressed. Such
immunity also tends to undermine the basic tenet of
our legal system that individuals be held accountable
for their wrongful conduct.” Mangold v. Analytic
Servs., Inc., 77 F.3d 1442, 1446–47 (4th Cir. 1996). The
limited nature of the immunity under § 11321(a) is
further underscored by the total lack of regulatory
scrutiny by the Board over exempted transactions like
the one at issue in this case. 49 C.F.R. § 1180.2(d) (for
exempt transactions “[t]he Board has found that its
prior review and approval of these transactions is not
necessary”). Unlike immunity, however, preemption
does not fully immunize an actor from the reach of any
law, as the actor can still be held accountable under
federal law.

13
The Seventh Circuit’s reliance solely on the
immunity provision as an independent ground for
preemption removes that accountability for conduct
and activities that fall outside the Board’s delegated
preemptive authority but are actionable under state
law. See Mary J. Davis, The Supreme Court and Our
Culture of Irresponsibility, 31 Wake Forest L. Rev.
1075, 1138–39 (1996) (expanding immunity beyond its
statutory boundaries gives “institutional actors whose
conduct would otherwise be deterred by liability … the
freedom to engage in that conduct with impunity.”).
That concern is pronounced here, where the Seventh
Circuit’s holding has immunized Respondents from
egregious acts of shareholder oppression that violate
state law and leave CP without recourse or protection
in any forum.
When faced with a statute that provides both
immunity and preemption provisions, canons of statutory
interpretation require that those provisions be read
together, limiting the immunity provision in relation
to the scope of an agency’s preemptive reach. The
Seventh Circuit did the opposite. In doing so, it
established an interpretation of § 11321(a) that allows
rail carriers to abuse their special status under ICCTA
by shielding themselves from liability for any corporate wrongdoing so long as it involves a rail transaction,
which is precisely what occurred in this case.
Accordingly, the Seventh Circuit’s decision must be
reversed.

14
CONCLUSION
The petition for writ of certiorari should be granted.
Respectfully submitted,
ANDREW W. DAVIS
STINSON LLP
50 South Sixth Street
Suite 2600
Minneapolis, MN 55402
(612) 335-1500
andrew.davis@stinson.com
DOUGLAS DALGLEISH
STINSON LLP
1201 Walnut Street
Suite 2900
Kansas City, MO 64106
(816) 842-8600
doug.dalgleish@stinson.com

DENNIS LANE
Counsel of Record
DAVID RIFKIND
STINSON LLP
1775 Pennsylvania Ave. NW
Suite 800
Washington, D.C. 20006
(202) 785-9100
dennis.lane@stinson.com
david.rifkind@stinson.com

Counsel for Petitioners
November 6, 2020

APPENDIX

1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
————
No. 19-3100
————
SOO LINE RAILROAD COMPANY d/b/a
CANADIAN PACIFIC,
Plaintiff-Appellant,
v.
CONSOLIDATED RAIL CORPORATION, et al.,
Defendants-Appellees.
————
Appeal from the United States District Court
for the Northern District of Indiana,
Hammond Division.
No. 2:17-cv-106
Andrew P. Rodovich, Magistrate Judge.
————
ARGUED JUNE 3, 2020 — DECIDED JULY 15, 2020
————
Before SYKES, Chief Judge, and BAUER and ST. EVE,
Circuit Judges.
ST. EVE, Circuit Judge. Soo Line Railroad Company,
which we refer to by its business name, Canadian
Pacific, sought to bring state-law claims under the
diversity jurisdiction of the district court. Its suit
centered on a trackage rights agreement—a contract
governing one railroad’s use of another’s track—that
the Indiana Harbor Belt Railroad Company had

2a
signed with its majority shareholders at a price that
Canadian Pacific, the minority shareholder, alleged
was detrimental to Indiana Harbor’s profitability.
Canadian Pacific, though, had a problem. The
Surface Transportation Board (STB) has exclusive
authority to regulate trackage rights agreements, or to
exempt such agreements from its approval process,
and it had exempted Indiana Harbor’s agreement. The
defendants argued that, by effect of this exemption
authority, two statutes—49 U.S.C. §§ 10501(b) and
11321(a)—independently preempted Canadian Pacific’s
claims. The district court agreed with both arguments,
but in this appeal we focus on only one. The court
concluded that § 11321(a) preempted the claims and
noted that Canadian Pacific had made no argument
otherwise. Because we agree that Canadian Pacific
failed to contest this basis for dismissal, we affirm the
judgment on grounds of waiver.
I
Although the ownership structure of Indiana
Harbor is somewhat complex, we can simply summarize it. Plaintiff Canadian Pacific owns 49%; defendant
Consolidated Rail Corporation owns 51%. Two other
defendants, Norfolk Southern Corporation and CSX
Corporation, indirectly own Consolidated Rail. Norfolk
Southern and CSX each control two directors on
Indiana Harbor’s seven-person board and, thus, have
a majority over Canadian Pacific’s three directors.
Indiana Harbor operates as a switch carrier on
tracks owned by Consolidated Rail and its parent
companies near Chicago. These railroads managed
their arrangement with a 99-year contract executed in
1906 between Indiana Harbor and the previous
owners of the tracks. Under the 1906 agreement,

3a
Indiana Harbor would pay the track owners annual
rent of approximately $150,000 for the use of the
tracks, some of which it would supervise and maintain. The track owners would then pay Indiana Harbor
a share of the operating and maintenance expenses for
their proportional use of the supervised tracks. Near
the turn of the century, Consolidated Rail was paying
over $2 million a year in expenses.
Things changed in 1999. According to Canadian
Pacific’s amended complaint, which we accept as true
in the posture of this appeal, Consolidated Rail stopped
paying expenses and invoicing Indiana Harbor for rent
that year. This alleged quid pro quo cessation lasted
through the remainder of the contract term, which
ended in 2005, and into the extended negotiations over
a new trackage rights agreement.
Canadian Pacific alleges that during these negotiations, Consolidated Rail and its parent companies
used their power as majority shareholders to force
Indiana Harbor into an atrocious deal. Indiana
Harbor’s board had obtained an independent
appraisal estimating that a fair annual rent for the
tracks was $1.3 million and unanimously resolved to
offer that much, but they were rebuffed. Instead,
Consolidated Rail threatened to involve the STB;
Norfolk Southern demanded the rent that had gone
unpaid since 1999; and CSX even warned it would
evict Indiana Harbor if it did not agree to a higher
price. Under this pressure, Indiana Harbor’s board
split 4-3 along company lines to approve a new
agreement at a total annual rent of $5 million and
with terms that Canadian Pacific insists transferred
ownership of Indiana Harbor’s assets to the track
owners.

4a
Indiana Harbor, Consolidated Rail, Norfolk Southern, and CSX then notified the STB of their agreement. Under federal law, the STB must approve a
trackage rights agreement before it can be carried
out. 49 U.S.C. § 11323(a)(6). Regulations, however,
exempt certain transactions from this approval
process, including trackage rights agreements that are
“(i) based on written agreements, and (ii) not filed or
sought in responsive applications in rail consolidation
proceedings.” 49 C.F.R. § 1180.2(d)(7); see also 49
U.S.C. § 10502(a) (authorizing exemptions). The railroads all applied for this exemption, and the STB
granted it over Canadian Pacific’s request to stay the
proceedings. Indiana Harbor Belt R.R.—Trackage
Right—Consolidated Rail Corp., CSX Transp., Inc., &
Norfolk S. Ry., No. FD 36099, 2017 WL 992358 (Mar.
14, 2017).
Canadian Pacific predicated its stay motion on the
litigation in this case. It had filed a verified complaint
earlier that month alleging that Consolidated Rail,
Norfolk Southern, and CSX had breached fiduciary
duties they owed to it and Indiana Harbor under
Indiana law. As remedies, Canadian Pacific sought
compensatory and punitive damages based on the
alleged overpayment for the trackage rights, voidance
of the new agreement, an injunction requiring Indiana
Harbor’s board to approve only the $1.3 million price,
and an order for Consolidated Rail to pay the
operating and maintenance expenses it owed since
1999.
Consolidated Rail moved to dismiss the complaint
for failure to state a claim. It argued that 49 U.S.C.
§ 10501(b) and 49 U.S.C. § 11321(a) independently
preempted Canadian Pacific’s claims.

5a
Section 10501(b) gives the STB exclusive jurisdiction over “transportation by rail carriers, and the
remedies provided in this part with respect to rates.”
Such remedies “with respect to regulation of rail transportation . . . preempt the remedies provided under
Federal or State law.” 49 U.S.C. § 10501(b). Canadian
Pacific was seeking remedies with respect to the rates
charged for trackage rights, Consolidated Rail argued,
so any state-law remedies were preempted.
Section 11321(a) provides that “[a] rail carrier,
corporation, or person participating in . . . [an]
exempted transaction is exempt from the antitrust
laws and all other law, including State and municipal
law, as necessary to let that rail carrier, corporation,
or person carry out the transaction.” 49 U.S.C.
§ 11321(a). Because the STB exempted the trackage
rights agreement, Consolidated Rail asserted that it
was exempt from Indiana tort law to the extent the
claims sought to prevent the terms of the transaction,
including price, from being carried out.
Although neither preemption argument extended to
the alleged failure to pay expenses in breach of the
1906 agreement, Consolidated Rail contended that
claim failed for a different reason. It owed expenses
only for its proportional use of the tracks, but the
complaint never alleged that it had used the tracks
after 1999.
Before the district court ruled on the first set of
motions to dismiss, Canadian Pacific amended its
complaint. It added more defendants, including the
whole family of subsidiaries and holding companies
through which Norfolk Southern and CSX owned
Consolidated Rail, as well as the four directors who
had approved the agreement. Regarding the expenses,

6a
though, it still failed to allege that Consolidated Rail
had used the track after 1999.
Consolidated Rail, Norfolk Southern, and CSX
jointly moved to dismiss, adopting Consolidated Rail’s
preemption arguments. Although it thoroughly contested the defendants’ reading of § 10501(b), Canadian
Pacific did not respond to the § 11321(a) argument
other than to assert, without elaboration, that the
section did not preempt its claims.
A magistrate judge, presiding by consent, agreed
with both of the defendants’ preemption arguments.
Regarding § 11321(a), the judge straightforwardly reasoned that the claims would prevent the trackage
rights agreement from being carried out as exempted.
Canadian Pacific had “not presented any argument to
the contrary.”
The court then requested supplemental briefing on
the expenses issue. During the period of supplemental
briefing Canadian Pacific still did not try to amend its
complaint to add the necessary facts that Consolidated
Rail had consistently identified as missing. Without
an allegation that Consolidated Rail had used the
track after 1999, the district court concluded that
Canadian Pacific failed to state a plausible breach of
contract claim. Finally, the remaining defendants
asked the court to dismiss them alongside the others.
The court agreed and entered final judgment.
II
On appeal, Canadian Pacific challenges the breadth
of the district court’s preemption analysis, which it
asserts deprives minority shareholders of any remedy
for corporate malfeasance even tangentially related to
trackage rights. The defendants, for their part, center
their defense of the judgment on § 11321(a) and,

7a
specifically, Canadian Pacific’s failure to make any
argument relating to that section in the district court.
They assert that this omission amounts to waiver. We
agree.
Generally, “[f]ailing to bring an argument to the
district court means that you waive that argument on
appeal.” Wheeler v. Hronopoulos, 891 F.3d 1072, 1073
(7th Cir. 2018). A party must present the specific argument urged on appeal and cannot rest on having
addressed the same general issue. Puffer v. Allstate
Ins. Co., 675 F.3d 709, 718 (7th Cir. 2012); Fednav Int’l
Ltd. v. Cont’l Ins. Co., 624 F.3d 834, 841 (7th Cir.
2010). Although the argument need not be present in
all its particulars and a party may elaborate in its
appellate briefs, Lawson v. Sun Microsystems, Inc.,
791 F.3d 754, 761 (7th Cir. 2015), a conclusory argument that amounts to little more than an assertion
does not preserve a question for our review. Betco
Corp. v. Peacock, 876 F.3d 306, 309 (7th Cir. 2017).
In response to the joint motion to dismiss, Canadian
Pacific made only two references to § 11321(a). It noted
that the statute’s preemptive scope was “far from
unlimited” before transitioning into arguments about
the meaning of the word “regulation” in § 10501(b),
and it asserted that the defendants’ arguments under
both § 10501(b) and § 11321(a) were inconsistent with
their representations before the STB. It did not support any of its arguments with even a single legal
authority purporting to interpret § 11321(a), let alone
those authorities pressed on appeal. With so little, we
understand why the district court concluded that
Canadian Pacific had not truly contested preemption
under § 11321(a).
Canadian Pacific does not pretend that it made its
arguments in the district court or try to classify its

8a
appellate briefs as an elaboration. Rather, it accepts
that it waived its § 11321(a) arguments—as well as
some § 10501(b) arguments more nuanced than those
presented to the district court—and asks us to overlook that waiver.
We have the discretion to take up these issues in the
first instance, see Singleton v. Wulff, 428 U.S. 106, 121
(1976), “but to say that an appellate court may address
an issue that was forfeited in the district court is not
to say that it must.” Builders NAB LLC v. FDIC, 922
F.3d 775, 778 (7th Cir. 2019). Canadian Pacific offers
us no persuasive reason to address its new arguments.
It does not even explain why it so poorly developed its
theories in the district court and asserts only that we
have been more willing to overlook waiver when the
new argument on appeal raises a pure question of law
or statutory interpretation. See, e.g., Hively v. Ivy Tech
Cmty. Coll. of Ind., 853 F.3d 339, 351 (7th Cir. 2017)
(en banc); Amcast Indus. Corp. v. Detrex Corp., 2 F.3d
746, 749–50 (7th Cir. 1993).
A question of law is not an express ticket to the court
of appeals that permits passing by the district court.
Although we are more conducive to forgiving waiver of
legal issues, we still do so only “sparingly” and in “rare
instance[s].” In re Sw. Airlines Voucher Litig., 799
F.3d 701, 714 (7th Cir. 2015). The posture of this
appeal—from dismissal under Federal Rule of Civil
Procedure 12(b)(6)—means that nearly all arguments
that can be put before us are “abstract” questions of
law. Ashcroft v. Iqbal, 556 U.S. 662, 674 (2009). Nevertheless, we routinely decline to consider new arguments on appeal from dismissals at the pleadings stage.
E.g., Lee v. Ne. Ill. Reg’l Commuter R.R., 912 F.3d
1049, 1053–54 (7th Cir. 2019); G & S Holdings LLC v.
Cont’l Cas. Co., 697 F.3d 534, 538 (7th Cir. 2012); Cty.

9a
of McHenry v. Ins. Co. of the West, 438 F.3d 813, 817–
20 (7th Cir. 2006); Kirksey v. R.J. Reynolds Tobacco
Co., 168 F.3d 1039, 1041–42 (7th Cir. 1999). We see
nothing about this dismissal to make it any more
worthy of consideration than any other. Indeed, it may
well be less deserving. Canadian Pacific is a sophisticated party, represented by able counsel, and knew it
needed to raise all arguments it had against the
motion to dismiss, yet it failed to do so without
explanation. See Cty. of McHenry, 438 F.3d at 820.
Litigants are obligated to present to the district
court both factual and legal arguments in support of
their positions. Canadian Pacific decided how to litigate its case, offered the district court nothing at all on
an entire theory of the defendants’ case, and predictably lost. That it lost as matter of law, not fact, does not
alone incline us to revisit that outcome.
Canadian Pacific’s waiver, though, does not resolve
the entire appeal. The defendants did not argue in the
district court that § 11321(a) exempted them from
Canadian Pacific’s claims for damages relating to the
operating and maintenance expenses under the 1906
agreement. (They raise a new argument along these
lines on appeal, but waiver cuts both ways and we say
no more on that theory.) The question remains, then,
whether the complaint stated a claim based on these
expenses.
We review de novo the dismissal of a complaint for
failure to state a claim. See Div. Six Sports, Inc. v.
Finish Line, Inc., 928 F.3d 631, 635 (7th Cir. 2019). To
survive a motion to dismiss, a complaint must contain
“sufficient factual matter, accepted as true, to ‘state a
claim to relief that is plausible on its face.’” Iqbal, 556
U.S. at 678 (quoting Bell Atlantic Corp. v. Twombly,
550 U.S. 544, 570 (2007)).

10a
Canadian Pacific argues that the district court erred
by addressing its claim as a breach of contract instead
of a breach of fiduciary duty. Whatever label we use,
though, Canadian Pacific has failed to state a claim.
Even as Canadian Pacific recasts its allegations on
appeal, it insists only (1) Consolidated Rail had an
obligation to pay consistent with the terms of the 1906
agreement, (2) Consolidated Rail stopped paying in
1999, and (3) Canadian Pacific is “entitled to recover
damages.” That is a fair summary of the relevant parts
of the complaint and it also easily demonstrates the
complaint’s failings. The third statement is a bare
legal conclusion that we need not credit and the former
two are textbook examples of facts “‘merely consistent
with’ a defendant’s liability” that do not elevate the
claim to a level of plausibility. Id.; Taha v. Int’l Bhd.
of Teamsters, Local 781, 947 F.3d 464, 471 (7th Cir.
2020). Under the terms of the 1906 agreement,
Consolidated Rail was obligated to pay expenses only
if it used the tracks (or allowed others to use the
tracks). If it stopped using the tracks in 1999, as it
represented to the STB, then it could stop paying
without breaching a single fiduciary or contractual
duty. Despite having ample opportunity to do so,
Canadian Pacific never alleged that Consolidated Rail
used the tracks or allowed others to use them after
1999, so it did not state a plausible claim based on the
failure to pay expenses after that date.
AFFIRMED

11a
APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF INDIANA
HAMMOND DIVISION
[Filed March 29, 2018]
————
Case No. 2:17-cv-106
————
SOO LINE RAILROAD COMPANY, d/b/a
CANADIAN PACIFIC,
Plaintiff,
v.
CONSOLIDATED RAIL CORPORATION, et al.,
Defendants.
————
OPINION AND ORDER
This matter is before the court on the Motion of
Defendants Consolidated Rail Corporation, Norfolk
Southern Railway Company, and CSX Transportation,
Inc., to Dismiss the Amended Complaint and to Dismiss or Strike the Amended Complaint’s Requests for
Relief [DE 77] filed by the defendants, Consolidated
Rail Corporation, Norfolk Southern Railway Company,
and CSX Transportation, Inc., on August 3, 2017. For
the following reasons, the motion is GRANTED in part
and DENIED in part.
Background
The plaintiff, Soo Line Railroad Company, d/b/a
Canadian Pacific (CP), filed this state-law action
alleging primary and secondary liability for breaches
of fiduciary duties. The Indiana Harbor Belt Railroad

12a
Company (IHB) with the defendants, Consolidated
Rail Corporation (Conrail), Norfolk Southern Railway
Company (NSR), and CSX Transportation, Inc. (CSXT)
entered into a Master Trackage Rights Agreement.
IHB is a switch carrier that operates in the Chicago
area, and its main shareholders are CP and Conrail.
The trackage rights agreement allows IHB to operate,
for a fee, on tracks owned by Conrail, NSR, and CSXT
(defendants). Conrail’s ultimate parents are Norfolk
Southern Corporation and CSX Corporation.
CP, a minority shareholder of IHB, has alleged that
the revised trackage rights agreement charges IHB
unfair rents and that Conrail, the majority shareholder of IHB, and others wrongfully caused IHB to
accept those rents. CP has indicated that its claims
raise matters of corporate misconduct and breaches of
corporate fiduciary duties. CP has alleged that
Conrail, NSR, and CSXT, along with their intermediate and ultimate parent holding companies and members of IHB’s board of directors, breached their
fiduciary duties by putting IHB at financial risk and
adopting substantially different terms than those
recommended by IHB’s management and consultants.
Further, CP has alleged that IHB management was
coerced to change its position and was compelled to
adopt the rental rates included in the revised trackage
rights agreement.
A 1906 Agreement existed between IHB and the
predecessors of Conrail, NSR, and CSXT, which gave
IHB the right to operate for 99 years on the defendants’ properties at a fixed annual rent. Conrail would
reimburse IHB for operating and maintenance expenses
(O&M expenses) that IHB incurred. The 1906
Agreement terminated in 2005. CP has alleged that
the agreement remained unchanged until 1999 when

13a
Conrail stopped invoicing IHB for rent. Therefore, IHB
stopped making rental payments, as well as Conrail
stopped paying O&M expenses in 1999.
The parties began discussing a new trackage rights
agreement in 2011, but they were unable to agree on
proposed rents. IHB management hired an independent appraiser and/or consultant to recommend a rent
amount. CP has alleged that on December 7, 2016, the
IHB Board, along with the majority directors who
acted as the defendants’ agents, agreed and passed the
IHB Board Resolution. CP has indicated that shortly
thereafter the defendants sought to undo the agreement, and therefore have threatened IHB’s operations, undermined the IHB Board Resolution, and continued to demand exorbitant rent payment increases.
At a February 1, 2017 special board meeting, IHB
management withdrew its support for the IHB Board
Resolution. At the meeting, a new draft trackage
rights agreement and a proposed resolution to adopt
the Revised Master Trackage Rights Agreement were
provided. The majority directors, over the minority
directors’ objections, approved the proposed resolution
and the Revised Master Trackage Rights Agreement.
CP has alleged that the defendants engaged in a
pattern of coercive and oppressive behavior that was
adverse to IHB’s interests, including but not limited
to, self-dealing, unauthorized conduct, refusal to disclose material information, demanding and approving
the onerous Revised Master Trackage Rights Agreement while refusing to declare any dividends, threatening to withdraw operating rights without legal
justification, and other acts constituting breaches of
their fiduciary duties under Indiana law.
CP’s requests for relief include compensatory and
punitive damages, disgorgement of any ill-gotten

14a
profits resulting from IHB’s payments under the
Revised Master Trackage Rights Agreement, rescission of the Revised Master Trackage Rights Agreement, and an injunction compelling the defendants to
implement and enforce the IHB Board Resolution. CP
also requests O&M Expenses that Conrail was
obligated to pay pursuant to the terms of the 1906
Agreement and reasonable attorneys’ fees.
The defendants have argued that CP’s claims and
requested remedies are preempted by the ICC Termination Act, 49 U.S.C. 10101, et seq. The defendants
contend that under the Termination Act, CP may not
use state tort law to challenge the terms of the trackage rights agreement, which are exclusively within the
Surface Transportation Board’s (STB) jurisdiction.
Therefore, the defendants assert that the Amended
Complaint has failed to state a claim for relief. Also,
the defendants have requested that CP’s request for
O&M expenses relating to the 1906 trackage rights
agreement be dismissed, as well as CP’s request for
attorneys’ fees. CP filed a response in opposition on
October 3, 2017, and the defendants filed a reply on
October 31, 2017.
Discussion
Federal Rule of Civil Procedure 12(b)(6) allows for a
complaint to be dismissed if it fails to “state a claim
upon which relief can be granted.” Allegations other
than those of fraud and mistake are governed by the
pleading standard outlined in Federal Rule of Civil
Procedure 8(a)(2), which requires a “short and plain
statement” to show that a pleader is entitled to relief.
See Cincinnati Life Ins. Co. v. Beyrer, 722 F.3d 939,
946 (7th Cir. 2013). The Supreme Court clarified its
interpretation of the Rule 8(a)(2) pleading standard in
a decision issued in May 2009. While Rule 8(a)(2) does

15a
not require the pleading of detailed allegations, it
nevertheless demands something more “than an unadorned, the-defendant-unlawfully-harmed-me accusation.” Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S. Ct.
1937, 1949, 173 L. Ed. 2d 868 (2009). In order to
survive a Rule 12(b)(6) motion, a complaint “must
contain sufficient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’”
Iqbal, 556 U.S. at 678 (quoting Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 570, 127 S. Ct. 1955, 167 L.
Ed. 2d 929 (2007)); Cincinnati Life Ins., 722 F.3d at
946 (“The primary purpose of [Fed.R.Civ.P. 8 and
10(b)] is to give defendants fair notice of the claims
against them and the grounds supporting the claims.”)
(quoting Stanard v. Nygren, 658 F.3d 792, 797 (7th
Cir. 2011)); Peele v. Clifford Burch, 722 F.3d 956, 959
(7th Cir. 2013) (explaining that one sentence of facts
combined with boilerplate language did not satisfy
the requirements of Rule 8); Joren v. Napolitano,
633 F.3d. 1144, 1146 (7th Cir. 2011). This pleading
standard applies to all civil matters. Iqbal, 556 U.S. at
684.
The decision in Iqbal discussed two principles that
underscored the Rule 8(a)(2) pleading standard
announced by Twombly. See Twombly, 550 U.S. at 555
(discussing Rule 8(a)(2)’s requirement that factual
allegations in a complaint must “raise a right to relief
above the speculative level”). First, a court must
accept as true only factual allegations pled in a
complaint—”[t]hreadbare recitals of the elements of a
cause of action” that amount to “legal conclusions” are
insufficient. Iqbal, 556 U.S. at 678. Next, only complaints that state “plausible” claims for relief will
survive a motion to dismiss. Iqbal, 556 U.S. at 678. If
the pleaded facts do not permit the inference of more
than a “mere possibility of misconduct,” then the

16a
complaint has not met the pleading standard outlined
in Rule 8(a)(2). Iqbal, 556 U.S. at 678–79; see Brown v.
JP Morgan Chase Bank, 2009 WL 1761101, at *1 (7th
Cir. June 23, 2009) (defining “facially plausible” claim
as a set of facts that allows for a reasonable inference
of liability). The Supreme Court has suggested a twostep process for a court to follow when considering a
motion to dismiss. First, any “well-pleaded factual
allegations” should be assumed to be true by the court.
Next, these allegations can be reviewed to determine
if they “plausibly” give rise to a claim that would
entitle the complainant to relief. Iqbal, 556 U.S. at
678–79; Bonte v. U.S. Bank, N.A., 624 F.3d 461, 465
(7th Cir. 2010). Reasonable inferences from well-pled
facts must be construed in favor of the plaintiff.
Murphy v. Walker, 51 F.3d 714, 717 (7th Cir. 1995);
Maxie v. Wal-Mart Store, 2009 WL 1766686, at *2
(N.D. Ind. June 19, 2009) (same); Banks v. Montgomery,
2009 WL 1657465, at *1 (N.D. Ind. June 11, 2009)
(same).
A complaint that lacks organization and coherence
so that it is too confusing to understand the factual
basis of the wrongful conduct also is subject to dismissal. Cincinnati Life Ins., 722 F.3d at 946. The court
assesses this by considering whether it can make out
the essence of the claims. Cincinnati Life Ins., 722
F.3d at 946. A complaint is not unintelligible simply
because it contains repetitive and irrelevant matter.
Cincinnati Life Ins., 722 F.3d at 946. “Rather, we have
found complaints wanting when they present a ‘vague,
confusing, and conclusory articulation of the factual
and legal basis for the claim and [take] a general
“kitchen sink” approach to pleading the case.’ . . .
[D]ismissal is the appropriate remedy for district
courts presented with ‘a bucket of mud.’” Cincinnati

17a
Life Ins., 722 F.3d at 946–47 (quoting Stanard, 658
F.3d at 798).
A federal court sitting in diversity applies the substantive law of the forum state, so Indiana law applies
here. Erie R. Co. v. Tompkins, 304 U.S. 64 (1938); Ruiz
v. Blentech, 89 F.3d 320, 324 (7th Cir. 1996). CP has
asserted claims alleging breaches of fiduciary duties.
A claim for breach of fiduciary duty requires proof of
three elements: (1) the existence of a fiduciary relationship; (2) a breach of the duty owed by the fiduciary
to the beneficiary; and (3) harm to the beneficiary.
Farmers Elevator Co. of Oakville, Inc. v. Hamilton, 926
N.E.2d 68, 79 (Ind. Ct. App. 2010). Breach of fiduciary
duty is a tort claim for injury to personal property. City
of E. Chicago, Ind. v. E. Chicago Second Century, Inc.,
908 N.E.2d 611, 618 (Ind. 2009).
CP has argued that the defendants have presented
contradictory positions to the STB and to this court.
CP has claimed that the defendants indicated to the
STB that the court was the proper forum to consider
CP’s breach of fiduciary duty claims, while now arguing that the claims are preempted by the Termination
Act. Moreover, CP asserts that the STB confirmed that
the court has jurisdiction over CP’s claims. The defendants’ contention is not that this court lacks jurisdiction, rather the defendants’ position is that the court
should decide the state-law dispute, including whether
CP’s claims are preempted by the Termination Act.
The defendants have indicated that the parties did not
brief nor did the STB decide the issue of preemption.
On February 13, 2017, Conrail, CSXT, NSR,
and IHB filed four combined verified notices of
exemption pursuant to the class exemption at 49
C.F.R. § 1180.2(d)(7) for trackage rights over rail lines
and ancillary trackage owned by Conrail, CSXT, and

18a
NSR. Ind. Harbor Belt R.R. Co. –Trackage Right–
Consol. Rail Corp., CSX Transp., Inc. & Norfolk S. Ry.
Co., 2017 WL 992358, at *3 (STB March 13, 2017). The
defendants indicated that the trackage rights are
pursuant to a written trackage rights agreement
entered into among IHB, Conrail, CSXT, and NSR. CP
filed a petition to stay the effectiveness of the exemptions pending the outcome of this litigation. However,
the STB denied the petition because CP had not
demonstrated that irreparable harm would occur. The
STB indicated that it was not issuing a ruling with
respect to the pending litigation before the District
Court. Ind. Harbor Belt R.R. Co., 2017 WL 992358, at
*3 (“The STB will deny CP’s petition for stay but notes
that the STB’s exemption authority is permissive only
and does not constitute a ruling with respect to the
pending litigation before the District Court.”). Accordingly, the STB did not resolve the preemption issue.
Congress passed the Termination Act in 1995 in
order to deregulate the railroad industry. See
Cedarapids, Inc. v. Chicago, Cent. & Pac. R.R. Co., 265
F. Supp. 2d 1005, 1011 (N.D. Iowa 2003) (“Congress
sought to federalize many aspects of railway regulation that previously had been reserved for the states
in an effort to ensure the success of Congress’ attempt
to deregulate and thereby revitalized the industry.”).
This comprehensive set of statutes under 49 U.S.C.
§ 10101 et seq. were designed to supersede the
Interstate Commerce Act (ICA). CSX Transp. Co. v.
Novolog Bucks Cnty., 502 F.3d 247, 251 (3d Cir. 2007).
To promote the goal of “federalizing” railroad regulation, Congress established the STB, an administrative
agency charged with “administer[ing] the ICCTA.”
See 49 U.S.C. § 1301(a) (“There is hereby established
within the Department of Transportation the Surface
Transportation Board.”).

19a
The defendants have argued that CP’s state tort law
claims are preempted by § 10501(b) of the Termination
Act which provides the STB with exclusive jurisdiction
over:
(1) transportation by rail carriers, and the
remedies provided in this part with
respect to rates, classifications, rules
(including car service, interchange, and
other operating rules), practices, routes,
services, and facilities of such carriers;
and
(2) the construction, acquisition, operation,
abandonment, or discontinuance of spur,
industrial, team, switching, or side tracks,
or facilities, even if the tracks are located,
or intended to be located, entirely in one
State.
Except as otherwise provided in this part, the
remedies provided under this part with respect to
regulation of rail transportation are exclusive and
preempt the remedies provided under Federal or State
law.
49 U.S.C. § 10501(b). The concluding sentence of
§ 10501(b) is an unmistakable statement of Congress’s
intent to preempt state laws touching on the substantive aspects of rail transportation. Engelhard Corp. v.
Springfield Terminal Ry. Co., 193 F. Supp. 2d 385, 389
(D. Mass. 2002); Cedarapids, Inc. v. Chi., Cent. & Pac.
R.R. Co., 265 F. Supp. 2d 1005, 1013 (N.D. Iowa 2003)
(“[I]n enacting the ICCTA, Congress intended to
occupy completely the field of state economic regulation of railroads.”). Congress defined “transportation”
broadly to include railroad property, facilities, and
equipment “related to the movement of passengers or

20a
property, or both, by rail, regardless of ownership or
an agreement concerning use.” 49 U.S.C. § 10102(9).
The Act does not define “regulation,” but the Seventh
Circuit has observed that “Congress’s intent in the Act
to preempt state and local regulation of rail transportation has been recognized as broad and sweeping.”
Union Pac. R.R. Co. v. Chicago Transit Auth., 647 F.3d
675, 678 (7th Cir. 2011). The only potential limitation
on the face of the statute is the clause “with respect to
regulation of rail transportation.” 49 U.S.C. § 10501(b)
(emphasis added). Thus, some courts have argued that
§ 10501(b) does not apply to all “rail transportation,”
but only to regulation of such transportation. See, e.g.,
Fla. E. Coast Ry. v. City of West Palm Beach, 266 F.3d
1324, 1331 (11th Cir. 2001); but see also City of Auburn
v. United States, 154 F.3d 1025, 1030 (9th Cir. 1998)
(“There is nothing in the case law that supports
Auburn’s argument that, through the ICCTA, Congress only intended preemption of economic regulation
of the railroads.”).
The factual circumstances of each claim must be
considered to determine whether it is preempted by
the Termination Act. See In re Vermont Ry., 171 Vt.
496, 769 A.2d 648, 654 (2000) (noting that the Termination Act preemption determination is a fact-bound
inquiry). The Termination Act preempts “all state
laws that reasonably may be said to have the effect of
managing or governing rail transportation, while
permitting the continued application of laws having a
more remote or incidental effect on rail transportation.” N.Y. Susquehanna & W. Ry. Corp. v. Jackson,
500 F.3d 238, 252 (3d Cir. 2007) (quoting Fla. E. Coast
Ry. Co. v. City of W. Palm Beach, 266 F.3d 1324, 1331
(11th Cir. 2001)); see also Adrian & Blissfield R. Co. v.
Vill. of Blissfield, 550 F.3d 533, 539 (6th Cir. 2008).
Courts have held that a rail carrier asserting a state

21a
contract claim cannot use the preemptive effect of
§ 10501(b) to shield it from its own commitments.
Pejepscot Indus. Park, Inc. v. Maine Cent. R. Co., 297
F.Supp.2d 326, 333 (D. Me. 2003). However, CP has
asserted state tort law claims. Therefore, “[w]here a
tort claim would interfere with ‘rail transportation’ or
‘operation’ of railroad tracks or facilities, the regulation or claim is expressly preempted.” Benson v. Union
Pac. R.R. Co., No. 2:08–cv–331– GEB–EFB, 2008 WL
2946331, at *3 (E.D. Cal. July 25, 2008) (collecting
cases).
The Revised Master Trackage Rights Agreement is
subject to the jurisdiction of the STB and may be
carried out only with the approval and authorization
of the STB. 49 U.S.C. § 11323(a)(6). In interpreting the
reach of § 10501(b) preemption, the STB and the
courts have found that it prevents states or localities
from intruding into matters that are directly regulated
by the STB (e.g., railroad rates, services, construction,
and abandonment). Boston and Maine Corporation &
Springfield Terminal Railroad Company- Petition for
Declaratory Order, 2013 WL 3788140, at *3 (July 19,
2013).
The defendants have argued that CP’s state tort law
action challenges the terms of the Revised Master
Trackage Rights Agreement. Specifically, the defendants have argued that CP is challenging the fairness
of the rental rates. The Amended Complaint has
alleged that the Revised Master Trackage Rights
Agreement includes rental rates that “grossly exceed
market standards,” and are “grossly in excess” of those
approved by IHB management in the IHB Management Recommendation. Additionally, CP has asserted
that Conrail, the Majority Directors, and the Parent
Entities have failed to fulfill their fiduciary duties to

22a
ensure that the transaction was reasonable and not
excessive.
Shareholders, officers, and directors in a closely held
corporation owe the corporation a duty to deal fairly,
honestly, and openly and must not be distracted from
the performance of official duties by personal interests. Rapkin Group, Inc. v. Cardinal Ventures, Inc., 29
N.E. 3d 752, 757 (Ind. Ct. App. 2015). The defendants
have cited G & N Aircraft, Inc. v. Boehm, 743 N.E.2d
227, 239 (Ind. 2001), which held that in evaluating a
claim of breach of duty in a closely held corporation the
court will uphold a challenged transaction if: “(1) the
material facts of the transaction and [the director’s]
interest were disclosed or known to [the minority],
(2) the requisite corporate formalities necessary to
authorize, approve, or ratify the transaction were
followed, and (3) the transaction was fair to the
corporation.” Accordingly, under the third requirement, it is a breach of the majority shareholder’s
fiduciary duty to cause the corporation to enter into an
unfair transaction to the personal advantage of the
majority shareholder. G & N Aircraft, Inc., 743 N.E.2d
at 239 (“To the extent G & N overpaid for parts, this
would state a claim.”).
CP has argued that the defendants’ contention that
it has challenged the reasonableness of the rental
rates in the trackage agreement is misplaced. CP has
indicated that while price is a factor, the fairness
inquiry is much broader. Therefore, CP contends that
the court would not need to determine what constitutes reasonable rents in order to determine that the
transaction does not carry the “earmarks of an arm’s
length transaction.” See Pepper v. Litton, 60 S.Ct. 238,
245, 308 U.S. 295, 306 (U.S. 1939). Moreover, CP has
indicated that it is not requesting that the court set

23a
trackage rights terms, rather that the court void an
improperly procured contract and punish corporate
misconduct. However, Indiana case law, which is
binding in this diversity matter, has indicated that the
law of fiduciary duty in closely held corporation
requires that the court determine whether the transaction (i.e., rental rates in the trackage agreement)
was unfair to the corporation. See G & N Aircraft, Inc.,
743 N.E.2d at 239; see also Melrose v. Capitol City
Motor Lodge, Inc., 705 N.E.2d 985, 991 (Ind. 1998).
Moreover, the Termination Act has preempted state
law claims that were designed as a means of getting
the court to apply state law to assess the substantive
“fairness” of the contracts the railroads entered into,
including with reference to the manner in which the
rates were computed. See Fayus Enters. v. BNSF Ry.,
602 F.3d 444, 452 (D.C. Cir. 2010) (state law claims
“would directly interfere with the ICCTA’s deregulatory objectives,” because those claims challenged the
fairness of the railroads’ contracts, including “the
manner in which the rates were computed.”).
CP has asserted that this state law action is not a
trackage rights compensation case. However, CP’s
requests for relief regulate (i.e. terminate) the rental
rates in the revised trackage rights agreement. CP’s
requests for relief include: damages for breaches of
fiduciary duties; punitive damages on the basis that
the breaches of fiduciary duties were wanton, willful,
intentionally oppressive, and/or malicious; disgorgement of any ill-gotten profits from IHB payments
under the Revised Master Trackage Rights Agreement; voiding the Revised Master Trackage Rights
Agreement; and entering an injunction compelling
defendants to implement and enforce the IHB Board
Resolution.

24a
The Seventh Circuit has found that State regulation
can be as effectively exerted through an award of
damages as through some form of preventive relief.
Wedemeyer v. CSX Transportation, Inc., 850 F.3d 889,
897 (7th Cir. 2017); See, e.g., Cipollone v. Liggett Grp.,
Inc., 505 U.S. 504, 521, 112 S.Ct. 2608, 120 L.Ed.2d
407 (1992); Thomas Tubbs, Tr. of the Thomas Tubbs
Revocable Trust & Individually, & Dana Lynn Tubbs,
Tr. of the Dana Lynn Tubbs Revocable Trust &
Individually—Petition for Declaratory Order, FD
35792, 2014 WL 5508153, at *4 (S.T.B. Oct. 29, 2014)
(“damages awarded under state tort laws can manage
or regulate a railroad as effectively as the application
of any other type of state statute or regulation”);
see South Dakota ex rel. South Dakota R.R. Authority
v. Burlington Northern & Santa Fe Ry. Co., 280
F.Supp.2d 919, 934 (D.S.D. 2003) (finding that
economic recoveries through tort claims could impact
rates, routes, and services).
Moreover, in Thompson v. Texas Mexican Ry. Co., 66
S.Ct. 937, 946–47, 328 U.S. 134, 150 (U.S. 1946), the
Supreme Court found that under the federal regulatory scheme, the ICC, rather than courts or juries,
should set trackage rights compensation. Under 49
U.S.C. § 11323(a)(6), the STB has plenary authority
over trackage rights agreements between rail carriers
and the authority, if necessary, to set the terms of
compensation. Thompson, 328 U.S. at 145-47. The
STB’s authority is exclusive and extends to fixing the
terms and conditions of the trackage rights arrangement. Thompson, 328 U.S. at 147; see also Mexrail Inc.
v. Union Pacific Railroad Company and Missouri
Pacific Railroad Company, 2000 WL 967298, at *3
(STB July 13, 2000).

25a
It is undisputed by the parties that the court may
not set trackage rights compensation. Therefore, the
court may not enter an injunction that compels the
defendants to implement and enforce the IHB Board
Resolution, which contained different rental rates. To
reiterate, the STB has the authority to fix the terms of
the trackage rights arrangement. Thompson, 328 U.S.
at 147. Additionally, the court is unable to void the
Revised Master Trackage Rights Agreement without
determining that the rental rates were unfair. The
court finds that CP’s state tort law claim and the relief
requested would unreasonably interfere with rail
transportation, and therefore is preempted.
CP has argued that, as an aggrieved minority
shareholder, it would have no recourse for the harm
suffered. However, that argument does not negate
what the Termination Act provides, Congress “grant[ed]
the STB exclusive jurisdiction” and “has the power to
eliminate state-law remedies and causes of action
without providing federal substitutes.” Griffioen v.
Cedar Rapids and Iowa City Railway Co., 785 F.3d
1182, 1192 (8th Cir. 2015). The recourse available to a
person aggrieved with respect to a matter that has
been exempted under § 10505 is to petition for partial
or complete revocation of the STB’s approval of the
notice of exemption. See 49 U.S.C. 10502(d).
Next, the defendants have argued that CP’s claims
are preempted by § 11321(a) which permits carriers
whose transaction has been “approved or exempted by
the STB under this subchapter” to carry out the transaction “without the approval of a State authority.” 49
U.S.C. § 11321(a) (referring to Title 49, Chapter 113,
Subchapter II). A rail carrier, corporation, or person
participating in that approved or exempted transaction is exempt from the antitrust laws and from all

26a
other law, including State and municipal law, as
necessary to let that rail carrier, corporation, or person
carry out the transaction. 49 U.S.C. § 11321(a). “The
authority of the STB under this subchapter is exclusive.” 49 U.S.C. § 11321(a). The statute makes the
exemption self-executing whenever necessary to carry
out an STB-approved transaction. 49 U.S.C. § 11321;
Interstate Commerce Comm’n v. Bd. of Locomotive
Eng’rs, 482 U.S. 270, 298, 107 S.Ct. 2360, 96 L.Ed.2d
222 (1987).
The IHB, Conrail, CSXT, and NSR filed four combined verified notices of exemptions pursuant to the
class exemption at 49 C.F.R. § 1180.2(d)(7) for
trackage rights. Ind. Harbor Belt R.R. Co., 2017 WL
992358, at *3. The STB granted the exemption from
the procedures otherwise required under 49 U.S.C.
§§ 11323 and 11324. Therefore, the Master Trackage
Rights Agreement is an exempt transaction that falls
within 49 U.S.C. § 11321(a). The immunity provision
of § 11321 means what it says, “a carrier is exempt
from all law as necessary to carry out an [STB]approved transaction.” Hall v. Norfolk Southern Ry.
Co., 469 F.3d 590, 598 (7th Cir. 2006).
Accordingly, CP’s requests for relief would prevent
the terms of the Revised Master Trackage Rights
Agreement from being carried out. CP has not presented any argument to the contrary. The STB
approved the terms of the Master Trackage Rights
Agreement and pursuant to § 11321(a) the trackage
agreement is an exempt transaction. The court could
grant CP’s requests for relief only by ignoring
§ 11321’s clear exemption language or by modifying
the terms of the STB-exempt agreement. See Hall, 469
F.3d at 599.

27a
CP has alleged additional claims including: Count II
aiding and abetting breach of fiduciary duties, Count
III civil conspiracy to breach fiduciary duties, and
Count IV vicarious liability for breach of fiduciary
duties. Indiana does not recognize aiding and abetting
a breach of a fiduciary duty as a separate or independent tort, but as a theory of liability. See Abrams v.
McGuireWoods LLP, 518 B.R. 491, 500 (N.D. Ind.
2014) (Indiana courts recognize aiding and abetting
liability for the particular tort of breach of fiduciary
duty); see also DiMaggio v. Rosario, 950 N.E.2d 1272,
1274 (Ind. Ct. App. 2011) (affirming trial court’s grant
of Rule 12(b)(6) dismissal on grounds that Indiana
does not recognize a cause against third-party nonfiduciary for aiding fiduciary in breach of duty, but
finding that even if such cause were recognized,
complaint failed to sufficiently allege elements of
underlying breach). Moreover, Indiana law requires
an underlying tort to accompany its civil conspiracy
allegations and vicarious liability claims. Crystal
Valley Sales, Inc. v. Anderson, 22 N.E.3d 646, 656 (Ind.
Ct. App. 2014); Jass v. Prudential Health Care Plan,
Inc., 88 F.3d 1482, 1490 (7th Cir. 1996). Therefore, the
court finds that without a viable underlying tort,
Counts II, III, and IV are not recoverable.
CP, as part of its breach of fiduciary duty claims, has
requested that the court award IHB the O&M Expenses
that Conrail was obligated to pay pursuant to the 1906
Agreement. The defendants have asserted that CP
has not adequately alleged that Conrail owes O&M
Expenses under the 1906 Agreement. Pursuant to
N.D. Ind. L.R. 7-1(e) supporting and response briefs
must not exceed 25 pages, while reply briefs must not
exceed 15 pages. The parties each spent approximately
1 to 2 pages at the conclusion of their briefs discussing
the issue of O&M Expenses. Therefore, it seems that

28a
given the limited amount of remaining space available, the parties proceeded in a cursory fashion on this
issue. Accordingly, the court will allow an additional
14 days for the parties provide supplemental briefs on
the issue of O&M expenses.
Based on the foregoing, the Motion of Defendants
Consolidated Rail Corporation, Norfolk Southern Railway Company, and CSX Transportation, Inc., to Dismiss the Amended Complaint and to Dismiss or Strike
the Amended Complaint’s Requests for Relief [DE 77]
is GRANTED in part and DENIED in part.
The parties’ supplemental briefs discussing the
issue of O&M Expenses are due 14 days from the date
of this Order.
ENTERED this 29th day of March, 2018.
/s/ Andrew P. Rodovich
United States Magistrate Judge

29a
APPENDIX C
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF INDIANA
HAMMOND DIVISION
[Filed September 27, 2019]
————
Case No. 2:17-cv-106
————
SOO LINE RAILROAD COMPANY, d/b/a
CANADIAN PACIFIC,
Plaintiff,
v.
CONSOLIDATED RAIL CORPORATION, et al.,
Defendants.
————
OPINION AND ORDER
This matter is before the court on the Motion to
Dismiss the First Amended Complaint [DE 122] filed
by the defendant, Indiana Harbor Belt Railroad, on
February 19, 2019, and the Joint Motion to Dismiss
Amended Complaint [DE 124] filed by the defendants,
Norfolk Southern Corporation, CSX Corporation, Terry
Evans, John Hart, Mike Pendergrass, and Tom Werner,
on February 20, 2019. For the following reasons, the
Motion to Dismiss the First Amended Complaint [DE
122] is GRANTED, and the Joint Motion to Dismiss
Amended Complaint [DE 124] is GRANTED.
Background
The plaintiff, Soo Line Railroad Company d/b/a
Canadian Pacific (CP), initiated this matter against
the defendants, Consolidated Rail Corporation (Conrail),

30a
Norfolk Southern Railway Company (NSR), and CSX
Transportation, Inc. (CSXT) (landlord defendants), on
March 6, 2017. The Complaint also named Indiana
Harbor Belt Railroad Company (IHB) as a defendant.
IHB was jointly owned by CP and Conrail, and
operated on property owned by Conrail, CSXT, and
NSR. CP has indicated that it does not seek relief
directly against IHB, a nominal defendant, rather it
has named IHB in this action because it may be
considered an indispensable party.
On June 2, 2017, the landlord defendants moved to
dismiss the Complaint as preempted by federal law.
CP filed an Amended Complaint on June 13, 2017,
rendering moot the landlord defendants’ motion to
dismiss. The Amended Complaint added ten additional defendants. The additional defendants included
the corporate parents of the landlord defendants,
Norfolk Southern Corporation and CSX Corporation
(parent defendants), and members of IHB’s board of
directors, Terry Evans, John Hart, Mike Pendergrass,
and Tom Werner (individual defendants).
In response to the Amended Complaint, the landlord
defendants renewed their motion to dismiss. The court
entered an Opinion and Order on March 29, 2018
granting in part the landlord defendants’ motion to
dismiss. The court found that CP’s claims were
preempted by the Interstate Commerce Commission
Termination Act (ICCTA), 49 U.S.C. §§ 10101, et seq.
The court held that CP’s claims would require the
court to adjudicate the fairness of rental rates and
impermissibly interfere with the Surface Transportation Board’s (STB) exclusive jurisdiction over regulated trackage rights transactions. Furthermore, the
court ordered supplemental briefing on CP’s request
for Operating and Maintenance (O&M) expenses. In

31a
an Opinion and Order entered on October 24, 2018, the
court dismissed all of CP’s claims against the landlord
defendants.
CP has not further amended the Amended Complaint. Thus, the Amended Complaint asserts the same
claims and requests for relief against the parent
defendants and the individual defendants as those
that previously were dismissed by the court on March
29, 2018. Therefore, the parent defendants and the
individual defendants have moved to dismiss the
Amended Complaint pursuant to Federal Rule of Civil
Procedure 12(b)(6). IHB also filed a motion to dismiss
the Amended Complaint on February 19, 2019. CP
filed a response in opposition on March 20, 2019, and
the parent defendants and individual defendants filed
a reply on April 8, 2019.
Discussion
Federal Rule of Civil Procedure 12(b)(6) allows for a
complaint to be dismissed if it fails to “state a claim
upon which relief can be granted.” Allegations other
than those of fraud and mistake are governed by the
pleading standard outlined in Federal Rule of Civil
Procedure 8(a)(2), which requires a “short and plain
statement” to show that a pleader is entitled to relief.
See Cincinnati Life Ins. Co. v. Beyrer, 722 F.3d 939,
946 (7th Cir. 2013). The Supreme Court clarified its
interpretation of the Rule 8(a)(2) pleading standard in
a decision issued in May 2009. While Rule 8(a)(2) does
not require the pleading of detailed allegations, it
nevertheless demands something more “than an unadorned, the-defendant-unlawfully-harmed-me accusation.” Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S. Ct.
1937, 1949, 173 L. Ed. 2d 868 (2009). In order to
survive a Rule 12(b)(6) motion, a complaint “must
contain sufficient factual matter, accepted as true, to

32a
‘state a claim to relief that is plausible on its face.’”
Iqbal, 556 U.S. at 678 (quoting Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 570, 127 S. Ct. 1955, 167 L.
Ed. 2d 929 (2007)); Cincinnati Life Ins., 722 F.3d at
946 (“The primary purpose of [Fed.R.Civ.P. 8 and
10(b)] is to give defendants fair notice of the claims
against them and the grounds supporting the claims.”)
(quoting Stanard v. Nygren, 658 F.3d 792, 797 (7th
Cir. 2011)); Peele v. Clifford Burch, 722 F.3d 956, 959
(7th Cir. 2013) (explaining that one sentence of facts
combined with boilerplate language did not satisfy the
requirements of Rule 8); Joren v. Napolitano, 633
F.3d. 1144, 1146 (7th Cir. 2011). This pleading
standard applies to all civil matters. Iqbal, 556 U.S. at
684.
On March 29, 2018, the court granted in part and
denied in part the landlord defendants’ motion to dismiss. The court concluded that CP’s claim for breach
of fiduciary duties against the landlord defendants
was preempted by §§ 10501(b) and 11312(a) of the
ICCTA. That statute vests the STB with exclusive
jurisdiction and authority over rail transportation,
including trackage rights agreements. 49 U.S.C.
§§ 10501(b), 11321(a). The court determined that CP’s
state-law claim and its requested relief required the
court to adjudicate the fairness of the rental rates, and
therefore interfered with the STB’s exclusive jurisdiction. Moreover, the court determined that by granting
the relief requested by CP it would ignore § 11321's
clear exemption language or modify the terms of the
STB-exempt agreement.
The court also dismissed Count II (aiding and
abetting breach of fiduciary duties), Count III (civil
conspiracy to breach fiduciary duties), and Count IV
(vicarious liability for breach of fiduciary duties)

33a
because without a viable underlying tort, Counts II-IV
were not recoverable. Additionally, CP requested that
the court award IHB the O&M expenses that Conrail
was obligated to pay pursuant to the 1906 Agreement.
The court found that the parties proceeded in a
cursory fashion on the O&M issue and allowed them
to file supplemental briefs. On October 24, 2018, after
considering the supplemental briefs, the court entered
an Opinion and Order dismissing CP’s request for
O&M expenses and granting the motion to dismiss.
Accordingly, CP’s claims against the landlord
defendants were dismissed in their entirety.
The parent defendants and the individual defendants have filed the instant motion requesting the court
to dismiss the Amended Complaint. The parent defendants and the individual defendants have indicated
that the Amended Complaint has not been further
amended and asserts the same claims and seeks the
same relief against them as previously dismissed by
the court against the landlord defendants. Therefore,
they have argued that the March 29, 2018 Opinion and
Order should apply to them with equal weight. In the
response in opposition, CP did not argue that the
court’s reasoning should be applied with less force to
the parent defendants and the individual defendants
than the landlord defendants. Rather, CP simply
rehashed the arguments that the court previously
ruled on. Accordingly, the ICCTA preempts CP’s
claims, which include the claims against the parent
defendants and the individual defendants.
IHB also has filed a motion requesting the court to
dismiss the Amended Complaint pursuant to Federal
Rule of Civil Procedure 12(b)(1) for lack of subject
matter jurisdiction. “A case becomes moot, and the
federal courts lose subject matter jurisdiction, when a

34a
justiciable controversy ceases to exist between the
parties.” Aslin v. Financial Indus. Regulatory Auth.,
Inc., 704 F.3d 475, 477 (7th Cir. 2013). “A dismissal on
mootness grounds is a dismissal for lack of jurisdiction.” Bernstein v. Bankert, 733 F.3d 190, 224 (7th Cir.
2013). IHB contends that all the matters in the
Amended Complaint have been adjudicated, and
therefore, this case is moot. CP argued that a justiciable controversy exists because the court has not
adjudicated the claims against the parent defendants
and the individual defendants. However, as discussed
above, the court has dismissed those claims. Accordingly, the court lacks subject matter jurisdiction and
dismisses the Amended Complaint against IHB as
moot, pursuant to Rule 12(b)(1).
Based on the foregoing reasons, the Motion to Dismiss the First Amended Complaint [DE 122] is
GRANTED, and the Joint Motion to Dismiss Amended
Complaint [DE 124] is GRANTED. The court hereby
DISMISSES the Amended Complaint WITH PREJUDICE.
ENTERED this 27th day of September, 2019.
/s/ Andrew P. Rodovich
United States Magistrate Judge

35a
APPENDIX D
2017 WL 992358 (S.T.B.)
Surface Transportation Board (S.T.B.)
————
INDIANA HARBOR BELT RAILROAD
COMPANY—TRACKAGE RIGHTS—
CONSOLIDATED RAIL CORPORATION,
CSX TRANSPORTATION, INC., AND
NORFOLK SOUTHERN RAILWAY COMPANY
————
Docket No. FD 36099
————
CSX TRANSPORTATION, INC.—TRACKAGE
RIGHTS—CONSOLIDATED RAIL CORPORATION
AND NORFOLK SOUTHERN RAILWAY COMPANY
————
Docket No. FD 36100
————
NORFOLK SOUTHERN RAILWAY COMPANY—
TRACKAGE RIGHTS—
CONSOLIDATED RAIL CORPORATION AND
CSX TRANSPORTATION, INC.
————
Docket No. FD 36101
————
CONSOLIDATED RAIL CORPORATION—
TRACKAGE RIGHTS—
CSX TRANSPORTATION, INC. AND NORFOLK
SOUTHERN RAILWAY COMPANY
————
Docket No. FD 36102
————

36a
Decided: March 13, 2017
Service Date: March 14, 2017
————
SURFACE TRANSPORTATION BOARD DECISION
By the Board, Board Members Begeman, Elliott,
and Miller
Digest:1 The Board denies the petition of Soo Line
Railroad Company, d/b/a Canadian Pacific, for a stay
of the effective date of the exemptions sought in these
proceedings.
On February 13, 2017, the Indiana Harbor Belt
Railroad Company (IHB), Consolidated Rail Corporation (Conrail), CSX Transportation, Inc. (CSXT), and
Norfolk Southern Railway Company (NSR) (collectively, the Parties) filed four combined verified notices
of exemption in these four dockets pursuant to the
class exemption at 49 C.F.R. § 1180.2(d)(7) for trackage rights over rail lines and ancillary trackage owned
by Conrail, CSXT, and NSR in the vicinity of Gibson
and Ivanhoe, Ind., and Calumet Park, Ill. The Parties
state that the trackage rights are pursuant to a
written trackage rights agreement (Agreement) to be
entered into among IHB, Conrail, CSXT, and NSR. 2
1

The digest constitutes no part of the decision of the Board
but has been prepared for the convenience of the reader. It may
not be cited to or relied upon as precedent. See Policy Statement
on Plain Language Digests in Decisions, EP 696 (STB served
Sept. 2, 2010).
2

In Docket No. FD 36099, Conrail, CSXT, and NSR have
agreed to grant IHB local and overhead trackage rights: (1) over
CSXT’s Kensington Branch (a/k/a East-West Line), between
CSXT milepost 259.4 at the Ivanhoe intersection in Gary, Ind.,
and Conrail milepost 266.6 at the intersection of Alice Avenue in
Calumet City, Ill., including ancillary trackage; (2) over NSR’s

37a
According to the Parties, IHB, which is 51%-owned
by Conrail, has previously operated under 99-year
trackage rights agreements with predecessors in
interest of Conrail, dated April 9, 1906 (1906 Agreement) and September 30, 1913 (1913 Agreement).
Pursuant to a transaction agreement approved by the
Board in CSX Corp.—Control & Operating Leases/
Agreements—Conrail, Inc., 3 S.T.B. 196 (1998), portions of the IHB-operated properties owned by Conrail
were allocated to New York Central Lines LLC
and Pennsylvania Lines, LLC, and subsequently to
CSXT and NSR. See CSX Corp.—Control & Operating
Leases/Agreements—Conrail, Inc., 7 S.T.B. 205 (2003).
As part of the approved transaction, CSX Corporation
and Norfolk Southern Corporation entered into an
Danville Branch (a/k/a the Indiana Harbor Line), between milepost 0.0 at the intersection of Block Avenue in East Chicago, Ind.,
and milepost 6.30+/ at the intersection of Little Calumet River in
Hammond, Ind., including ancillary trackage; (3) over Conrail’s
Dune Park Branch, between milepost 1.80 at the Ivanhoe intersection in Gary, Ind., and milepost 4.63 at the intersection of
Chase Street in Gary, Ind., including ancillary trackage; (4) over
Conrail’s Kensington Branch, between Conrail milepost 266.6 at
the intersection of Alice Avenue in Calumet City, Ill., and
milepost 270.6 at the intersection of 124th Street in East Chicago,
Ind., including ancillary trackage; (5) over Conrail’s Cast Armour
Lead (between the intersections of Dickey Road and Canal Street
in East Chicago, Ind.) and Harbison Walker Lead (between the
intersections of Indiana Harbor Canal and Kennedy Avenue in
East Chicago, Ind.); and (6) over Conrail’s Gibson Yard (between
Howard Avenue and Kennedy Avenue in Hammond, Ind.),
Gibson Transfer Yard (between Kennedy Avenue and Ivanhoe
intersection in Gary, Ind.), and Michigan Avenue Yard (between
Michigan Avenue and 144th Street in East Chicago, Ind.) (the
Rail Properties). In Docket Nos. FD 36100, 36101, and 36102,
Conrail, CSXT, and NSR will grant each other local and overhead
trackage rights over each other’s lines and ancillary trackage
described above.

38a
agreement (the IHB Agreement) that gave CSXT and
NSR full, joint, and equal use of the Rail Properties,
including trackage rights over those properties. See
CSX Corp., 3 S.T.B. at 228-229 (including the Rail
Properties among the “Other Areas with Special
Treatment” that are “subject to special arrangements
that provide for a sharing of routes or facilities to a
certain extent”). The 1906 Agreement and 1913
Agreement expired by their terms, respectively, in
2005 and 2012.
The Parties state that the purpose of the trackage
rights in Docket No. FD 36099 is to allow IHB to
continue its operations over the Rail Properties under
modern trackage rights terms, and to provide common
terms for reciprocal operations by Conrail, NSR, and
CSXT over the Rail Properties. The Parties state that
the purpose of the trackage rights in Docket Nos. FD
36100, 36101, and 36102 is to: (1) recognize the rights
of CSXT and NSR for full, joint, and equal operations
over the Rail Properties, including trackage rights, as
authorized by the IHB Agreement, (2) grant Conrail
equivalent trackage rights over CSXT’s and NSR’s
lines, and (3) provide common terms for such trackage
rights operations. A combined notice of exemption was
served and published in the Federal Register on March
1, 2017 (82 Fed. Reg. 12,272). The exemptions are
scheduled to become effective on March 15, 2017.
On March 8, 2017, Soo Line Railroad Company,
d/b/a Canadian Pacific (CP) filed a petition to stay the
effectiveness of the exemptions. CP argues that a stay
is warranted because Conrail, CSXT, and NSR procured IHB’s approval of the Agreement through
breaching their fiduciary duties under Indiana state
law as shareholders of IHB. (Pet. 2.) CP states that, as

39a
the sole minority shareholder of IHB,3 it recently filed
an action in the United States District Court for the
Northern District of Indiana (District Court) asserting
state law claims for breach of fiduciary duties against
the Parties.4 (Id.) In its complaint before the District
Court, CP states that it has requested that the court
void, in part, the Agreement. (Id.)
CP states that, while the 1906 Agreement and 1913
Agreement expired by their terms in 2005 and 2012,
respectively, IHB continues to operate over and invest
in the Rail Properties without interruption. (Pet. 4.)
CP states that it has engaged in negotiations in recent
years with IHB management, Conrail, CSXT, and
NSR to develop a new agreement and that IHB management proposed new annual rental payments in the
fall of 2016. (Pet. 4-5.) CP alleges that IHB management was then coerced to change its position and that
IHB was compelled to adopt the unfavorable rental
rates included in the Agreement. (Pet. 6.) CP states
that the pending litigation in District Court is a result
of Conrail’s, CSXT’s, and NSR’s alleged coercion and
breach of fiduciary duties and that the Board should
stay the effective date of the notices of exemption
pending the outcome of the litigation. CP alternatively
requests that, if the Board decides a stay is not
warranted, the Board make clear that its issuance of
the exemptions does not constitute a ruling, on the

3

IHB is 51%-owned by Conrail and 49%-owned by CP. CP
states that Conrail is owned by CRR Holdings, LLC, which in
turn, is owned exclusively by CSXT’s and NSR’s parent corporations, CSX Corporation and Norfolk Southern Corporation.
4

See Soo Line R.R. Co. v. Consol. Rail Corp., 2:17-cv-00106RL-APR (N.D. Ind. Mar. 8, 2017). A copy of the complaint is
attached as Exhibit 1 to CP’s petition.

40a
merits or otherwise, with respect to the pending
District Court litigation. (Pet. 13.)
On March 10, 2017, the Parties filed a reply to CP’s
petition arguing that the requirements for a stay have
not been met and that, consistent with Board precedent, state law disputes regarding a transaction need
not be resolved before the Board’s permissive authority is allowed to take effect.
DISCUSSION AND CONCLUSIONS
Under 49 U.S.C. § 1321(b)(4), the Board may issue
an appropriate order, such as a stay, when necessary
to prevent irreparable harm. In ruling on a petition for
stay, the Board considers: (1) whether the party seeking the stay has made a strong showing that it is likely
to prevail on the merits; (2) whether the party seeking
the stay will suffer irreparable harm in the absence of
a stay; (3) whether other interested parties will be
substantially harmed by a stay; and (4) the public
interest in granting or denying the stay. See Wash.
Metro. Area Transit Comm’n v. Holiday Tours, Inc.,
559 F.2d 841, 843 (D.C. Cir. 1977); Va. Petroleum
Jobbers Ass’n v. Fed. Power Comm’n, 259 F.2d 921,
925 (D.C. Cir. 1958). A party seeking a stay carries the
burden of persuasion on all of the elements required
for such extraordinary relief. Canal Auth. of Fla. v.
Callaway, 489 F.2d 567, 573 (5th Cir. 1974); Entergy
Ark., Inc. v. Union Pac. R.R., NOR 42104, slip op. at 2
(STB served April 25, 2011).
For the reasons discussed below, the Board finds
that CP has failed to demonstrate that irreparable
harm will occur to CP or IHB if a stay is not granted.
Therefore, the Board will deny CP’s petition for stay
but notes that the Board’s exemption authority is
permissive only and does not constitute a ruling with

41a
respect to the pending litigation before the District
Court.
CP has not demonstrated that it or IHB will suffer
irreparable harm without the imposition of a stay.5 As
CP acknowledges (Pet. 10-11), the party seeking a stay
must demonstrate that the injury claimed is “imminent, ‘certain and great” D’ Sault Ste. Marie Bridge
Co.—Acquis. & Operation Exemption—Lines of Union
Pac. R.R., FD 33290, slip op. at 6 (STB served Jan. 24,
1997) (quoting Wis. Gas Co. v. FERC, 758 F.2d 669,
674 (D.C. Cir. 1985)). Here, CP alleges that the Agreement “would drastically reduce IHB’s cash position,
making it difficult to prepare for exigencies and make
needed investments in the Rail Properties.” (Pet. 11.)
CP alleges that “[t]his in turn jeopardizes the efficient
flow of traffic” through the Chicago terminal. (Id.) As
CP acknowledges, economic loss by itself does not
generally constitute irreparable harm. See Del. &
Hudson Ry.—Lease & Trackage Rights—Springfield
Terminal Ry., FD 30965 (Sub-No. 1) (ICC served Nov.
2, 1995). Moreover, “[t] he possibility that adequate
compensatory or other corrective relief will be available at a later date, in the ordinary course of litigation,
weighs heavily against a claim of irreparable harm.”
Sampson v. Murray, 415 U.S. 61, 88-92 (1974) (quoting
Va. Petroleum Jobbers Ass’n, 259 F.2d at 925). Here,
CP acknowledges that IHB’s management does not
believe that the rates in the Agreement would lead to
IHB’s insolvency. (Pet. 11.) Moreover, the alleged
impact of the Agreement on IHB’s ability to invest in
5

The Parties’ reply suggests that CP may lack standing to
assert irreparable injury to IHB. (See Parties Reply 5-6.) Because
the Board finds that neither CP nor IHB will suffer irreparable
harm absent a stay, the Board need not determine whether CP
has standing to make its claim on behalf of IHB.

42a
the Rail Properties, and the consequences that CP
predicts on operations in the Chicago terminal, are
remote, speculative, and unsupported, not imminent
and certain as required for a showing of irreparable
harm. Further, the Parties explain that they have
strong incentives to ensure that IHB’s operations are
supported, as CSXT and NSR have their own respective operations on lines supervised, maintained, and
dispatched by IHB, and they depend on IHB for substantial switching services in the Chicago terminal.
(Parties Reply 6.)
Because CP has not demonstrated that irreparable
harm will occur if a stay is not granted, the petition for
stay will be denied and the Board need not address the
remaining stay criteria. See 49 U.S.C. § 1321(b)(4);
Trinidad Ry.—Aban. Exemption—in Las Animas Cty.,
Colo., AB 573X et al., slip op. at 3 (STB served Jan. 15,
2002).
To the extent CP argues a stay is warranted because
the notice of exemption process is not appropriate
given the complexities of issues underlying the pending litigation, that argument is likewise rejected. (Pet.
9.) CP explicitly states that it “does not seek a rejection
of the Notices.” (Pet. 10.) Nor does CP allege that the
verified notices are false or misleading. There is no
indication that the Parties have failed to comply with
the requirements of the class exemption. Nor is there
any dispute that there is an agreement among the
Parties, and it is that agreement upon which the notice
of exemption before the Board is based. Rather, CP’s
opposition is based on whether fiduciary duties were
breached in procuring IHB’s approval of the Agreement, an issue which is currently being litigated in
the District Court. If the District Court voids the

43a
Agreement, CP may file a petition to reject or revoke
the notices at that time.
Therefore, the exemptions will become effective, as
scheduled, on March 15, 2017. However, as the Board
has stated and as CP has noted, the Board’s exemption
authority is permissive. See Grand Elk R.R.—Acquis.
of Incidental Trackage Rights Exemption—Norfolk S.
Ry., FD 35187 (Sub-No. 1) (STB served Nov. 1, 2016);
Wis. Cent. Ltd.—Trackage Rights Exemption—Lines of
Union Pac. R.R., FD 35992 (STB served Mar. 4, 2016);
Lehigh Ry.—Lease Exemption Containing Interchange
Commitment—Norfolk S. Ry., FD 36062 (Oct. 14,
2016). Allowing these exemptions to become effective
does not impact the pending litigation in the District
Court or constitute a ruling on the parties’ contractual
relationships. Grand Elk R.R., slip op. at 4. Indeed, as
CP points out, the Board has consistently stated that
contractual disputes are properly for courts to decide.
(Pet. 14.)
It is ordered:
1.

CP’s petition for stay is denied.

2. The exemptions will become effective, as scheduled, on March 15, 2017.
3.

This decision is effective on its service date.

44a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Chicago, Illinois 60604
[August 11, 2020]
————
Before
DIANE S. SYKES, Chief Judge
WILLIAM J. BAUER, Circuit Judge
AMY J. ST. EVE, Circuit Judge
————
No. 19-3100
————
SOO LINE RAILROAD COMPANY d/b/a
CANADIAN PACIFIC,
Plaintiff-Appellant,
v.
CONSOLIDATED RAIL CORPORATION, et al.,
Defendants-Appellees.
————
Appeal from the United States District Court for the
Northern District of Indiana,
Hammond Division. No. 2:17-cv-106
ANDREW P. RODOVICH, Magistrate Judge.
————
ORDER
On consideration of the petition for panel rehearing,
the judges on the original panel have voted to deny
rehearing. It is, therefore, ORDERED that the petition
for panel rehearing is DENIED.

45a
APPENDIX F
BEFORE THE SURFACE
TRANSPORTATION BOARD
[Filed April 12, 2018]
————
Docket No. FD 36099
————
INDIANA HARBOR BELT RAILROAD COMPANY—
TRACKAGE RIGHTS—CONSOLIDATED RAIL
CORPORATION, CSX TRANSPORTATION, INC.,
and NORFOLK SOUTHERN RAILWAY COMPANY
————
Docket No. FD 36100
————
CSX TRANSPORTATION, INC.—TRACKAGE RIGHTS—
CONSOLIDATED RAIL CORPORATION and NORFOLK
SOUTHERN RAILWAY COMPANY
————
Docket No. FD 36101
————
NORFOLK SOUTHERN RAILWAY COMPANY—
TRACKAGE RIGHTS—CONSOLIDATED RAIL
CORPORATION and CSX TRANSPORTATION, INC.
————
Docket No. FD 36102
————
CONSOLIDATED RAIL CORPORATION—
TRACKAGE RIGHTS—CSX TRANSPORTATION, INC.
and NORFOLK SOUTHERN RAILWAY COMPANY
————
VERIFIED NOTICES OF EXEMPTION

Joel Cornfeld
Indiana Harbor Belt
Railroad Company
2721 161st Street
Hammond, IN
46323-1099
Counsel for Indiana
Harbor Belt Railroad
Company

46a
Robert M. Jenkins III
Mayer Brown LLP
1999 K Street, NW
Washington, D.C.
20006-1101
Counsel for Consolidated
Rail Corporation

Paul R. Hitchcock
CSX Transportation, Inc.
500 Water Street
Jacksonville, FL 32202
Counsel for CSX
Transportation, Inc.

David L. Coleman
Norfolk Southern
Railway Company, Inc.
Three Commercial Place
Norfolk, VA 23510
Counsel for Norfolk
Southern Railway
Company

47a
BEFORE THE
SURFACE TRANSPORTATION BOARD
————
Docket No. FD 36099
————
INDIANA HARBOR BELT RAILROAD COMPANY—
TRACKAGE RIGHTS—CONSOLIDATED RAIL
CORPORATION, CSX TRANSPORTATION, INC., and
NORFOLK SOUTHERN RAILWAY COMPANY
————
Docket No. FD 36100
————
CSX TRANSPORTATION, INC.—TRACKAGE RIGHTS—
CONSOLIDATED RAIL CORPORATION and NORFOLK
SOUTHERN RAILWAY COMPANY
————
Docket No. FD 36101
————
NORFOLK SOUTHERN RAILWAY COMPANY—
TRACKAGE RIGHTS—CONSOLIDATED RAIL
CORPORATION and CSX TRANSPORTATION, INC.
————
Docket No. FD 36102
————
CONSOLIDATED RAIL CORPORATION—
TRACKAGE RIGHTS—CSX TRANSPORTATION, INC.
and NORFOLK SOUTHERN RAILWAY COMPANY
————
VERIFIED NOTICES OF EXEMPTION

48a
The Indiana Harbor Belt Railroad Company (“IHB”),
Consolidated Rail Corporation (“Conrail”), CSX Transportation, Inc. (“CSXT”), and Norfolk Southern Railway Company (“NSR”) submit these Verified Notices
of Exemption pursuant to the class exemption at 49
C.F.R. § 1180.2(d)(7) for trackage rights over rail lines
and ancillary trackage (the “Rail Properties”) owned
by Conrail, CSXT, and NSR (the “Property Owners”)
in the vicinity of Gibson and Ivanhoe, Indiana, and
Calumet Park, Illinois.
The parties will enter into a written agreement
for the trackage rights,1 which are not sought as
responsive applications in a rail consolidation proceeding. A redacted version of the Trackage Rights Agreement is attached hereto as Exhibit 2. An unredacted
copy of the Trackage Rights Agreement is being
concurrently filed with a motion for protective order.2
Pursuant to the regulations of the Surface Transportation Board (“STB”) at 49 C.F.R. § 1180.4(g), IHB,
Conrail, CSXT, and NSR submit the following information:
Section 1180.6 Supporting Information
(a)(1)(i) Summary of Proposed Transaction
IHB, which is 51%-owned by Conrail, heretofore has
operated under 99-year trackage rights agreements
with predecessors in interest of Conrail, dated April 9,
1906 (“1906 Agreement”) and September 30, 1913
1

Pursuant to 49 C.F.R. § 1180.6(a)(7), a copy of the executed
agreement will be filed with the Board within 10 days of its
execution.
2

Pursuant to 49 C.F.R. § 1180.4(g)(2)(i), a caption summary
suitable for publication in the Federal Register is attached as
Exhibit 3.

49a
(“1913 Agreement”). Under those Agreements, IHB
has supervised, maintained, and dispatched the lines
involved. Under those Agreements, Conrail retained
the right to operate, and, at its election, to supervise,
maintain, and dispatch the lines involved as well.
Pursuant to the Transaction Agreement approved
by the Surface Transportation Board (“STB”) in CSX
Corp.—Control—Conrail, Inc., 3 S.T.B. 196 (1998),
portions of the IHB-operated properties owned by
Conrail were allocated to New York Central Lines LLC
and Pennsylvania Lines LLC, and subsequently to
CSXT and NSR. See CSX Corp.—Control-Conrail, Inc.,
STB Fin. Dkt. No. 33388 (Sub-No. 94), 2003 WL
22521400 (served Nov. 7, 2003).3 As part of the
approved transaction, on August 22, 1998, CSX Corporation and Norfolk Southern Corporation entered into
an agreement (the “IHB Agreement”), attached as
Exhibit 4, that gave CSXT and NSR full, joint, and
equal use of the Rail Properties, including trackage
rights over those properties. See 3 S.T.B. at 228-229
(including the Rail Properties among the “Other Areas
With Special Treatment” that are “subject to special
arrangements that provide for a sharing of routes or
facilities to a certain extent”).
The 1906 and 1913 Agreements expired by their
terms, respectively, in 2005 and 2012. The exemption
noticed in Docket No. 36099 will allow IHB to continue
to operate the Rail Properties, with updated compen3

Specifically: CSXT is owner of the “East—West Line,” as further described in Attachment C of Exhibit 1; NSR is owner of the
“Indiana Harbor Line,” as further described in Attachment E of
Exhibit 1; and Conrail is owner of the remaining properties, as
further described in Attachment A of Exhibit 1, including Gibson
Yard and the ancillary trackage associated with the East-West
Line and the Indiana Harbor Line.

50a
sation and other terms. IHB will have the same rights
to supervise, dispatch, and maintain the Rail Properties as it has had in the past. Conrail, CSXT, and NSR
will retain the rights to operate on the properties they
own and, at their election, the same rights to supervise, maintain, and dispatch the trackage involved as
Conrail retained when it owned all the Rail Properties.4
The exemption noticed in Docket No. FD 36099 is for
the following trackage: CSXT’s Kensington Branch
(Line Code 3256) (a/k/a “East-West Line”) between
CSXT Milepost 259.4 at the Ivanhoe intersection in
Gary, Indiana, and Conrail Milepost 266.6 at the
intersection of Alice Avenue in Calumet City, Illinois,
and ancillary trackage; NSR’s Danville Branch (Line
Code 3250) (a/k/a the “Indiana Harbor Line”) between
Milepost 0.0 at the intersection of Block Avenue in
East Chicago, Indiana, and Milepost 6.30+/- at the
intersection of Little Calumet River in Hammond,
Indiana, and ancillary trackage; Conrail’s Dune Park
Branch (Line Code 3257) between Milepost 1.80 at the
Ivanhoe intersection in Gary, Indiana, and Milepost
4.63 at the intersection of Chase Street in Gary,
Indiana, and ancillary trackage; Conrail’s Kensington
Branch (Line Code 3256) between Conrail Milepost
266.6 at the intersection of Alice Avenue in Calumet
City, Illinois, and Mile Post 270.6 at the intersection
of 124th Street in East Chicago, Indiana, and ancillary
trackage; Conrail’s Cast Armour Lead (between the
intersections of Dickey Road and Canal Street in
East Chicago, Indiana) and Harbison Walker Lead
4

Conrail has no current operations on the Rail Properties, but
it has always had the right to operate on its own properties. CSXT
and NSR have operations over the properties they own and,
under the IHB Agreement, they have the right to operate over the
rest of the Rail Properties.

51a
(between the intersections of Indiana Harbor Canal
and Kennedy Avenue in East Chicago, Indiana); and
Conrail’s Gibson Yard (between Howard Avenue and
Kennedy Avenue in Hammond, Indiana), Gibson
Transfer Yard (between Kennedy Avenue and Ivanhoe
intersection in Gary, Indiana), and Michigan Avenue
Yard (between Michigan Avenue and 144th Street in
East Chicago, Indiana).
The exemptions noticed in Docket Nos. FD 36100,
36101, and 36102 are for CSXT, NSR, and Conrail
each to have trackage rights over the lines and ancillary trackage of the others. The purpose is (1) to
recognize the rights of CSXT and NSR to full, joint and
equal operations over the Rail Properties, including
trackage rights, as authorized by the IHB Agreement,
(2) to grant Conrail equivalent trackage rights over
CSXT’s and NSR’s lines, and (3) to provide common
terms for such trackage rights operations.
The carriers involved in this transaction and their
business addresses are:
Indiana Harbor Belt Railroad Company
2721 161st Street
Hammond, IN 46323-1099
Consolidated Rail Corporation
1717 Arch Street
Suite 1310
Philadelphia, PA 19103
CSX Transportation, Inc.
500 Water Street
Jacksonville, FL 32202
Norfolk Southern Railway Company
Three Commercial Place
Norfolk, VA 23510

52a
Questions and correspondence concerning this notice
may be addressed to:
Joel Cornfeld
Indiana Harbor Belt Railroad Company
2721 161st Street
Hammond, IN 46323-1099
(219) 989-6781
Joel.Cornfeld@ihbrr.com
Counsel for Indiana Harbor Belt Railroad Company
Robert M. Jenkins III
Mayer Brown LLP
1999 K Street, NW
Washington, D.C. 20006-1101
(202) 263-3261
rmjenkins@mayerbrown.com
Counsel for Consolidated Rail Corporation
Paul R. Hitchcock
CSX Transportation, Inc.
500 Water Street
Jacksonville, FL 32202
(904) 359-1192
Paul_Hitchcock@csx.com
Counsel for CSX Transportation, Inc.
David L. Coleman
Norfolk Southern Railway Company
Three Commercial Place
Norfolk, VA 23510
(757) 629-2891
David.Coleman@nscorp.com
Counsel for Norfolk Southern Railway Company

53a
(a)(1)(ii) Consummation Date
The exemptions are scheduled to become effective on
March 16, 2017. Once exempted, the “Commencement
Date” of the Trackage Rights Agreement for compensation and other purposes will be January 1, 2017.
(a)(1)(iii) Purpose Sought to be Accomplished
The purpose of the transaction is to continue IHB’ s
operations over the Rail Properties under modern
trackage rights terms, and to provide common terms
for reciprocal operations of the Property Owners over
the Rail Properties, as authorized by the IHB Agreement.
(a)(5) List of States in which Property of Each
Applicant Carrier Is Situated
The Rail Properties that are the subject of the
trackage rights are located in the States of Indiana
and Illinois.
IHB owns properties in Indiana and Illinois.
Conrail owns properties in Illinois,
Michigan, New Jersey, and Pennsylvania.

Indiana,

CSXT owns properties in Alabama, Connecticut,
Delaware, Florida, Georgia, Illinois, Indiana, Kentucky,
Louisiana, Maryland, Massachusetts, Michigan,
Mississippi, New Jersey, New York, North Carolina,
Ohio, Pennsylvania, South Carolina, Tennessee,
Virginia, West Virginia, and the District of Columbia.
NSR owns properties in Alabama, Delaware, Florida,
Georgia, Illinois, Indiana, Iowa, Kentucky, Louisiana,
Maryland, Michigan, Mississippi, Missouri, New Jersey,
New York, North Carolina, Ohio, Pennsylvania, South
Carolina, Tennessee, Virginia, West Virginia, and the
District of Columbia.

54a
(a)(6) Map
A color map illustrating the involved trackage rights
is attached as Exhibit 1.
(a)(7)(ii) Agreement
A copy of the redacted Trackage Rights Agreement
is attached as Exhibit 2.
Labor Protection
Any employees of IHB or the Property Owners who
may be adversely affected by the trackage rights that
are the subject of this Notice are entitled to protection
under the conditions imposed in Norfolk and Western
Railway Co.—Trackage Rights—BN, 354 I.C.C. 605
(1978), as modified by Mendocino Coast Ry., Inc. Lease
and Operate, 360 I.C.C. 653 (1980).
Section 1180.4(g)(4)(i) Supporting Information
(i)(A) The Trackage Rights Agreement does not
contain interchange commitments.
(i)(B) A copy of the redacted Trackage Rights
Agreement is attached hereto as Exhibit 2.
Environmental and Historic Matters
Environmental and historic impacts associated with
trackage right transactions generally are considered
insignificant and, therefore, environmental and historic reports and documentation generally are not
required for trackage rights transactions. See 49
C.F.R. § 1105.6(c)(4) and § 1105.8(b)(3). Furthermore,
under 49 C.F.R. § 1105.6(c)(2), the transactions are
exempt from environmental reporting requirements,
because the proposed transactions will not result in
significant changes in carrier operations. Also, under
49 C.F.R. § 1105.8(b)(1), the transactions are exempt

55a
from historic preservation reporting requirements.
The transaction in Docket No. FD 36099 is for continued rail service by IHB, and the transactions in Docket
Nos. FD 36100, 36101, and 36102 are not expected to
result in any significant changes in rail operations.
Further, STB approval is required to discontinue or
abandon service, and there are no plans to dispose of
or alter properties subject to Board jurisdiction that
are 50 years or older.
Respectfully submitted,
/s/ Joel Cornfeld
Joel Cornfeld
Indiana Harbor Belt Railroad Company
2721 161st Street
Hammond, IN 46323-1099
Counsel for Indiana Harbor Belt
Railroad Company
/s/ Robert M. Jenkins II
Robert M. Jenkins III
Mayer Brown LLP
1999 K Street, NW
Washington, D.C. 20006-1101
Counsel for Consolidated
Rail Corporation
/s/ Paul R. Hitchcock
Paul R. Hitchcock
CSX Transportation, Inc.
500 Water Street
Jacksonville, FL 32202
Counsel for CSX Transportation Inc.

56a
/s/ David L. Coleman
David L. Coleman
Norfolk Southern Railway Company, Inc.
Three Commercial Place
Norfolk, VA 23510
Counsel for Norfolk Southern Railway
Company
Dated: February 13, 2017
VERIFICATION
State of Illinois
County of Cook

)
) ss
)

I, Patrick J. Daly, being duly sworn, depose and
state that I am General Manager of The Indiana
Harbor Belt Railroad, that I am authorized to make
this verification, and that I have read the foregoing
Notices of Exemption, and know the facts asserted
therein are true and accurate to the best of my
knowledge, information, and belief.
/s/ Patrick J. Daly
Patrick J. Daly
Subscribed and sworn before me this 9th day of
February, 2017
/s/ Linda Keating
Notary Public
My Commission expires: 5/6/18

[NOTARY SEAL]

57a
VERIFICATION
State of Florida

)
) ss
)

County of Duval

I, Lawrence L. Ratcliffe, being duly sworn, depose
and state that I am Assistant Vice President Network
and Capacity Planning of CSX Transportation, Inc.,
that I am authorized to make this verification, and
that I have read the foregoing Notices of Exemption,
and know the facts asserted therein are true and
accurate to the best of my knowledge, information, and
belief.
/s/ Lawrence L. Ratcliffe
Lawrence L. Ratcliffe
Subscribed and sworn before me this 9th day of
February, 2017
/s/ Lucy W. McCook
Notary Public
My Commission expires: July 24, 2020
[NOTARY SEAL]
VERIFICATION
State of
County of

)
) ss
)

I, Randall Wayne Hunt, being duly sworn, depose
and state that I am Director-Joint Facilities of Norfolk
Southern Railway Company, that I am authorized to
make this verification, and that I have read the foregoing Notice of Exemption, and know the facts asserted
therein are true and accurate to the best of my
knowledge, information, and belief.

58a
/s/ Randall W. Hunt
Randall W. Hunt
Subscribed and sworn before me this 10 day of
February, 2017
/s/ Kistia Cheri Clinton
Notary Public
My Commission expires:7/14/18
[NOTARY SEAL]
VERIFICATION
State of Pennsylvania
County of Philadelphia

)
) ss
)

I, Jonathan M. Broder, being duly sworn, depose
and state that I am Vice President — General Counsel
and Corporate Secretary of Consolidated Rail Corporation, that I am authorized to make this verification,
and that I have read the foregoing Notices of Exemption, and know the facts asserted therein are true and
accurate to the best of my knowledge, information, and
belief.
/s/ Jonathan M. Broder
Jonathan M. Broder
Subscribed and sworn before me this 9th day of
February, 2017
/s/ Rachel Gray Crandley
Notary Public
My Commission expires: 3/18/19
[NOTARY SEAL]

59a
APPENDIX G
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF INDIANA
[Filed June 13, 2017]
————
Case No.: 2:17-cv-106
————
SOO LINE RAILROAD COMPANY, d/b/a/
CANADIAN PACIFIC, a Minnesota corporation,
Plaintiff,
vs.
CONRAIL, INC., a Pennsylvania corporation;
CONSOLIDATED RAIL CORPORATION, a Pennsylvania
corporation; NORFOLK SOUTHERN CORPORATION, a
Virginia corporation; NORFOLK SOUTHERN RAILWAY
COMPANY; a Virginia corporation; CSX CORPORATION,
a Virginia corporation; CSX TRANSPORTATION, INC.,
a Virginia corporation; CSX RAIL HOLDING
CORPORATION, a Delaware corporation; GREEN
ACQUISITION CORP., a Pennsylvania corporation;
CRR HOLDINGS, LLC, a Delaware limited liability
company; the INDIANA HARBOR BELT RAILROAD
COMPANY, an Indiana corporation; Terry Evans;
John Hart; Mike Pendergrass; and Tom Werner;
Defendants.
————
VERIFIED FIRST AMENDED COMPLAINT
AND DEMAND FOR JURY TRIAL
Plaintiff Soo Line Railroad Company, d/b/a Canadian
Pacific (“CP”) states and alleges as follows:

60a
THE PARTIES
1. CP is a Minnesota corporation with its principal
place of business located in Minneapolis, Minnesota.
2. Defendant Conrail, Inc. (“CRR”) is a Pennsylvania
corporation with its principal place of business located
in Philadelphia, Pennsylvania.
3. Defendant Norfolk Southern Corporation (“NS”)
is a Virginia corporation with its principal place of
business located in Norfolk, Virginia.
4. Defendant CSX Corporation (“CSX”) is a Virginia
corporation with its principal place of business located
in Jacksonville, Florida. (Defendants CRR, NS, and
CSX are hereinafter referred to as the “Parent
Entities.”)
5. Defendant Consolidated Rail Corporation (“CRC”)
is a Pennsylvania corporation with its principal place
of business located in Philadelphia, Pennsylvania.
6. Defendant Norfolk Southern Railway Company
(“NSR”) is a Virginia corporation with its principal
place of business located in Norfolk, Virginia.
7. Defendant CSX Transportation, Inc. (“CSXT”) is
a Virginia corporation with its principal place of
business located in Jacksonville, Florida. (Defendants
CRC, NSR, and CSXT are hereinafter referred to
collectively as the “Landlords.”)
8. Defendant Green Acquisition Corp. (“Green”) is a
Pennsylvania corporation with its principal place of
business located in Philadelphia, Pennsylvania.
9. Defendant CSX Rail Holding Corporation
(“CSXRH”) is a Delaware corporation with its principal
place of business located in Jacksonville, Florida.

61a
10. Defendant CRR Holdings, LLC is a Delaware
limited liability company with its principal place of
business in Philadelphia, Pennsylvania. CRR Holdings,
LLC’s sole members are CSXRH (a Delaware citizen)
and NS (a Virginia citizen). (Defendants Green,
CSXRH, and CRR Holdings are hereinafter referred to
collectively as the “Holding Entities.”)
11. Defendant Indiana Harbor Belt Railroad
Company (“IHB”) is an Indiana corporation with its
principal place of business located in Hammond,
Indiana.
12. Defendants John Hart and Mike Pendergrass
are, at all relevant times herein, CSX executives.
13. Defendants Terry Evans and Tom Werner are,
at all relevant times herein, NS executives.
14. Defendant Hart is a Florida citizen.
15. Defendant Pendergrass is a Florida citizen.
16. Defendant Evans is a Virginia citizen.
17. Defendant Werner is a Virginia citizen.
JURISDICTION AND VENUE
18. This Court has jurisdiction over this action
pursuant to 28 U.S.C. § 1332 because the matter in
controversy exceeds the sum of $75,000, exclusive of
interest and costs, and it is between citizens of different states.
19. This Court has both personal and subject matter
jurisdiction over the parties and matters herein.
20. Venue in this district is proper pursuant to 28
U.S.C. § 1391(b)(2) because a substantial part of the
events or omissions giving rise to CP’s claims occurred
in this district, and a substantial part of the property

62a
that is the subject of this dispute is located in this
district.
BACKGROUND
I. OWNERSHIP STRUCTURE OF IHB.
21. According to NSR and CSXT, the seven directors and four senior managers of IHB each own one
share of IHB, which represents less than 1/10 of 1% of
the IHB’s equity interests.
22. Apart from this minor ownership interest, CP
and CRC are the sole shareholders of IHB.
23. Defendant CRC currently owns approximately
fifty-one percent (51%) of the stock in IHB, and is thus
the controlling majority shareholder.
24. Plaintiff CP currently owns approximately
forty-nine percent (49%) of the stock in IHB, and is
thus the minority shareholder.
25. IHB’s shares are not traded in any securities
market.
26. Pursuant to an agreement approved by the
Surface Transportation Board (“STB”) in 1998
(“Merger Agreement”), CSX and NS became the sole
owners of CRC, through various holding entities. See
CSX Corp. et al.—Control & Operating Leases/
Agreements—Conrail, Inc. et al., 3 S.T.B. 196 (served
July 23, 1998).
27. CRC is a wholly-owned subsidiary of CRR.
28. CRR is a wholly-owned subsidiary of Green.
29. Green is a wholly-owned subsidiary of CRR
Holdings.
30. NS directly owns 58% of the equity interests of
CRR Holdings.

63a
31. CSX, through its wholly-owned subsidiary
CSXRH, owns 42% of the equity interests of CRR
Holdings.
32. NS and CSX each have a 50% voting interest in
CRR Holdings.
33. Consequently, Defendants NS and CSX control
CRC by virtue of their voting and ownership interests
in CRR Holdings.
II. IHB OPERATIONS AND CONTROL.
34. IHB is a switch carrier which operates generally
within the Chicago area.
35. IHB operates on property owned by the
Landlords in Lake County, Indiana and Cook County,
Illinois (“Rail Properties”).
36. The Chicago rail corridor is one of the busiest
rail hubs in the world.
37. IHB serves many customers in the Chicago area
and functions to ensure that the many railroads which
move through Chicago can do so efficiently via the
IHB, which then connects with multiple other rail
carriers.
38. Through an agreement entered into by CRC’s
predecessor and IHB on April 9, 1906 (“1906 Agreement”), CRC’s predecessor granted IHB rights to
occupy and operate over the Rail Properties.
39. The original 1906 Agreement was to last for
ninety-nine (99) years.
40. The obligations included within the 1906
Agreement run with the land and are binding on
CRC’s and IHB’s successors.

64a
41. Pursuant to a 1999 agreement (“1999 Agreement”) approved by the Surface Transportation Board
(“STB”) and entered into in connection with the
Merger Agreement, CSX and NS possess an equal
right to direct the exercise of CRC’s ownership rights
regarding IHB and to select an equal number of IHB
directors to be appointed by CRC.
42. The 1999 Agreement has a twenty-five year
term. See 1999 Agreement § 5.
43. At all relevant times herein, Defendants John
Hart and Mike Pendergrass are IHB’s CSX-appointed
directors.
44. At all relevant times herein, Defendants Terry
Evans and Tom Werner are IHB’s NS-appointed
directors (with Hart and Pendergrass, collectively the
“Majority Directors”).
45. At all relevant times herein, Steven Nettleton,
Tom Albanese, and James Clements are the remaining
IHB directors, and are employed by CP or its affiliates
and appointed to the IHB Board by CP (collectively,
the “Minority Directors”).
46. Pursuant to the 1999 Agreement, the Majority
Directors vote as a bloc on matters relating to IHB.
47. The 1999 Agreement also requires NS and CSX
to cause CRC to replace the expired 1906 Agreement
with an agreement on the “same basis as and for a
term of years equal to” the 1906 Agreement. See 1999
Agreement § 4(c).
48. NS and CSX thus exercise control over IHB by
virtue of CRC’s majority interest in IHB, CRC’s majority position on the IHB Board, and the 1999 Agreement directing NS and CSX to vote as a bloc on matters
relating to IHB.

65a
III. THE 1906 AGREEMENT.
49. Pursuant to the 1906 Agreement, IHB paid CRC
an annual depreciation-adjusted rent of approximately
$150,000 to operate over the Rail Properties.
50. That rent was calculated to achieve a five
percent (5%) return on investment, based on agreedupon property valuations and the parties’ proportional
use of the assets.
51. Pursuant to the terms of the 1906 Agreement
(Art. VII § 3), upon information and belief, CRC paid
$1 to $2 million per year to IHB to account for CRC’s
proportional responsibility for certain operating and
maintenance expenses associated with the Rail Properties (“O&M Expenses”).
52. The obligations of CRC and IHB set forth in the
1906 Agreement, including IHB’s annual rental payments to CRC, remained largely unchanged until
1999.
53. In 1999, CRC stopped invoicing the IHB for rent
under the 1906 Agreement, so the IHB did not have
any rental payments to make.
54. In 1999, CRC stopped paying O&M Expenses to
the IHB.
55. Upon information and belief, CRC and IHB
management entered into a quid pro quo agreement in
1999 without the consent of the IHB Board to allow
CRC to avoid its obligation under the 1906 Agreement
to pay certain O&M Expenses, which totaled approximately $2.3 million in 1998, and for IHB to stop paying
rent to CRC.

66a
IV. THE 2011 TERM SHEET.
56. In 2011, Defendants (excluding IHB) began a
concerted effort to cause IHB to enter into a new
trackage rights agreement that included extortionate
rental rates, to the detriment of IHB and CP.
57. Specifically, on or around November 16, 2011,
CRC—acting on behalf of the Landlords and, upon
information and belief, the Parent Entities and
Holding Entities—presented IHB’s former General
Manager Jim Roots with a term sheet for a proposed
“lease” between IHB and CRC (“2011 Term Sheet”).
58. The 2011 Term Sheet would have required IHB
to pay an annual base rental rate of $5,500,000, with
annual adjustments to be made based on the Consumer Price Index.
59. The proposed rental payments under the 2011
Term Sheet constituted an increase of approximately
3,566% from the rent paid by IHB under the 1906
Agreement.
60. Even though the 2011 Term Sheet covered
increased rent demands for three separate parcels,
each owned separately by the different Landlords,
upon information and belief the methodologies for
calculating the proposed escalated rent on each parcel
were the same, indicating that the Landlords—and,
upon information and belief, the Parent Entities and
Holding Entities—colluded in establishing those rates
to the detriment of IHB and CP.
61. At the IHB Board’s direction, and after formal
review of the 2011 Term Sheet, IHB management
presented a white paper to the IHB Board on March 2,
2012 (the “White Paper”), expressing IHB manage-

ment’s numerous
agreement.

67a
concerns

with

the

proposed

62. IHB management’s concerns with the 2011
Term Sheet included, without limitation: (1) the 2011
Term Sheet was akin to a ground lease and did not
cover all of the operating issues inherent to the IHB
contained within the 1906 Agreement; (2) the 2011
Term Sheet proposed an initial five-year term with
renewal options as opposed to a long-term arrangement; (3) upon termination of the lease, IHB would be
required to make filings with the STB to vacate the
premises; and (4) IHB would be required to surrender
to CRC millions of dollars in improvements IHB made
to the Rail Properties even though the 1906 Agreement treated those improvements as IHB property
(Art. III § 2).
63. The White Paper also rejected the rental rates
proposed in the 2011 Term Sheet, which were based
on an inaccurate appraisal of assets prepared by RMI
Midwest (“RMI Appraisal”).
64. Upon information and belief, the RMI Appraisal
was prepared for CRC.
65. The annual rent contemplated by the 2011 Term
Sheet was equal to 10% of the property’s inflated
appraised value under the RMI Appraisal.
66. A 10% annual rate of return is inconsistent with
the railroad industry’s standard shortline lease rates,
and problematic in light of the short five-year term
contemplated by the 2011 Term Sheet.
67. The RMI Appraisal is biased toward CRC,
which procured it, and contains numerous errors. The
RMI Appraisal is erroneous because, without limitation: (1) it based its valuations upon the highest and

68a
best commercial use of the land in urban Chicago; (2)
it failed to account for the considerable regulatory
constraints that would prevent conversion of the Rail
Properties from railroad use to conventional commercial use; (3) it added a 60% premium for a “corridor
enhancement factor”; and (4) it included approximately $35 million in assets such as rail and other
improvements for which IHB, not CRC, had funded
entirely on its own.
68. IHB management determined that the massive
cost increase proposed within the 2011 Term Sheet
posed a serious threat to IHB’s financial viability, and
could render IHB insolvent, thus jeopardizing not only
IHB, but efficient rail traffic through Chicago in
general.
69. In mid-April of 2012, CRC—acting on behalf of
the Landlords and, upon information and belief, the
Parent Entities and Holding Entities—responded to
the White Paper with a new proposed memorandum of
understanding (“MOU”).
70. The MOU not only ignored IHB management’s
concerns expressed in the White Paper, it proposed
conditions that were even more onerous than those set
forth in the 2011 Term Sheet with respect to, among
other things, rental rate, duration, valuation of land,
acreage, credit for IHB improvements, and operating
terms.
V. THE 2015 PROPOSED MASTER TRACKAGE
RIGHTS AGREEMENT.
71. Discussions over the proposed lease and the
2011 Term Sheet stalled thereafter.
72. At the December 2014 IHB Board meeting, CPappointed director James Clements suggested that the

69a
Board find a use for the company's excess cash
reserves; for example, by distributing those reserves
as dividends to the company's two shareholders, CP
and CRC.
73. Mr. Clements raised the matter of IHB's excess
cash reserves again at the March 2015 Board meeting.
74. Shortly thereafter, Defendants (excluding IHB)
engaged once again in a joint effort to cause IHB to
enter into an onerous trackage rights agreement.
Defendant Landlords acting on their own behalf and
on behalf of the Parent Entities and Holding
Entities—proposed a new master trackage rights
agreement (the “Proposed Master Trackage Rights
Agreement”) to IHB that again included conditions
more onerous than those set forth in the 2011 Term
Sheet.
75. For example, under the new Proposed Master
Trackage Rights Agreement, IHB would initially owe
annual rent of $7.4 million to CRC, increasing to $8
million by 2020.
76. Upon information and belief, the Landlords,
Parent Entities, and Holding Entities created the
Proposed Master Trackage Rights Agreement in
concert with each other, even though each Landlord,
Parent Entity, and Holding Entity is a legally distinct
entity and each Landlord separately owns the
individual parcels on which the IHB operates.
77. The purpose and effect of the exorbitant rental
rates contained in the Proposed Master Trackage
Rights Agreement are to require IHB to drain its accumulated excess cash reserves to make increased
annual rental payments to CRC, rather than distributing those reserves in the form of dividends to all of
its shareholders, including Plaintiff CP.

70a
78. Such a diversion of IHB reserves would deprive
CP of its rights to dividends as a 49% owner of IHB.
79. At a March 3, 2016, board meeting, IHB
management declared that the terms in the Proposed
Master Trackage Rights Agreement were not in IHB’s
best interest because, in part, IHB’s ending cash
position by 2020 would be negative $5.9 million.
80. This potential insolvency contrasted sharply
with IHB’s substantial positive ending cash balances
projected in IHB’s base plan at that time.
81. After the March 3, 2016, IHB Board meeting,
the CP-appointed Minority Directors complained that
they had not previously been given information relating to the negotiations over the Proposed Master
Trackage Rights Agreement.
82. In particular, these Minority Directors were not
provided with the appraisals apparently prepared by
RMI Midwest for NS which were being utilized by NS
and CSX in connection with the negotiations, nor were
they provided with an alleged $3.3 million “agreement” that was referenced during the Board meeting
and which was supposedly signed by a former IHB
General Manager.
83. By letter dated March 16, 2016, Plaintiff CP
objected to the Proposed Master Trackage Rights
Agreement, noting that it was unacceptable for many
of the same reasons that IHB management’s White
Paper rejected the 2011 Term Sheet.
84. Among other concerns, CP noted the following:
a. The financial terms were still apparently
based on the RMI Appraisal, which remained
flawed for the reasons originally noted in the
White Paper;

71a
b. The rental rate calculation continued to confiscate and include the value of approximately $35 million in capital improvements
funded entirely by IHB;
c. The structure of the proposed agreement,
which continued to be in a lease format, was
not an appropriate replacement for the 1906
Agreement; and
d. The agreement included property that IHB
did not use, need, or want.
85. CP further notified Defendant CRC that, from
CP’s perspective, the actions being contemplated by
CRC and IHB’s Majority Directors were a thinly veiled
attempt to divert cash—which would otherwise be
available for distribution to IHB’s shareholders—
solely to CRC (for the ultimate benefit of Defendants
NSR, CSXT, and the Parent Entities).
86. CP pointed out that these actions were
jeopardizing IHB’s future viability and causing CP, as
the minority IHB shareholder, direct harm because it
would bear the impact of substantially all cost
increases while Defendant CRC—and Defendants
NSR, CSXT, and the Parent Entities indirectly—
would receive all of the benefit.
VI. THE IHB MANAGEMENT RECOMMENDATION AND IHB BOARD RESOLUTION.
87. On June 2, 2016, the IHB Board passed a
resolution directing IHB management to provide CP
and the Landlords all information necessary to determine the appropriate properties to be subject to an
agreement, and to retain outside counsel and consultants (including an appraiser) to assist in evaluating
and negotiating the terms of any new agreement.

72a
88. In September 2016, IHB management received
independent market value estimates for the Rail
Properties from Kenneth Young & Associates, and a
return on investment analysis by AECOM recommending a 2.74% rental rate for the properties under
consideration.
89. IHB management believed the above estimates
were fair, reasonable, and accurate.
90. In September and October of 2016, IHB
management offered proposals for a new agreement
(“IHB Management Recommendation”) to the Landlords, based on the Kenneth Young & Associates and
AECOM analyses.
91. The IHB Management Recommendation contemplated annual rental payments of $362,285 to
CRC, $642,700 to NSR, and $341,714 to CSXT.
92. The IHB Management Recommendation is the
product of thorough, independent analysis and consultation by IHB management, which owes fiduciary obligations to IHB and all of its constituent shareholders.
93. In addition to being based on neutral appraisals
and analyses by Kenneth Young & Associates and
AECOM, the IHB Management Recommendation
excludes from its valuation corridor enhancements as
well as those substantial leasehold improvements that
were paid for and are owned by IHB.
94. Shortly after the IHB Management Recommendation was provided to them, Defendants (excluding
IHB) continued to engage in a concerted effort to cause
IHB to enter into a trackage rights agreement that
included increased onerous rental rates, contrary to
the interests of IHB and CP.

73a
95. Specifically, Defendant CRC—acting on its own
behalf and on behalf of CSXT, NSR, the Parent
Entities, and the Holding Entities—demanded that
IHB make changes to the IHB Management Recommendation’s proposed rental rates.
96. In a letter dated November 14, 2016, Defendant
CRC notified CP that CRC had reached a separate
agreement with IHB management that included modifications to the CRC rental amounts provided in the
IHB Management Recommendation.
97. Upon information and belief, Defendant CRC
sent this letter on its own behalf and on behalf of
Defendants CSXT, NSR, the Parent Entities, and the
Holding Entities.
98. CP responded, stating that the IHB Management Recommendation was fair and reasonable, that
it was unaware of any agreement to pay rental
amounts other than those included in the recommendation, and that the Majority Directors, Landlords,
and Parent Entities had a fiduciary duty to act in the
best interests of IHB and its minority shareholder CP.
99. CP further stated that in the event the Majority
Directors, Landlords, and Parent Entities were to seek
more compensation or refuse the IHB Management
Recommendation, additional scrutiny would be
required to ensure they were not acting out of selfinterest.
100. CP also took issue with Defendant CRC’s
demand that IHB pay nearly $2.6 million in accrued
rent since 1999, even though CRC had not paid
approximately $20 million in operating expenses to
IHB that accrued since that same time.

74a
101. IHB’s General Manager, Pat Daly, presented
the IHB Management Recommendation at the
December 7, 2016, board meeting.
102. Mr. Daly announced that IHB management
rejected the latest proposal from the Landlords and
Parent Entities to have IHB pay $5.6 million in annual
rent, and IHB management continued to recommend
that IHB agree to the terms of the IHB Management
Recommendation.
103. The CP-appointed Minority Directors then
proposed a resolution to adopt the IHB Management
Recommendation.
104. The motion to adopt the resolution was denied,
with the Majority Directors, acting as agents of the
Landlords, Parent Entities, and Holding Entities,
voting in a bloc against it.
105. After additional discussion, Defendant Werner,
acting as agent of Defendants (excluding IHB), moved
to adopt a slightly modified version of the IHB
Management Recommendation.
106. Specifically, Defendant Werner proposed that
the resolution originally introduced by the Minority
Directors be adopted, with certain preliminary language stricken regarding the ownership of IHB,
makeup of the IHB Board, and history of rental and
O&M Expense payments between IHB and CRC.
107. Following a roll call vote, the IHB Board,
including the Majority Directors acting as agents of
the Landlords, Parent Entities, and Holding Entities,
unanimously passed the resolution proposed by
Defendant Werner (the “IHB Board Resolution,” a true
and correct copy of which is attached as Exhibit A).

75a
108. This IHB Board Resolution approved annual
rental payments to NSR of $642,700, to CSXT of
$341,714, and to CRC of $362,285, which were the
same rental rates proposed in the IHB Management
Recommendation.
109. The IHB Board Resolution expressly stated
that it was based on “an independent and neutral
evaluation reflecting the market rate of rent and
market terms and conditions for Trackage Rights
Agreements with” the Landlords.
110. The IHB Board Resolution also expressly
required “each Authorized Officer” to “execute and
deliver, on behalf of the IHB the transaction documents constituting the IHB Management Recommendation.”
VII. DEFENDANTS UNLAWFULLY UNDERMINE
THE IHB BOARD RESOLUTION.
111. Despite having just voted to approve the terms
of the IHB Management Recommendation and the
IHB Board Resolution, the Landlords, Parent Entities,
and Holding Entities—acting through their respective
agents—agreed to immediately and collectively
embark upon additional coercive and oppressive
behavior aimed at influencing IHB management to
backtrack and reject the terms of its own recommendation and the binding IHB Board Resolution in order to
increase rent paid to the Landlord, to the benefit of
Defendants (excluding IHB).
112. This agreement is evidenced by the uniform
course of conduct engaged in by the Landlords, Parent
Entities, and Holding entities in the months following
the passage of the IHB Board Resolution.

76a
113. On December 13, 2016, Jonathan Broder,
Defendant CRC’s Chief Legal Officer—acting on
behalf of CRC and/or its affiliates—wrote to Mr. Daly
of the IHB, rejecting the rental rates just approved
unanimously by the IHB Board.
114. In a letter to CP dated January 6, 2017, CRC
denied that CRC had a fiduciary duty to accept the
IHB Board Resolution.
115. In that letter, Defendant CRC further threatened that, if CRC could not reach another agreement
with IHB on the appropriate rental amounts, CRC
would ask the STB to intervene.
116. CRC’s Chief Legal Officer Broder—acting on
behalf of CRC and/or its affiliates—wrote another
letter to IHB on or about January 17, 2017, demanding
that IHB management agree to an annual rental
payment to CRC of between $1.9 million and $2.57
million.
117. If IHB management disagreed with the
demand, CRC threatened to commence a proceeding
“very soon” to have the STB determine the appropriate
compensation.
118. On December 27, 2016, Randall Hunt, NS’s
Director of Joint Facilities—acting on behalf of NSR
and/or its affiliates—also sent a letter to Mr. Daly
indicating that NSR and IHB management had
previously agreed behind closed doors to a $1.85
million annual rental rate.
119. Defendant NSR demanded that Mr. Daly “take
the $1.85mm agreed-to rental back to your Board for
approval . . . .”
120. Despite not charging rent to IHB since 1999,
NSR further demanded that IHB pay NSR for “all

77a
amounts due under the 1906 agreement for prior
years’ use of NSR property . . . .”
121. On January 6, 2017, Rick Hood, President of
CSX affiliate CSX Real Property, Inc.—acting on
behalf of CSXT and/or its affiliates—demanded by an
email to Mr. Daly that IHB pay a monthly rent of
$140,000, which amounts to an annual rental rate of
$1.68 million.
122. In that email, if IHB management disagreed,
CSXT threatened to evict IHB or disallow its use of the
Rail Properties, which would disrupt Chicago rail
operations for CP and other carriers.
123. In that email, Defendant CSXT further
demanded that IHB pay CSXT all accrued rent for
past use of CSXT-owned properties.
VIII. DEFENDANTS COERCE IHB’S ACCEPTANCE
OF AN EXORBITANT RENTAL AGREEMENT.
124. Accordingly, rather than comply with the IHB
Board Resolution’s directive to implement the IHB
Management Recommendation, the Majority Directors,
Landlords, Parent Entities, and Holding Entities
intentionally and collectively coerced IHB management into accepting exorbitant rental rates to be
approved at a special meeting of the IHB Board on
February 1, 2017, which was called by CRC.
125. This coercion was made apparent by materials
distributed to the IHB Board in a January 26, 2017,
email from Jocelyn Hill, CRC Assistant General
Counsel and Secretary to the IHB Board.
126. Specifically, Ms. Hill circulated copies of proposed draft minutes from the December 7, 2016, IHB
Board meeting that contained gross misstatements as

78a
to what was said and agreed to at the meeting with
respect to the IHB Management Recommendation.
127. Ms. Hill also circulated copies of a new draft
trackage rights agreement (“Revised Master Trackage
Rights Agreement”) and a proposed resolution to adopt
the Revised Master Trackage Rights Agreement, both
of which departed significantly from the terms already
agreed to in the IHB Board Resolution.
128. For example, the Revised Master Trackage
Rights Agreement would require IHB to pay approximately $5 million in annual rent, with $2,130,559 to
CRC, $1,150,000 to CSXT, and $1,750,000 to NSR.
129. In addition, even though the 1906 Agreement
stated that all IHB-funded improvements would
become IHB property, the Revised Master Trackage
Rights Agreement provided that “ownership of all
capital improvements shall reside with the Owner of
the Property.”
130. The proposed resolution also stated that IHB
management had reached an agreement with the
Landlords to pay rent that was allegedly past due.
131. The email from Ms. Hill also attached revised
financial projections for IHB that provided a slightly
more optimistic cash flow projection for 2019 and 2020
than what was provided at the December 7, 2016
Board meeting.
132. Although the December 7 projections stated
that IHB would be in a negative cash position in 2019
and 2020 if it were to accept the exorbitant rental rates
proposed by the Landlords and their affiliates, the
revised materials showed that IHB would experience
slightly positive cash flows for those years if it

79a
accepted the Revised Master Trackage Rights Agreement.
133. Despite this more optimistic outlook, however,
these projections would still have the effect of draining
IHB’s cash reserves which would render IHB incapable of paying dividends to its owners, including
Plaintiff CP.
134. During this specially called meeting, IHB’s Mr.
Daly acknowledged that the threats from the Landlords and their affiliates compelled him to change IHB
management’s position.
135. The IHB Board thus adopted the proposed
resolution and Revised Master Trackage Rights
Agreement.
136. The Majority Directors—acting as agents of
the Landlords, Parent Entities, and Holding
Entities—voted in favor of the resolution.
137. The Minority Directors—acting as agents of
CP—voted against it.
138. Accordingly, Defendants (excluding IHB)
succeeded in their collective effort to coerce IHB
management to induce IHB to make massively
increased payments to Defendants, contrary to the
unanimous resolution IHB had just approved.
139. Throughout the course of the above events, CP
has supported IHB management’s efforts to negotiate
a new trackage rights agreement on terms that are
fair to IHB, reflect market values for such rail property, are in the best interests of IHB’s shareholders,
and that support IHB’s continued financial viability.
140. In contrast, Defendants (excluding IHB) have
engaged in a pattern of coercive and oppressive behavior adverse to IHB’s interests including, but not

80a
limited to, self-dealing, unauthorized conduct, refusal
to disclose material information, demanding and
approving the onerous Revised Master Trackage
Rights Agreement while refusing to declare any dividends, threatening to withdraw operating rights
without legal justification, and other acts constituting
breaches of their fiduciary duties under Indiana law.
COUNT I
Breach of Fiduciary Duties
(Against CRC, the Majority Directors,
and the Parent Entities)
141. CP re-alleges and incorporates the preceding
paragraphs as if fully set forth herein.
142. IHB is a closely held corporation under
Indiana law.
143. As such, all IHB shareholders and directors
owe one another a fiduciary duty of utmost good faith
and loyalty and have a duty to act toward one another
in an honest, fair, and reasonable manner.
144. These duties include a Duty of Loyalty that
prohibits acting out of avarice, expediency, or selfinterest in derogation of the interests of IHB and its
shareholders.
145. In addition, as the minority shareholder in
IHB, Plaintiff CP has a reasonable expectation that it
would have a voice in, and participation in, the operation and management of IHB.
146. Those reasonable expectations were known
and understood by Defendants.
147. Defendant CRC owes fiduciary duties to CP
and IHB as the majority shareholder of IHB.

81a
148. The Majority Directors owe fiduciary duties to
CP and IHB as directors of IHB.
149. The Parent Entities owe fiduciary duties to CP
and IHB because they jointly own and exercise control
over CRC.
150. Defendant CRC, the Majority Directors, and
the Parent Entities have breached their fiduciary
duties to CP and IHB by failing to act with utmost
good faith and loyalty; by failing to act toward CP and
IHB in an honest, fair, and reasonable manner; by
committing corporate waste and oppression; by defeating CP’s reasonable expectations of a voice in, and
participation in, the operation and management of
IHB; and by engaging in self-dealing at the expense of
IHB’s and CP’s interests.
151. Specifically, through coercing IHB management’s acceptance of the Revised Master Trackage
Rights Agreement, Defendants CRC, the Majority
Directors, and the Parent Entities compelled IHB to
depart from a more than 100-year course of dealing
between CRC and IHB and pay grossly excessive
rental rates that could lead to the financial insolvency
of IHB.
152. Despite their obligations to act in IHB’s and
CP’s best interest, Defendants CRC, the Majority
Directors, and the Parent Entities actively negotiated
against IHB’s interests by demanding that IHB pay
rental rates significantly greater than those set forth
in the IHB Management Recommendation, placing
their own interests above the interests of IHB and its
shareholders.
153. The Revised Master Trackage Rights Agreement includes rental rates that grossly exceed market
standards, and are grossly in excess of those approved

82a
by IHB management in the IHB Management Recommendation.
154. These grossly excessive and onerous rates pose
a serious threat to IHB’s continued financial solvency.
155. Defendants CRC, the Majority Directors, and
the Parent Entities have failed to fulfill their fiduciary
duties to ensure that the transaction was reasonable
and not excessive.
156. By breaching their fiduciary duties, Defendants CRC, the Majority Directors, and the Parent
Entities have wasted corporate assets that should
have been preserved as operating capital in a down
economy, or which otherwise would be available for
distributions to IHB’s shareholders.
157. Defendants CRC, the Majority Directors, and
the Parent Entities have also committed corporate
waste and breached their fiduciary duties by demanding that IHB pay excessive amounts of back rent that
they claim IHB owes for operating over their property
since 1999, even though they are aware that they have
no basis in law or fact to demand payment of these
amounts.
158. Defendants CRC, the Majority Directors, and
the Parent Entities have also breached their fiduciary
duties to CP by defeating its reasonable expectations
of a voice in, and participation in, the operation and
management of IHB.
159. Specifically, despite the fact that the IHB
Board unanimously passed the IHB Board Resolution,
directing IHB’s shareholders to implement the
IHB Management Recommendation, the Defendant
Landlords—acting as agents of the Parent Entities—

83a
engaged in closed-door negotiations in contravention
of the IHB Board Resolution.
160. The result of those negotiations was approved
by the Majority Directors, acting as agents for CRC
and the Parent Entities.
161. Plaintiff CP, as a minority shareholder, had
the right to participate in these negotiations with IHB
management, but was prevented from doing so by
Defendants CRC, the Majority Directors, and the
Landlords.
162. By including higher rental rates in direct
contravention of the IHB Management Recommendation, the Revised Master Trackage Rights Agreement
constitutes a self-interested transaction because
Defendants CRC, the Majority Directors, and the
Parent Entities are acting to benefit the Landlords,
Parent Entities, and Holding Entities at the expense
of IHB’s shareholders.
163. IHB obtained a better bargain, as indicated in
the IHB Management Recommendation and IHB
Board Resolution.
164. Despite the approved IHB Board Resolution,
Defendants CRC, the Majority Directors, and the
Parent Entities diverted for their own purposes the
corporate gain that IHB could have realized through
the IHB Management Recommendation, and they
failed to provide full disclosures to IHB, CP, or IHB’s
Minority Directors.
165. By virtue of Defendants CRC’s, the Majority
Directors’, and the Parent Entities’ breaches of their
fiduciary duties as set forth herein, CP suffered
damages and is entitled to any and all equitable and
legal remedies that this Court may deem just and

84a
proper, including, without limitation, the return to
IHB of all rental payments made to and profits earned
by the Landlords under the Revised Master Trackage
Rights Agreement, damages in an amount to be
determined at trial, a declaration that the Revised
Master Trackage Rights Agreement is void, an
injunction compelling the Landlords to implement and
enforce the IHB Board Resolution, an award to IHB of
all O&M Expenses that Conrail was obligated to pay
pursuant to the terms of the 1906 Agreement, payment of CP’s applicable expenses and attorney’s fees
incurred herein, and such further relief as the Court
deems just and proper.
166. Furthermore, CP is entitled to an award of
punitive damages in an amount to be determined at
trial, on the basis that CRC’s, the Majority Directors’,
and the Parent Entities’ breaches of their fiduciary
duties were wanton, willful, intentionally oppressive,
and/or malicious.
COUNT II
Aiding and Abetting Breach of Fiduciary Duties
(Against the Parent Entities, NSR, CSXT,
and the Holding Entities)
167. CP re-alleges and incorporates the preceding
paragraphs as if fully set forth herein.
168. The Parent Entities owe fiduciary duties to
IHB and its shareholders because they are indirect
owners of and exercise control over CRC, and because
they exercise control over IHB by virtue of CRC’s
majority interest in IHB and the 1999 Agreement.
169. Alternatively, if the Parent Entities do not owe
fiduciary duties to IHB and its shareholders, they are
liable as aiders and abettors of CRC’s and the Majority

85a
Directors’ breaches of fiduciary duties as set forth in
this First Amended Complaint.
170. Likewise, Defendants NSR, CSXT, and the
Holding Entities are liable as aiders and abettors of
CRC’s and the Majority Directors’ breaches of fiduciary duties as set forth in this First Amended
Complaint.
171. Specifically, as set forth in the preceding
paragraphs, Defendants CRC (as the majority
shareholder) and the Majority Directors (as directors
of IHB) owed IHB and Plaintiff CP fiduciary duties.
172. CRC and the Majority Directors breached their
fiduciary duties to IHB and CP as set forth in the
preceding paragraphs.
173. The Parent Entities, NSR, CSXT, and the
Holding Entities—acting by and through their
agents—knowingly and substantially assisted CRC
and the Majority Directors, individually and collectively, in the breach of their fiduciary duties by taking
the actions alleged in the preceding paragraphs.
174. The Parent Entities, NSR, CSXT, and the
Holding Entities—acting by and through their
agents—were aware of their role when assisting in
CRC’s and the Majority Directors’ breaches of fiduciary duties, and knowingly and intentionally joined
CRC and the Majority Directors in their breaches of
those duties.
175. Through the assistance of the Parent Entities,
NSR, CSXT, and the Holding Entities in CRC’s and
the Majority Directors’ breaches of fiduciary duties,
CP suffered damages and is entitled to any and all
equitable and legal remedies that this Court may
deem just and proper, including, without limitation,

86a
the return to IHB of all rental payments made to and
profits earned by the Landlords under the Revised
Master Trackage Rights Agreement, damages in an
amount to be determined at trial, a declaration that
the Revised Master Trackage Rights Agreement is
void, an injunction compelling the Landlords to
implement and enforce the IHB Board Resolution, an
award to IHB of all O&M Expenses that Conrail was
obligated to pay pursuant to the terms of the 1906
Agreement, payment of CP’s applicable expenses and
attorney’s fees incurred herein, and such further relief
as the Court deems just and proper.
176. Furthermore, CP is entitled to an award of
punitive damages in an amount to be determined at
trial, on the basis that the Parent Entities’, NSR’s,
CSXT’s, and the Holding Entities’ conduct in assisting
these breaches of fiduciary duties was wanton, willful,
intentionally oppressive, and/or malicious.
COUNT III
Civil Conspiracy to Breach Fiduciary Duties
(Against All Defendants, Excluding IHB)
177. CP re-alleges and incorporates the preceding
paragraphs as if fully set forth herein.
178. Defendants (excluding IHB) acting in concert
with one another, conspired and agreed to cause CRC,
the Parent Entities, and the Majority Directors to
breach their fiduciary duties toward CP and IHB, as
set forth in greater detail above.
179. Defendants (excluding IHB) each made overt
acts in furtherance of the conspiracy, as set forth in
greater detail above.

87a
180. As a result, Defendants (excluding IHB)
obtained the power to accomplish the unlawful
purpose which they could not accomplish individually.
181. As a direct and proximate result of the actions
taken in furtherance of this conspiracy, CP suffered
damages and is entitled to any and all equitable and
legal remedies that this Court may deem just and
proper, including, without limitation, the return to
IHB of all rental payments made to and profits earned
by the Landlords under the Revised Master Trackage
Rights Agreement, damages in an amount to be determined at trial, a declaration that the Revised Master
Trackage Rights Agreement is void, an injunction
compelling the Landlords to implement and enforce
the IHB Board Resolution, an award to IHB of all
O&M Expenses that Conrail was obligated to pay
pursuant to the terms of the 1906 Agreement,
payment of CP’s applicable expenses and attorney’s
fees incurred herein, and such further relief as the
Court deems just and proper.
182. CP is entitled to an award of punitive damages
in an amount to be determined at trial, on the basis
that Defendants’—excluding IHB—conduct in assisting
these breaches of fiduciary duties was wanton, willful,
intentionally oppressive, and/or malicious.
COUNT IV
Vicarious Liability for Breach of Fiduciary Duties
(Against the Landlords, Parent Entities,
and the Holding Entities)
183. CP re-alleges and incorporates the preceding
paragraphs as if fully set forth herein.

88a
184. CRC and the Majority Directors owe fiduciary
duties to CP and IHB, as set forth in the preceding
paragraphs.
185. CRC and the Majority Directors breached their
fiduciary duties to IHB and CP, as set forth in the
preceding paragraphs.
186. CSX, NS, and the Holding Entities are vicariously liable for the breaches of fiduciary duties
committed by CRC and the Majority Directors.
187. Specifically, CSX, NS, and the Holding
Entities are vicariously liable for CRC’s breaches of
fiduciary duties by virtue of, inter alia, the following:
a. CSX and NS, through the Holding Entities,
are 100% owners of CRC;
b. Pursuant to the 1999 Agreement, CSX and
NS possess an equal right to direct the
exercise of CRC’s ownership rights regarding
IHB and to select a majority and equal
number of IHB directors to be appointed by
CRC;
c. Pursuant to the 1999 Agreement, the
Majority Directors appointed by CSX and
NS vote as a bloc on matters relating to the
IHB; and
d. CSX, NS, and the Holding Entities, as
parent entities to CRC, have a financial
interest in the rental payments from IHB to
CRC.
188. Therefore, CSX, NS, and the Holding Entities
knew of and directly benefitted from CRC’s breaches
of fiduciary duties. Furthermore, CSX, NS, and the
Holding Entities possessed the right and ability to
supervise CRC regarding the actions taken by CRC,

89a
CSX, and NS with respect to the IHB and, more
specifically, the actions set forth in the preceding
paragraphs.
189. In addition, the Landlords, Parent Entities,
and Holding Entities are vicariously liable for the
Majority Directors’ breaches of fiduciary duties by
virtue of, inter alia, the following:
a. The Majority Directors are officers of CSX
and NS;
b. As the CSX and NS appointed directors of
the IHB Board, the Majority Directors acted
for the benefit and on behalf of the Landlords, the Parent Entities, and the Holding
Entities in taking the actions alleged herein;
c. At all relevant times and in all actions
alleged herein, the Majority Directors were
acting within the scope of agency delegated
by the Landlords, the Parent Entities, and
the Holding Entities;
d. At all relevant times and in all relevant
actions alleged herein, the Majority Directors were subject to the control of the Landlords, the Parent Entities, and the Holding
Entities.
190. Therefore, the Landlords, Parent Entities, and
Holding Entities knew of and directly benefitted from
the Majority Directors’ breaches of fiduciary duties.
Furthermore, the Landlords, Parent Entities, and
Holding Entities possessed the right and ability to
supervise the Majority Directors regarding the actions
taken by the Majority Directors with respect to the
IHB and, more specifically, the actions set forth in the
preceding paragraphs.

90a
191. As a direct and proximate result of the
breaches of fiduciary duties by CRC and the Majority
Directors, CP suffered damages and is entitled to any
and all equitable and legal remedies that this Court
may deem just and proper, including, without limitation, the return to IHB of all rental payments made to
and profits earned by the Landlords under the Revised
Master Trackage Rights Agreement, damages in an
amount to be determined at trial, a declaration that
the Revised Master Trackage Rights Agreement is
void, an injunction compelling the Landlords to
implement and enforce the IHB Board Resolution, an
award to IHB of all O&M Expenses that Conrail was
obligated to pay pursuant to the terms of the 1906
Agreement, payment of CP’s applicable expenses and
attorney’s fees incurred herein, and such further relief
as the Court deems just and proper.
192. CP is entitled to an award of punitive damages
in an amount to be determined at trial, on the basis
that CRC’s and the Majority Directors’ breaches of
fiduciary duties were wanton, willful, intentionally
oppressive, and/or malicious.
CP’S DIRECT CLAIMS UNDER INDIANA LAW
193. CP’s claims asserted in this action are direct
claims because the harm caused by the Defendants—
excluding IHB—is suffered uniquely by CP.
194. Among other things, if the misconduct by
Defendants—excluding IHB—is allowed to stand, CP
would be deprived of any distributions or dividends
that would otherwise be available for the benefit of all
of IHB’s shareholders.
195. This misconduct has the practical effect of
appropriating all distributions and dividends to
Landlords (and indirectly to the Parent Entities and

91a
Holding Entities), causing unique and individual
harm to CP.
196. Alternatively, because IHB is an Indiana
closely held corporation, the Court, in its discretion,
may treat an action raising derivative claims as a
direct action.
197. To the extent the Court were to view CP’s
claims herein as derivative, the court should exercise
its discretion to treat the action as direct for the
following reasons:
(a) IHB is a closely held corporation with only
two shareholders, and allowing this action to
proceed as a direct action would not expose
IHB to a multiplicity of suits;
(b) A direct action would not prejudice IHB’s
creditors—to the contrary, the relief sought
by CP herein would protect IHB’s financial
position and ability to pay its creditors; and
(c) A direct action would not interfere with a
fair distribution of funds because CP is the
party who would ultimately be harmed if the
exorbitant and unfair rental rates being
forced upon IHB by its majority shareholder,
affiliated entities, and captive Majority
Directors are allowed to stand.
DEMAND REQUIREMENT IS
OTHERWISE EXCUSED AS FUTILE
198. To the extent that the claims asserted and
relief sought by CP as the minority shareholder in IHB
are derivative in nature, a demand should be excused
as futile because a majority of the IHB Board is
comprised of interested directors, there is a substantial likelihood that those interested directors will be

92a
held personally liable, and IHB’s majority shareholder
is implicated in this dispute.
199. In addition, CP has made repeated requests to
the Majority Directors, Landlords, and Parent Entities
to take actions consistent with the relief requested
herein, and those requests have been ignored.
200. By bringing this action without first making a
formal demand, CP will not unfairly expose IHB or the
other named Defendants to multiple actions, materially prejudice the interests of IHB’s creditors, or interfere with a fair distribution of the recovery among all
interested persons. In particular, Conrail’s actions—
taken through NS and CSX—will cause injury to only
one shareholder, CP, and will not injure the only
remaining shareholder, CRC.
WHEREFORE, CP prays that the Court enter
judgment in its favor, and against Defendants, as
follows:
1. Finding that the Majority Directors, CRC, and
the Parent Entities have breached their fiduciary
duties as shareholders and directors, and awarding
damages for said breaches of fiduciary duties in an
amount to be determined at trial;
2. Finding that the Parent Entities, NSR, CSXT,
and the Holding Entities aided and abetted the breach
of fiduciary duties committed by the Majority
Directors, CRC, and the Parent Entities;
3. Finding that all Defendants—excluding IHB—
engaged in a civil conspiracy to cause CRC, the Parent
Entities, and the Majority Directors to breach their
fiduciary duties;

93a
4. Finding NS, CSX, CRC, and the Holding Entities
vicariously liable for the breaches of fiduciary duties
by CRC and the Majority Directors;
5. Awarding CP punitive damages, in an amount to
be determined at trial, on the basis that these
breaches of fiduciary duties were wanton, willful,
intentionally oppressive, and/or malicious;
6. Awarding IHB the O&M Expenses that Conrail
was obligated to pay pursuant to the terms of the 1906
Agreement;
7. Ordering the Landlords, Parent Entities, and
Holding Entities to disgorge any ill-gotten profits
resulting from IHB’s payments under the Revised
Master Trackage Rights Agreement;
8. Voiding the Revised Master Trackage Rights
Agreement;
9. Entering an injunction compelling Defendants to
implement and enforce the IHB Board Resolution;
10. Awarding CP its costs and reasonable attorneys’
fees incurred herein; and
11. Awarding any other relief that the Court deems
just and equitable.
JURY TRIAL DEMANDED
CP demands a trial by jury of all issues so triable.
EICHHORN & EICHHORN, LLP
Dated: June 13, 2017
By:

/s/ David C. Jensen
David C. Jensen, #4893-45
200 Russell Street, P.O. Box 632
Hammond, IN 46325
(291) 931-0560

94a
Fax: (291) 931-5370
Email: djensen@eichhorn-law.com
STINSON LEONARD STREET LLP
Dated: June 13, 2017
By:

/s/ Douglas R. Dalgleish
Douglas R. Dalgleish (Pro Hac Vice)
Stinson Leonard Street LLP
1201 Walnut Street, Suite 2900
Kansas City, MO 64106
(816) 842-8600
Fax: (816) 691-3495
Email: doug.dalgleish@stinson.com
Bryant D. Tchida (Pro Hac Vice)
Thomas C. Burman (Pro Hac Vice)
Stinson Leonard Street LLP
150 South Fifth Street, Suite 2300
Minneapolis, MN 55402
(612) 335-1500
Fax: (612) 335-1657
Email: bryant.tchida@stinson.com
Email: thomas.burman@stinson.com
Attorneys for Soo Line Railroad
Company d/b/a Canadian Pacific

95a
VERIFICATION
CITY OF CALGARY

)
)
PROVINCE OF ALBERTA ) ss
)
CANADA
)
I, James Clements, being first duly sworn, depose
and state that I am a duly authorized agent of the corporate plaintiff bringing the foregoing First Amended
Complaint, that I have read the First Amended Complaint, and that the facts therein are true to my
knowledge, except as to matters stated therein to be
alleged upon information and belief, and as to those
matters, I believe them to be true and correct to the
best of my knowledge, information, and belief.
/s/ James Clements
JAMES CLEMENTS
Subscribed and sworn to before me
this 13 day of June, 2017.
/s/ Craig Fahlman
Notary Public in and for the Province of Alberta
[NOTARY STAMP]

96a
APPENDIX H
RESOLUTION OF THE DIRECTORS OF
INDIANA HARBOR BELT RAILROAD COMPANY
Effective as of December 7, 2016
The directors (“Directors”) of Indiana Harbor Belt
Railroad Company (“IHB”), a corporation existing
under the laws of the State of Indiana (the “IHB”), by
roll call vote adopt the following resolution.
WHEREAS, the Directors authorized IHB Management to hire an outside lawyer, appraiser and consultant (“Outside Professionals”) to advise IHB Management on what would be a market rate of rent to pay to
NS, CSX and Conrail as IHB’s landlords (“IHB
Landlords”) on three trackage rights agreements to
replace the current rate of compensation to those 11113 Landlords for the land owned by each of them. The
Landlords for many years have not invoiced the IHB
for the annual rent established in a price agreement
(possibly as high as $250,000 per year) while insisting
on the IHB’s waiver of $1 to $2 million in annual
operations and maintenance expenses, possibly
without IHB Board approval.
WHEREAS, the IHB Landlords are directly or
indirectly majority owners of the IHB and the IHB
Landlords have appointed a majority of the board of
directors of IHB. The Directors appointed by the IHB
Landlords are employed by NS and CSX, the sole
owners of Conrail, which in turn owns 51% of the IHB.
WHEREAS, IHB Management did hire the Outside
Professionals and together they developed an independent and neutral evaluation reflecting the market
rate of rent and market terms and conditions for
Trackage Rights Agreements with the IHB Landlords.

97a
IHB Management used the independent and neutral
evaluation developed with its Outside Professionals to
propose offers to the IHB Landlords as follows:
1. to NS, initial annual rent beginning in 2017 of
$642,700 along with a revised draft of the Trackage
Rights Agreement including continued forgiveness of
certain operations and maintenance expenses (proposal made on September 23, 2016);
2. to CSX, initial annual rent beginning in 2017 of
$341,714 along with a revised draft of the Trackage
Rights Agreement including continued forgiveness of
certain operations and maintenance expenses
(proposal made on September 23, 2016); and
3. to Conrail, initial annual rent beginning in 2017
of $362,285 along with a revised draft of the Trackage
Rights Agreement including continued forgiveness
of certain operations and maintenance expenses
(proposal made on October 3. 2016); for a total initial
rent in 2017 of $1,346,699 (collectively the “IHB
Management Recommendation”).
NOW, THEREFORE, 13E IT RESOLVED, that the
form, terms and provisions of the IHB Management
Recommendation and the transactions contemplated
thereby, be, and the same hereby is, authorized,
adopted and approved in all respects, and each
Authorized Officer be, and hereby is, authorized,
empowered and directed to execute and deliver, on
behalf of the IHB the transaction documents
constituting the IHB Management Recommendation.
Tom Werner, NS

Yes  No

Terry Evans, NS

Yes  No

John Hart, CSX

Yes  No

Mike Pendergrass, CSX

Yes  No

James Clements, CP

98a
Yes  No

Tom Albanese, CP

Yes  No

Steve Nettleton, CP

Yes  No

Attested by IHB Secretary:
/s/ Jocelyn Hill
Jocelyn Hill, Conrail
December 7, 2016

as amended

99a
APPENDIX I
AGREEMENT BETWEEN
CHICAGO, INDIANA AND
SOUTHERN RAILROAD COMPANY
AND

INDIANA HARBOR RAILROAD COMPANY.
————
DATED APRIL 9th, 1906.
————
A grant of trackage rights over
a portion of the Chicago, Indiana
and Southern Railroad Company.
————

100a
INDEX.
PAGE
RECITALS ...........................................................

1

Article I. Grants ...................................................

2

Sec. 1. Grant of 99 years ................................

2

Sec. 2. Reservation of rights for other
companies ..................................................

3

Sec. 3. Grantee’s rights as to business ..........

4

Sec. 4. Grantee will observe the law .............

4

Article II. Rentals and Maintenance ..................

4

Sec. 1.
(1) Rents ....................................................

4

(2) Maintenance ........................................

4

(3) Taxes ....................................................

5

(4) Salaries of officers..... ..........................

6

Sec. 2. Basis of computation ..........................

6

Sec. 3. Identity of cars for computation.........

6

Sec. 4. Basis of estimating maintenance .......

7

Article III. Additions and betterments ...............

7

Sec. 1. Additions made by Southern Co.,
use of .........................................................

7

Sec. 2. Additions made by Harbor Co.,
use of .........................................................

8

Right of Harbor Co. to remove
additions ...........................................

9

Sec. 3. Right of Southern Co, to purchase
additions ....................................................

10

101a
Sec. 4. Method of handling track elevation ..

10

Harbor Co. to charge track elevation to
Capital Account ...................................

11

Obligations of Southern Co. to pay cost of
same .....................................................

11

Rental and maintenance based on actual
cost .......................................................

12

Article IV. Terms .................................................

12

Article V. Distribution of liabilities and losses ..

12

Sec. 1. Definition of joint. servants................

12

Sec. 2. Distribution of loss caused by defects

13

Sec. 3. Giving of bonds by station agents ......

14

Distribution of Ices caused by theft .........

14

Sec. 4. Distribution of liabilities on account
of personal injury ......................................

14

Sec. 5. Each putty to pay its awn claim ........

15

Sec. 6. Party sued shall notify party .............

15

Sec. 7. Party operating to remove wrecks .....

16

Article VI. Movement of trains ...........................

16

Sec. 1. No claims for delay in traffic ..............

16

Sec. 2. Schedules for train movements ..........

16

Train despatchers of operating Co. to
control movements ..............................

17

Sec. 3. Party supervising premises to make
rules ...........................................................

17

Article VII. Supervision and control ...................

17

Sec. 1. Southern Company to control property .

17

102a
Sec. 2. Harbor Company to act as agent for
So. Co. from year to year ..........................

18

Sec. 3. Harbor Company to keep accounts
while controlling property ........................

18

Sec. 4. Limitations of Harbor Co.’s liabilities
in controlling property ..............................
Article VIII. Accounting ......................................

19

Sec. 1. Manner of distributing taxes in
accounts .....................................................

19

Sec. 2.
(a) Maintenance to be paid monthly ........

19

(b) Rental to h. paid quarterly..................

10

Sec. 3. Books and vouchers to be open to
inspection ..................................................

20

Article IX. Forfeiture ...........................................

20

Article X. User .....................................................

21

Controversies not to affect user ...............

21

Article XI. Covenant of quiet enjoyment ............

22

Article XII. Arbitration........................................

22

Article XIII. Assignments ...................................

24

Article XIV. Validity ............................................

24

Sec. 1. Void portion not to effect validity of
remainder ..................................................

24

Sec. 2. Serving notices....................................

25

Article XV. Acceptance of grant ..........................

25

Signatures ......................................................

25

Schedule “A” .............................................. 26 to 30

103a
This Agreement, made and entered
into this ninth day of April, A.D. 1906, by
and between the CHICAGO, INDIANA AND
SOUTHERN RAILROAD COMPANY, a corporation duly organized and existing under
and by virtue of the laws of the States of
Indiana and Illinois, hereinafter styled
the “Southern Company,” as party of the
first part, and the INDIANA HARBOR
RAILROAD COMPANY, a corporation duly
organized and existing under and by
virtue of the laws of the State of Illinois,
hereinafter styled the “Harbor Company.”
as party of the second part,
Witnesseth: That,
Whereas, the Southern Company owns Recitals.
and operates a line of railroad extending
from Dune Park in Porter County, Indiana,
thence in a general westerly direction to
Indiana Harbor, in Lake County, Indiana,
and thence in a general southerly direction to the city of Danville, in. the State
of Illinois, and is also the owner of certain
other lines of railroad tributary thereto;
and,
Whereas, the Southern Company is
also the owner of certain yards, situated
at Gibson, in Lake County, Indiana, and
is also the owner of certain other yards,
switch tracks, tracks used to reach industries, together with roundhouses, shops,
and other facilities and appurtenances
used in connection with its said line of
railroad; and,

104a
Whereas, the Harbor Company desires
to acquire from the Southern Company
the right to a full, joint and equal use of
all the Southern Company’s tracks,
yards, side tracks, tracks used to reach
industries and other facilities and appurtenances, in common with the Southern
Company. and such other Company or
Companies as the Southern Company
may hereafter permit to use the same, or
any part thereof, lying and being north of
the north bank of the Little Calumet
River, in Lake County, Indiana, thence
northerly and easterly to the present
terminus of the Southern Company’s
railroad at Dune Park, in Porter County,
Indiana, including the tracks of the
Southern Company leading from Osborne
to the works of the Standard Steel Car
Company, and other industries; and,
Whereas, the Southern Company is
willing to grant to the Harbor Company
such full, joint and equal use, in common
with itself, and such other Company or
Companies as the said Southern Company may hereafter permit to use the
same, upon the terms and conditions
hereinafter set forth;
Now, Therefore, in consideration of the
premises and of the covenants in this
agreement set forth, it is agreed between
the parties hereto as follows:

105a
ARTICLE I.
(Grants.)
SECTION 1. The Southern Company
hereby grants to the Harbor Company,
for a term of Ninety-nine (99) years from
and after the date hereof, the full, joint.
And equal use in common with the
Southern Company and such other
Company or Companies as the Southern
Company shall at any time hereafter
permit to use the same, or any part
thereof, and subject to the conditions,
limitations and restrictions in these
articles set forth, of all that portion of the
Southern Company’s existing main
tracks, side tracks, switch tracks, tracks
used to reach industries, the telegraph
and telephone lines of the Southern
Company, and all other facilities and
improvements belonging to it, including
its Office Building and its Young Men’s
Christian Association Building, which
now extend or are located or exist upon or
are appurtenant to those premises of the
Southern Company, extending or lying
between the North Bank of the Little
Calumet River, in Lake County, Indiana,
and the present terminus of the Southern
Company at Dune Park, in Porter
County, Indiana, together with the right
to maintain upon the poles of the
Southern Company, such telegraph or
telephone lines, or both, as the business
of the Harbor Company may from time to
time require, to be used exclusively for
the business of the Harbor Company; all

Grant for
99 years of
certain tracks
and appurtenances.

106a
of which main tracks, side tracks, switch
tracks, tracks used to reach industries,
and other facilities and improvements;
the use of which is herein granted, are
substantially set forth and indicated
upon the plat hereinafter mentioned. The
said portion of Railroad so to be used
in common under this agreement is
shown
on
plats
identified
and
authenticated by the signatures of the
Chief Engineers of the respective parties
hereto and deposited with their respective Secretaries.
SEC. 2. The Southern Company, notwithstanding the grants of user made by
it as above set forth, hereby reserves for
itself the right to permit other Railroad
corporations to use in common with the
parties ‘to this agreement, the tracks,
facilities and improvements, the use of
which is herein, granted to the Harbor
Company or any part thereof, upon such
terms and conditions as it may see lit; it
being understood, however, that such use
by any such other Railroad corporations
shall not interfere with the exercise of the
several grants of user herein made.
SEC. 3. The Harbor Company in exercising the right of joint user herein
granted to it over the Southern Company’s
Railroad shall have the Full and unrestricted right to do all the business of a
common carrier at any and all points on
the aforesaid portion of Railroad covered
by the terms of this agreement; and for

Reservation
of right to
permit other
Companies to
use tracks

Harbor Co.
shall have
right to all
the business
of a common
carrier.

107a
this purpose all the switch tracks, industrial tracks, or other tracks, hereafter
constructed by either of the parties hereto
under the limitations hereinafter prescribed, shall be available to the party
entitled to use the same in conjunction
with the main tracks of Railroad, the use
of which is herein granted.
SEC. 4. The Harbor Company covenants and agrees that as to any traffic or
business done by it over the tracks, the
use of which is hereby granted, it will
fully and faithfully perform any and all
duties which may be lawfully imposed
upon it or upon the Southern Company
relative thereto, by any State or by the
United States.

The Harbor
Company
will observe
the law.

ARTICLE II.
(Rentals and Maintenance.)
SECTION 1., The Harbor Company cov- Rentals.
enants and agrees to pay to the Southern
Company as compensation for the rights,
interests and privileges herein granted
and for the purposes herein enumerated,
the following sums, namely:
(1) An annual sum equivalent to the
sum of the say-amounts of annual interest computed at the rate of five per cent
(5%) per annum on the several items set
forth, and on the basis provided for in
schedule “A” attached to this agreement
and made a part of the same.
of

Rents
provided for
in schedule
“A”.

(2) A pro rata proportion of the cost Maintenance.
maintaining. renewing, replacing,

108a
repairing and operating each of the
tracks, facilities, improvements and appurtenances, the use of which is herein
granted, including in each instance the
wages of joint employees engaged in work
relating thereto, which proportion shall
be the same in each instance as that
proportion of annual interest which the
Harbor Company is required to pay on
the particular item in Schedule “A,” in
which each such track, facility, improvement or appurtenance belongs.
(3) Towards the discharge of taxes and Taxes.
other charges levied upon the premises
the use of which is herein granted, a sum
which shall be determined as follows:
The total amount of taxes and other
charges equitably apportionable to the
property to be used in common, determined as provided in the next succeeding
paragraph, shall be distributed between
the several items in Schedule “A” in the
several proportions in which the value of
each item bears to the total value of all
items; and thereupon the Harbor Company shall pay the same proportion of
each such allotted amount as that proportion of interest computed for the same
period with which the Harbor Company
shall be charged, as to the particular item
to which such amount of tax shall have
been so allotted.
The taxes equitably apportionable in
each county to the property located in
such county so to be used in common,

109a
shall be deemed to be such proportion of
the total taxes paid by the Soothers
Company in such county on its property
therein, other than on rolling stock and
other personal property, as the assessed
value of the mileage and improvements of
the property used in common in said
county shall bear to the assessed value of
the total mileage and improvements of
the Southern Company’s railroad in that
county.
(4) Such proportion of the salaries of all
officers and their employees from time to
time acting in common in behalf of both
parties hereto, and of the general office
expense of such officers, and also of all
such other employees as shall be exclusively engaged in keeping the proper
records and accounts necessary to carry
out this agreement, as the respective
general managers of the parties hereto
shall from time to time agree upon.

Salaries of
officers
acting for
both parties.

In the event any joint employee cannot
be identified for the purpose of distributing the cost of his salary or wages as a
maintenance charge with any item in
Schedule “A,’’ then he shall fall within the
class created in this Subdivision.
SEC. 2. In computing the several
proportions provided in Schedule “A” or
above required to be paid by the Harbor
Company, the statistics in each instance
upon which each proportion is to be
based, shall be those pertaining to the
monthly or quarterly period, as the case

Statistics for
computation
are to be
those of
previous
month or
quarter.

110a
may be, next preceding the first day of the
month or quarter in which each item of
charge shall be due, as hereinafter provided by Section 2 of Article VIII hereof;
provided, however, that all such computations and all payments made thereon
shell he revised at the termination of
each fiscal year by computing all such
several proportions on the basis of
statistics pertaining to the whole period
of such fiscal year: and thereupon. the so
counts between the parties shall be
adjusted in accordance with any revision
in computations required by such annual
readjustment.
SEC. 3. For the purpose of fixing the
several proportions herein provided to he
paid by the Harbor Company, the trains
and cars of such other companies as the
Southern Company shall from time to
time permit to use the premises, the use
of which is herein granted shall for the
purposes of computation be considered
the trains and cam of the Southern
Company. For this purpose each engine
and tender shall be counted as one car
The Southern Company, however, shall
not be bound to assume any liability for
loss, damage or injury resulting from the
use of said tracks by such other companies, but all such loss, damage and injury
shall be borne by the parties hereto and
such other companies as may be from
time to time permitted to use said tracks
on the basis of and in accordance with the

For purpose
of computation cars of
other Companies are to be
considered
cars of Southern Company.

111a
provisions hereinafter set forth in Article
V hereof.
SEC. 4. In determining the oust of
maintaining, renewing, replacing, repairing and operating the tracks and facilities, the use of which is herein granted,
the actual cost of materials, supplies and
labor, together with any expenditures
incidental thereto, shall be taken as the
basis of cost. In no case, however, shall
the cost of materials, supplies and labor
used in the construction or operation of
any property of either party hereto not
available for the common use of both be
taken into account. Each party shall
assume the cost of and shall pay for at its
sole expense, all labor and materials and
all supplies furnished by one Company to
the other for its individual use.

Actual cost
shall be the
basis for
estimating
maintenance.

ARTICLE III
(Additions and Betterments.)
SECTION 1. In the event that the
Southern Company shall on its own
initiative at any time hereafter during
the term herein granted, construct or
acquire as appurtenant to the premises,
the joint use of which is herein granted,
any additional main tracks, side tracks,
switch tracks, tracks connecting with or
extending to industries or any other
betterments, improvements or facilities
similar in character to any of the
enumerated facilities. the joint use of
which is hereby granted, the Harbor
Company may at any time after the

Additions
made by
Southern
Company
appurtenant
to the
premises
may be used
jointly by the
Harbor
Company
upon paying
compensation and
maintenance.

112a
construction of any such addition, betterment or improvement, use the same
jointly with the Southern Company;
provided, however, that if it shall elect so
to use the same it shall first notify the
Southern Company of such election in
writing and thereafter every such addition, betterment or improvement, the use
of which is so desired by the Harbor
Company, shall be open to the common
user of the parties hereto during the
remainder of the term herein granted;
and the Harbor Company shall, beginning with the date of the service of such
written notice above prescribed, pay to
the Southern Company in and for each
year of the remainder of the term herein
granted, a like proportion of compensation upon the cost of each such additional
improvement so used by it, and a like
proportion of the cost of maintenance
thereof as is herein now required to be
paid by the Harbor Company for the use
and maintenance of any like existing
facility now covered by the terms of this
agreement.
SEC. 2. In the event that the Harbor
Company shall desire for its own purposes the construction or installation
of any such addition, betterment or
improvement as by the provisions of
Section one of this Article, it is intended
may be jointly used by the parties hereto,
it also shall have the right at its own
option to construct the same and to use it
in connection with or as appurtenant to

The Harbor
Co. shall also
have the right
to make additions appurtenant to the
property and
the Southern
Co. may use
the same and
shall make

113a
the premises, the joint use of which is
hereby granted. All such additions shall
be the property of the Harbor Company
and shall he maintained by it. No such
improvement, however, as in this Section
contemplated shall be constructed or
located in such manner or form as to
injure the property or affect the efficient
use thereof of the Southern Company.
The Southern Company, however, may
at any time after the construction of any
such addition, betterment or improvement use the same jointly with the
Harbor Company; provided, however,
that if it shall so elect to use the same it
shall first notify the Harbor Company of
such election in writing and thereafter
every such addition, betterment or
improvement, the use of which is so
desired by the Southern Company, shall
be open to the common user of the parties
hereto during the remainder of the term.
herein granted; and the Southern Company shall, beginning with the date of the
service of such written notice by it as
above prescribed, credit the accounts of
the Harbor Company in and for each year
of the remainder of the term herein
granted a like proportion of compensation
upon the cost of each such additional
improvement so used by it, and a like
proportion of the cost of maintenance
thereof as would have been charged
against the Harbor Company under Section one of this Article, in the ease of a

an allowance
therefore of
compensation and
maintenance.

114a
similar user by it of any such improvement or facility.
Every such addition, betterment or
improvement in this section provided for
may be removed from the premises by the
Harbor Company at any time during the
term herein granted unless the Southern
Company shall theretofore have exercised its option in the manner hereinbefore provided of using the same jointly
with the Harbor Company; but notwithstanding such joint user the Harbor
Company nevertheless at the termination of the term herein granted shall
then be entitled to remove every such
addition, betterment or improvement,
provided the Southern Company shall
not meantime have acquired title to the
same by purchase in the manner hereinafter set forth in Section 3 of this Article.
SEC. 3, The Southern Company may at
its election at any time after the date of
the completion of any such addition in the
previous section provided fort purchase
the same by paying to the Harbor
Company an equitable sum representing
the value of such improvement to be
agreed upon between the respective
General Managers of the parties hereto;
and in the event that they shall not so be
able to agree then to be determined by
arbitration in accordance with the
provisions of Article XII hereof. In the
event of any such purchase by the
Southern Company, the Harbor Com-

The Harbor
Co. may
remove such
additions
made by it
unless used
jointly by the
Southern Co.
or purchased
by it.

The
Southern Co.
may at its
election purchase additions constructed by
Harbor Co.

115a
pany shall thereafter pay to the Southern
Company the rental herein required for
the use and maintenance of any such
addition, improvement or betterment as
if the name had been constructed in the
first instance under the provisions and
limitations of. Section one of this Article.
SEC. 4. If at any time hereafter during
the term herein granted, any change or
changes are to be made in the grade or
grades of any portion of the tracks or
premises, the use whereof is herein
granted, either by virtue of the voluntary
act of the parties hereto or by reason of
any requirement of law, such change in
grade shall be regarded as a betterment
or addition to the premises, the use of
which is herein granted, upon the cost of
which betterment the Harbor Company
shall pay a like proportion of compensation and for the maintenance of which a
like proportion of the expense thereof as
if such betterment had been constructed
in accordance with the provisions of
Section one of this Article. In every such
ease the Southern Company shall have
the option of determining whether or not
it will undertake the construction and
incur the initial expense of making such
betterment or addition or will require the
Harbor Company to so construct and
install the same. If the Southern Company shall not desire to advance the
money for said purpose, then the Harbor
Company shall at once undertake to
construct at its own expense each such

Track
elevation
shall be
regarded as a
betterment
and added to
Capital Account, upon
which the
Harbor Co.
shall pay
compensation
and also cost
of maintenance. The
Southern Co.
shall have
the option of
constructing
such elevation, or may
require the
Harbor Co. to
construct the
same and advance the
cost thereof.

116a
betterment or addition. Every such
betterment or addition, however, whether
constructed as above provided by either
the Southern Company or the Harbor
Company shall be and remain the
property of the Southern Company and
regarded as an appurtenance belonging
to the premises, the use of which is herein
granted.
In the event, however, that the Harbor
Company shall at its own expense construct any such betterment or addition of
the kind in this section contemplated, the
sum or sums so expended by it for such
purpose shall be set apart by it as an
investment to Capital Account and
thereafter the Southern Company shall
credit the Interest Accounts hereinbefore
provided to be paid by the Harbor
Company to the Southern Company for
the use of the premises, the use of which
is herein granted, interest at the rate of
five per cent per annum upon all such
sums expended by the Harbor Company
for the purposes in this section
enumerated, to be set apart for Capital
Account, as herein provided.
The Southern Company, however, may
at any time thereafter pay to the Harbor
Company the total amount of such Capital Account, or from time to time any portion thereof, and thereupon the interest
charge to be allowed the Harbor Company as herein provided shall cease upon
said Capital Account, or such portion

The Harbor
Co. if it shall
construct
such elevation shall
charge the
same to
Capital
Account, and
Southern Co.
shall allow
[illegible]
interest
therein.

The Southern
Co. shall pay
the Harbor
Co. the
amount advanced by
the Harbor
Co. for the
elevation, at
the end of

117a
thereof as the Southern Company may
from time to time discharge. In any event,
however, the Southern Company shalt at
the end of the term herein granted pay to
the Harbor Company the full amount of
said Capitol Account, or such portion
thereof as shall remain unpaid at said
date.
For the purpose of computing the
rental and maintenance charges in this
Article provided for, or the purchase price
of any improvement provided for herein,
the total cost of any such improvement
shall be taken as the basis thereof, the
same to be evidenced by the books,
vouchers and other competent memoranda of the Company constructing such
additional improvement, showing the
payment of said cost of construction and
of the expenditures incidental thereto.

the term and
may
discharge
such obligation in
advance
thereof.

For purposes
of computing
rental and
maintenance
actual cost
shall be used.

ARTICLE IV.
(Terms)
The begin-

The rental for the line from Indiana ning of the
Harbor to the North Bank of the Little terms.
Calumet River shall begin April Ninth
(9th), 1906; the rental for the line from
Indiana Harbor to Dune Park shall begin
on June First (1st), 1906; the rental for
the Gibson Yard shall begin on January
First (1st), 1907; and the rental for the
various facilities located at Gibson, shall
begin November First (1st), 1907.

118a
ARTICLE V.
(Distribution or Liabilities and Losses.)
SECTION 1, Except enginemen, train- Definition of
men, yard crews and station forces, but joint servnot excepting station forces engaged in ants.
the movement of trains, or acting on
behalf of both parties hereto, all persons
in anywise engaged in maintaining,
repairing or operating the portions of
railroad the use whereof is hereby
granted, shall as between the parties
hereto, he deemed joint employees of both
parties; but any such persona partly
engaged in repair, maintenance and operation of said property, and partly in services not connected therewith, shall be
regarded as joint employes only in respect
of their actual engagement in common
service to the parties hereto, and of such
other railway Company or Companies, as
may he at the time using said property or
any part thereof, in common with the
parties hereto, Enginemen and trainmen
of any work train engaged in maintaining
and repairing the property, the use
whereof is hereby granted, shall likewise
be deemed joint employes.
SEC. 2. Each party shall assume, bear
and pay all loss, damage or injury that
itself, its sole employes or person or
property in its care or custody or on its
cars shall suffer, caused by any defect in
any bridge, roadway, track, structure, or
appliances located on the property covered by the terms of this agreement, or

Assumption
by each party
of the loss
caused by
defects in
property.

119a
caused by failure, irrespective of duty, of
either party to repair such defect or to
maintain said railroad property or any
portion of it situate In the territory
covered by this agreement in proper
condition in any other particular, or to
observe any regulations prescribed by
law for the safety of the public or of
property; but if either party upon which
shall devolve in any instance the duty to
repair any each defect or correct a failure
in any other respect us above mentioned
shall neglect so to do within a reasonable
time after the other party shall have
given to it written notice specifying the
defect or failure and requesting that the
same be repaired or corrected, such other
party shall then have the right to make
such necessary repairs or to correct such
failure at once at the expense of the party
upon which the duty in the above respect
shall devolve.
SEC. 3. Either Company may require
station agents and other employes who
receive or handle moneys or other property for or on account of it to give such
reasonable bonds or other indemnity as it
may require against loss, through the
carelessness or dishonesty of such employes. The premiums or compensations
for the same shall be paid by the
Company requiring such bond, and the
game shall be available solely for the
benefit and protection of the Company
requiring and procuring the same.

Either
Company
may require
station agents
to give bonds.

120a
If any agent, cashier, or other employe
shall wrongfully take funds of the parties
hereto, or of any other railroad at any
station used in common, located on the
premises, the use of which is hereby
granted, and the amount so taken
belonging to each of the respective parties
hereto, or to such other railroad, cannot
be determined, then each Company so
using any such station in common shall
bear so much of the total loss occurring
thereat as the average amount of cash on
band at said station belonging to it (to be
determined by remittances made to it)
during the six months next preceding
such wrongful taking, shall bear to the
average total amount belonging to all on
band during the same period.
SEC. 4. In every case of loss, damage or
injury to property or injury to or death of
person, except as provided in Sections 2
and 3 of this Article, which shall in any
manner originate or occur upon the property, the use of which is hereby granted,
the liability shall be apportioned as
follows:
(a) Each party hereto shall be deemed
solely liable for the negligence or default
of its own sole officers and employes,
except as hereinafter provided;
(b) Each party hereto shall assume,
bear and pay all loss, damage or injury
which itself, or its sole employes passengers or persons, or personal properly in
its care or custody, or on its cars or

Distribution
of loss caused
by theft of
funds at
stations.

Distribution
of liabilities
on account of
personal
injury.

121a
persons injured or property damaged by
its care or engines, shall have suffered
caused by the fault of its sole employes
combined with the fault of sole employes
of the other party hereto, or by fault alone
of any joint employee, or by fault of any
joint employee in conjunction with that of
the sole employee of either party hereto,
or when the cause thereof shall he so
concealed that it cannot be determined
whose employee or employes was or were
at fault;
(c) If any loss, damage or injury shall be
caused it a manner defined in paragraph
(b) but to person or property not therein
mentioned, or under circumstances not
therein provided for, the amount required
to discharge any consequent liability and
expense shall be divided equally between
the respective parties hereto.
SEC. 5. As between the parties hereto,
each party shall to the extent hereinbefore provided, pay all the claims for which
it is hereinbefore made responsible,
whether to the other party hereto or to
any third party; and it shall and hereby
agrees so to save the other party harmless therefrom and from all consequent
cost and expense.

Each party
shall pay its
own claims
and save the
other party
harmless
therefrom.

SEC. 6. If any suits shall be commenced
against either party hereto, for or on
account of any damage or injury for which
the other party is solely liable within the
meaning of this agreement, the party so
sued shall give to the other party notice

Each party
being sued
shall notify
the other
party if it is
liable.

122a
of the pendency of such suit and thereupon such other party shall assume the
defense of such suit, and shall save and
hold harmless the party so sued from all
loss and from all costs by reason there. of.
Neither party shall he concluded by any
judgment against the other, unless it had
reasonable notice that it was required to
defend, and had reasonable opportunity
to make defense. When such notice and
opportunity shall have been given, the
party notified shall be concluded by the
judgment, as to all matters which could
have been litigated in such suit.
SEC. 7. In case any of the Harbor
Company’s or Southern Company’s trains
shall he wrecked while running upon any
track, the use of which is hereby granted,
such wreck shall be picked up and
removed by the Company at the time
operating and maintaining said tracks as
provided in Article VII hereof, and the
cost of such service shall be borne and
paid by the Company whose train shall
have been wrecked.

The party
operating
property
shall remove
wrecks.

ARTICLE VI.
(Movement of Trains.)
SECTION 1. If the use of the railroad
tracks and property, the use of which is
hereby granted, shall at any time be
interrupted, or traffic thereon delayed, by
any cause whatever, and if in such case
the use thereof shall be fully restored
with reasonable diligence by the party
required to restore the same, then and in

Neither
party shall
have any
claim for
delay in
traffic.

123a
that case neither of the parties hereto
shall have any claim against the other
party hereto, or in successors or assigns,
for loss or damage of any kind caused by
or resulting from such interruption or
delay.
SEC. 2. Joint schedules for the movement of engines and trains over the
railways, the use of which is hereby
granted, shall be made from time to time
by the party hereto engaged for the time
being in actually supervising, controlling
and maintaining the premises as herein
provided. Such schedules shall as nearly
as practicable accord equality of right,
privilege and advantage to the trains
operated by each party hereto and to
trains of a superior class operated by
either party, a preference over trains of
an inferior class operated by the other
party.
All trains shall move under and in
accordance with the orders of the
superintendents, or train despatchers of
said party so supervising, controlling and
maintaining said premises, who shall as
nearly as may be practicable, secure
equality of right, privilege and advantage
to all trains of the same class.
SEC. 3. Such party so actually engaged
in supervising, controlling and maintaining said premises shall also make the
necessary rules and regulations for controlling the joint use and occupation of all
the side tracks, switch tracks, tracks used

Joint
schedules
shall be
made for
movement of
trains.

Trains shall
move under
orders of
train dispatchers of
Company
operating
property.
Party
supervising
premises
shall make
rules for use
of facilities.

124a
to reach industries, storage tracks,
station buildings, roundhouses, shops,
coaling stations, storehouses and other
facilities to be used in common by the
parties hereto.
ARTICLE VII.
(Supervision and Control.)
SECTION 1. Except as hereinafter provided in Section 2 of this Article, the
Southern Company shall have charge,
supervision and control of its own
Railroad tracks and property, the use of
which is hereby granted by it, and of the
operation and maintenance of the same,
and it herewith covenants to pay all taxes
and assessments of every kind and
character that shall be lawfully levied
thereon during the term herein granted,
It further covenants and agrees to maintain the premises: the use of which is
herein granted in good condition and
repair and to make all renewals and
replacements thereof and to do all other
nets and things necessary and proper for
the use and operation thereof, and to
comply with all regulations prescribed by
law for the safety of the public.
SEC. 2. It is mutually agreed, however,
that for a period of one year from and
after the date hereof, and thereafter from
year to year until the provisions of this
section shall have been eliminated from
this agreement by either party hereto
giving to the other six months’ written
notice of its desire so to eliminate said

Southern
Company
shall control
property
except as
provided in
Section Two.

Harbor Co.
shall act as
agent of
Southern Co.
from year to
year in controlling property.

125a
section, the Harbor Company will, as the
agent and for and on behalf of the
Southern Company, do and perform all of
the matters and things relative to the
supervision, control and maintenance of
the said tracks and facilities, the use
whereof is hereby granted, as are covenanted to be done and performed by the
said Southern Company in Section 1 of
this Article.
SEC. 3. During the time that the said
Harbor Company shall so supervise,
control and maintain said tracks as the
agent for said Southern Company, as
above provided, the said Harbor Company agrees to keep full, true and accurate account of all expenditures made on
account thereof, and to advance such
sums of money as may be necessary
therefore, and the, Southern Company
agrees to pay promptly to the Harbor
Company its proportion of such costs and
expenses on the basis provided in Article
II hereof.
SEC. 4. It is further mutually agreed
that daring said time that the Harbor
Company shall so supervise, control and
maintain said tracks and facilities as
aforesaid, it than assume and bear no
greater liabilities by reason thereof, than
would be charged upon the Southern
Company if said tracks were maintained
and operated in accordance with Section
1 hereof.

Harbor Co.
shall keep
accurate accounts while
so controlling
property.

Harbor
Company
shall assume
no greater liabilities than
Southern
Company in
so controlling
the property.

126a
ARTICLE VIII.
(Accounting.)
SECTION 1. The assessments and taxes
upon the property of the Southern Company, a proportion of which the Harbor
Company has covenanted to pay, as
herein provided, shall be charged in the
accounts stated between said parties, as
herein provided, in the following manner:
Upon the execution hereof, and upon the
first day of January in each succeeding
year, an estimate shall be made of said
assessments and taxes for such calendar
year; the monthly proportion of such
assessments and taxes shall be charged
in each monthly account thereafter
stated between the said parties as herein
provided When the actual assessments
and taxes for such calendar year shall
be ascertained, the estimated amount
charged in each previous monthly
account as aforesaid. shall be adjusted to
correspond with such actual assessments
and taxes on the basis of the proportions
provided to be paid, respectively, by the
parties hereto in Article II hereof.

Manner of
distributing
taxes in
accounts.

SEC. 2. (a) All accounts between the
parties hereto arising hereunder with Maintenance
reference to the cost of maintaining, shall be paid
renewing, replacing, repairing and oper- monthly.
ating said tracks and properties covered
hereby and the payment of assessments,
taxes and charges thereon, shall be
adjusted for each month on or before the
twentieth day of the succeeding month;

127a
(b) All accounts with reference to the
payment of the annual interest on the Rental shall
value of the said tracks and properties be paid
shall be adjusted quarterly, dating from quarterly.
the first day of January, on or before the
twentieth day of the month succeeding
the end of the quarter; and the party
found indebted to the other, on any such
statement of account, either monthly or
quarterly, shalt make payment within
ten (10) days after the adjustment of such
account.
SEC. 3. Both parties hereto shall have
the right al proper time and places, and
under proper supervision, to inspect the
honks of account, and vouchers of the
other party hereto, evidencing the costs
and expenditures, together with all facts
and information relating thereto, and
covering the costs of the tracks, facilities
and appurtenances, and of repairing,
replacing, renewing and operating the
same.

Books and
vouchers
shall be open
to inspection.

ARTICLE IX.
(Forfeiture.)
SECTION 1. The parties hereto do Forfeiture
mutually covenant and agree that if the clause.
Harbor Company, as grantee herein,
shall at any time or times hereafter,
during the term aforesaid, fail or omit to
pay the rent herein reserved, or any part
of such rent, when the same should be
paid as herein provided, or shall fail or
omit to keep and perform all covenants
and agreements herein contained, or any

128a
of them and shall continue in default in
respect of such payments or the performance of and covenants and agreements
for a period of sixty days, then, and in
either and every etch case, it shall be
lawful for the Southern Company, as
grantor, at its option, to exclude the
Harbor Company, and prevent it from
entering upon and operating cars,
engines and trains upon, over and along
the railroad of the Southern Company
and to remove all persons therefrom
without let or hindrance by the other
party as grantee, or to take such other
and further action for the enforcement of
the provisions of this agreement as to the
said Southern Company, as grantor, may
seem to it advisable, provided, however,
that any such exercise or other act of the
said Southern Company, as grantor, shall
not impair its right of action for the
recovery of any and all damages on
account of the nonpayment of rent or the
non-performance or breach of the terms
and covenants of this agreement; but in
ease of such exclusion, or other act, as
aforesaid, the rent reserved herein, and
the several installments thereof, and all
other sum or sums of money to be paid
hereunder, which shall have accrued or
been earned under the terms of this
agreement, down to the date of such reentry shall be deemed and taken to be
due and payable. and shall be paid by the
Harbor Company, as grantee, to the
Southern Company, as grantor. Failure

129a
to exercise any of the rights or privileges
based upon any default under the terms
hereof, or waiver of any such default,
shall not bar or preclude the exercise of
any rights or privileges based upon any
subsequent default under the terms
hereof.
ARTICLE X.
(User.)
So long as this agreement shall remain
in force and effect, no difference which
may arise as to the construction or performance of any term, covenant or condition
hereof, shall, while it remains undetermined, affect the use or enjoyment of the
aforesaid portions of railroad and property as the parties theretofore have
enjoyed such use; but such use shall,
meanwhile, continue and business shall
be transacted and settlements and payments shall be made as before such
difference arose. When any such difference shall be finally settled by arbitration, or otherwise, payments and settlements shall be made by the respective
parties as shall be required by the award
of the arbitrators herein provided, or be
provided in the agreement of adjustment,
as the case may be.
ARTICLE XI.
(Quiet Enjoyment.)
SECTION 1. The Southern Company, as
grantor, does hereby covenant and agree
that the Harbor Company, as grantee, on

Differences
between parties as to
terms of contract shall not
affect user.

Covenant of
quiet enjoyment.

130a
paying the rent herein reserved, and
performing and fulfilling all and singular
the covenants and agreements herein
contained, on its part to be performed and
fulfilled, shall and may peaceably and
quietly have, hold and enjoy the grants,
rights, privileges, licenses and easements
herein granted for and during the term
aforesaid, without any let or hindrance or
molestation on the part of said Southern
Company, as grantor, or any other person
or persons, corporation or corporations,
whatsoever, claiming by, from, through
or under it.
ARTICLE XII.
Arbitration.
If at any time a question shall arise Arbitration
touching the construction of any part of clause.
this agreement, or as to any practical
business question growing out of the
same, or concerning the observance or
performance of any of the conditions
herein contained, upon which question
the parties hereto cannot agree, such
question shall be submitted to the arbitrament of three disinterested persons to
be chosen, one by each party and one by
the two so chosen. The party desiring
such arbitration shall select its arbitrator
and give written notice thereof to the
other party, and shall in such notice state
precisely the matter or matters which it
proposes to bring before the arbitrators;
and only the matters so stated shall be
considered or decided by them. If either

131a
party shall fail to name an arbitrator
within ten (10) days after notice as
aforesaid has been by the other party
given to it, the arbitrator named by the
party giving such notice may and shall
name and appoint an arbitrator for and
in behalf of the party so in default, and
the arbitrator so named and appointed
shall have the same power and authority
as if he had been chosen by such party. If
the two arbitrators so chosen shall fail to
select a third arbitrator within ten (10)
days after the selection of the second
arbitrator as aforesaid, such third arbitrator may be appointed, upon ten (10)
days’ notice by either party hereto to the
other party hereto of its intention to
make application therefor, by any judge
of the District Court of the United States
for the District which shall then include
the City of Chicago, Illinois. The arbitrators shall, as soon as possible after
their selection, meet to hear and decide
the question submitted to them and shall
give to each party reasonable notice of the
time and place of such meeting: After
hearing both parties and taking such
testimony or making such investigation
as they may deem necessary, they shall
make in writing their award upon the
question or questions so submitted to
them and shall serve a copy of such award
upon each party hereto, and the award of
such arbitrators, or a majority of them,
shall be final and binding upon both
parties, and each shall promptly conform

132a
thereto. The books and papers of both
parties, so far as they relate to matters
submitted to arbitration, shall be open to
the examination of the arbitrators and
the party against whom the award shall
be made shall pap all the fees and
expenses of the arbitrators. Until the
arbitrators shall make their award upon
any question submitted to them, the
business, settlements and payments to be
transacted and made under this agreement shall continue to be transacted and
made in the manner and form existing
prior to the rise of such questions.
ARTICLE XIII.
(Assignments).
The Harbor Company will nut, without
the written consent of the Southern
Company, sell or in any meaner assign or
transfer this agreement, or any of the
rights and privileges under and by it
granted, or permit any person or persons,
company or companies to share in such
rights and privileges or any of them:
Provided, however, that all the grants,
rights, privileges and franchises herein
convoyed to the Harbor Company shall he
deemed appurtenant to the railway of the
Harbor Company and may be assigned
with the same and shall pass to any
successor, purchaser or lessee of all the
property and franchises of the Harbor
Company. The covenants and undertakings herein contained shall always and
irrevocably be held to be covenants

Harbor
Company
will not
assign rights
but some
may be
assigned in
conjunction
with
property.

133a
running with the land and this agreement shall attach to and run with the
railways of the respective parties hereto
during the term hereby created, and shall
he binding upon and inure to the benefit
of any railway company hereafter succeeding to either of such railways.
ARTICLE XIV.
(Validity).
SECTION 1. If, for any reason, any
covenant or agreement herein contained,
not material to the right of the Harbor
Company to use the aforesaid portion of
railroad of the Southern. Company, the
use whereof is hereinbefore granted,
shall be adjudged void, such adjudication
shall not affect the validity, obligation or
performance of any other covenant or
agreement which is in itself valid. In the
event of the failure in law of any covenant
or agreement herein contained, such
steps shall be taken and such further
agreement or agreements shall be made
as shall be advised by counsel to carry,
into effect the purposes and intents
hereby expressed.

If any portion of contract not material to use
be void it
shall not
affect validity of remainder.

The serving

SEC. 2. Every notice to be given by of notices.
either party to the other under or by
reason of this agreement, shall be subscribed by the President, Vice-President
or General Manager of the notifying
party, and be served upon the President,
Vice-President or General Manager of the
other party.

134a
ARTICLE XV.
(Acceptance.)
The Harbor Company accepts the Acceptance of
rights hereby granted to it upon the terms.
terms and conditions above specified and
on its part covenants to keep and perform
the same.
IN WITNESS WHEREOF, the parties
hereto have caused these presents to be
executed by their respective Presidents
and their corporate seals to be hereunto
attached, attested by their respective
Secretaries, the day and year first above
written.
CHICAGO, INDIANA AND SOUTHERN
RAILROAD COMPANY,
(Seal)
ATTEST:
D.W. PARDEE,
Secretary.

By W. H. NEWMAN,
President,

INDIANA HARBOR RAILROAD COMPANY,
(Seal)
ATTEST:
D.W. PARDEE,
Secretary.

By W.C. BROWN,
Vice-President

135a
SCHEDULE A.
The Harbor Company shall pay to the Southern
Company such proportion as is hereinafter set forth,
of annual interest computed at the rate of five per cent
(5%) on the following stipulated value of each of the
following items:
1.

For the line East of Indiana
Harbor to Dune Park
valued at

$500,000.00

as the car mileage of the Harbor
Company on said tracks bears to
the whole mileage thereon.
2.

For industrial tracks, team
tracks and tracks serving industries at Indiana Harbor, East
Chicago and Osborne
valued at
175,000.00
as the number of cars passing
over such tracks for account of
the Harbor Company bears to
the whole number of cars passing over the same.

3.

For the line from Indiana Harbor
to the North Bank of the Little
Calumet River and adjacent
yards and sidings; except Gibson
yard and facilities located there
valued at
as the car mileage of the Harbor
Company on said tracks hears to
the whole mileage thereof.

800,000.00

4.

136a
For Gibson yard, tracks, signals,
yard buildings and yard appurtenances
valued at

1,100,000.00

as the number of cars handled in
the yard for account of the
Indiana Harbor Company bears
to the total number of cars handled in said yard. For the purpose of making such enumeration, all cars shall be counted
upon their arrival at and also
upon their departure from said
yard.
5.

For the various other existing
facilities now located at Gibson,
Indiana.
(a) Roundhouse, turntable, cinder pits, coal station, locomotive
water station. and similar facilities required for the housing and
care of and the furnishing of
supplies to locomotives. Also the
sewer to Calumet River, and
water pipe line to Indiana Harbor and pumping station at that
point
valued at
as the number of arrivals and departures of engines at said roundhouse bears to the whole number

350,000.00

137a
of engines arriving at and departing, from said roundhouse.
(b) Power house, electric light
plant, machine shops and machinery and fixtures used in connection therewith
valued at

230,000.00

as the cost of labor applied at
such shops for account of the
Harbor Company, bears to the
total cost of labor applied thereat
for all companies that may from
time to time he granted the use
of the same.
(c) Car repair shops and machinery, tools and fixtures used
in connection therewith
valued at

65,000.00

as the number of cars repaired at
said shops for account of the
Harbor Company bears to the
total number of cars so repaired.
(d) Storehouses and adjacent
sheds for storage of material
valued at
as the value of material and supplies handled through said storehouses, bears to the total value
of material and supplies so handled thereat.

40,000.00

138a
(e) For the office building and
grounds located at Gibson
valued at

90,000.00

A fixed monthly rental to be an
equitable apportionment between
the parties hereto of the total
rental value of said building
based upon the approximate
user of the same made by each,
and to be determined upon from
time to time hereafter by the
respective General Managers of
the parties hereto,
(f) For the Young Men's Christian Association building located
at Gibson
valued at
A fixed monthly rental to be an
equitable apportionment between
the parties hereto of the total
rental value of said building,
based upon the approximate user
of the same made by each, and to
be determined upon from time to
time hereafter by the respective
General Managers of the parties
hereto.
6.

For two telephone lines Gibson
to Grand Crossing, there making
connection with City lines to La
Salle Street Station, Chicago,

35,000.00

139a
valued at
A fixed monthly rental to be on
equitable apportionment between
the parties hereto of the total
rental value thereof based upon
the approximate user of the same
by each, and to be determined
upon from time to time hereafter
by the respective General Managers of the parties hereto.
7.

The value of the tracks and
appurtenances of the Ivanhoe
Yards of the Southern Company
and of the tracks connecting said
Ivanhoe Yards with Gibson,
Indiana. shall be added as an
additional item to the above
enumerated items, upon which
the Harbor Company is to pay
rental and maintenance whenever said Ivanhoe Yards and said
connecting tracks shall have
been constructed, and the Harbor
Company shall have begun to
use the some thereupon the
Harbor Company shall thereafter
pay to the Southern Company on
account of such user, in addition
to the sums in this schedule
mentioned, a. like proportion of
the annual interest at five per
cent (5%) on the value set out in
said item, and a like proportion
of the cost of maintaining,

7,000.00

140a
renewing, replacing, repairing
and operating said tracks and
appurtenances represented by
said item, and all assessments,
taxes and charges thereon, as is
provided in Item One hereof.

141a
APPENDIX J
MEMORANDUM IN OPPOSITION
TO MOTION TO DISMISS
Case No.: 2:17-cv-106
————
BEFORE THE
SURFACE TRANSPORTATION BOARD
————
STB Finance Docket No. 36099
————
INDIANA HARBOR BELT RAILROAD COMPANY—
TRACKAGE RIGHTS—CONSOLIDATED RAIL
CORPORATION, CSX TRANSPORTATION, INC.,
and NORFOLK SOUTHERN RAILWAY COMPANY
————
STB Finance Docket No. 36100
————
CSX TRANSPORTATION, INC.—TRACKAGE RIGHTS—
CONSOLIDATED RAIL CORPORATION and
NORFOLK SOUTHERN RAILWAY COMPANY
————
STB Finance Docket No. 36101
————
NORFOLK SOUTHERN RAILWAY COMPANY—TRACKAGE
RIGHTS—CONSOLIDATED RAIL CORPORATION and
CSX TRANSPORTATION, INC.
STB Finance Docket No. 36102
————

142a
CONSOLIDATED RAIL CORPORATION—
TRACKAGE RIGHTS—CSX TRANSPORTATION, INC. and
NORFOLK SOUTHERN RAILWAY COMPANY
————
PETITION FOR STAY
Soo Line Railroad Company, d/b/a Canadian Pacific
(“CP”)1 respectfully petitions the Surface Transportation Board (“Board”) to stay the effective date of the
verified notices of exemption (“Notices”) filed by the
Indiana Harbor Belt Railroad Company (“IHB”),
Consolidated Rail Corporation (“Conrail”), CSX
Transportation, Inc. (“CSXT”), and Norfolk Southern
Railway Company (“NSR”) in these proceedings
(IHB, Conrail, CSXT, and NSR are hereinafter
referred to collectively as the “Filing Railroads”).2 The
Filing Railroads seek authority pursuant to 49 C.F.R.
§ 1180.2(d)(7) to enter into a new agreement
(“Proposed Master Trackage Rights Agreement”) with
respect to their trackage rights over rail lines and
ancillary trackage (“Rail Properties”) owned by
Conrail, CSXT, and NSR (“Property Owners”).
A stay is warranted because the Property Owners
procured IHB’s approval of the Proposed Master
Trackage Rights Agreement through breaching their
1

Canadian Pacific (CP) is a trade name under which
Canadian Pacific Railway Company's United States subsidiaries,
Soo Line Railroad Company, Dakota, Minnesota & Eastern Railroad Corporation, and Delaware and Hudson Railway Company,
Inc. operate.
2

As set forth by the Board in its Federal Register notice, the
effective date of the exemptions is March 15, 2017. See 82 Fed.
Reg. 12272-03, 12273 (Mar. 1, 2017). Petitions for stay must
be filed no later than March 8, 2017. Id.; see also 49 C.F.R.
§ 1180.4(g)(1)(iii).

143a
fiduciary duties under Indiana law as shareholders of
IHB. The Proposed Master Trackage Rights Agreement, which the property owners obtained through
coercion, siphons off corporate assets through an exorbitant increase in rents as compared to prior agreements and as compared to the terms originally
recommended by IHB management and unanimously
approved by the IHB Board in December 2016. CP, as
the sole minority shareholder of IHB, recently filed an
action in the United States District Court for the
Northern District of Indiana (“Pending Litigation”)
asserting state law claims for breach of fiduciary
duties against the Filing Railroads.3 In its Verified
Complaint, CP requests that the Court, in part void,
the Proposed Master Trackage Rights Agreement.4
CP satisfies all of the criteria set by the Board for
issuance of a stay. There is a strong likelihood CP will
prevail on the merits of the Pending Litigation, which
would in turn void or significantly alter the Proposed
Master Trackage Rights Agreement. CP and IHB will
suffer irreparable harm in the absence of a stay. The
other interested parties will not be substantially

3

See Verified Complaint, Soo Line R.R. Co. v. Consolidated
Rail Corp., 2:17-cv-00106-RL-APR (N.D. Ind. Mar. 8, 2017), ECF
No. 1. A true and correct copy of the Verified Complaint is
attached as Exhibit 1.
4

CP is not asking for a determination of what is fair and
reasonable trackage rights compensation. Rather, CP is simply
asking the court to determine that the Property Owners breached
their state law fiduciary duties to CP and IHB in procuring and
accepting the Proposed Master Trackage Rights Agreement and
to order the Filing Railroads to take the actions that those duties
require. As such, CP's state law action is not a trackage rights
compensation case.

144a
harmed by a stay. And, the public interest supports
the granting of the stay.
In the alternative, if the Board does not grant a stay,
CP requests that the Board issue a decision clearly
stating that the exemptions in these proceedings have
no impact on the merits of the Pending Litigation or
the Court’s jurisdiction over that dispute.
STAY CRITERIA
The Board applies the following standard in
determining whether to issue a stay:
In deciding petitions for stay, the Board
follows the traditional stay criteria by requiring a party seeking a stay to establish that:
(1) there is a strong likelihood that it will
prevail on the merits of any challenge to the
action sought to be stayed; (2) it will suffer
irreparable harm in the absence of a stay; (3)
other interested parties will not be substantially harmed by a stay; and (4) the public
interest supports the granting of the stay.
Norfolk S. Ry. Co. Petition for Exemption In Balt. City
& Balt. Cnty., Md., AB-290 (Sub-No. 311X), slip op. at
3 (served May 4, 2010) (citing Hilton v. Braunskill, 481
U.S. 770, 776 (1987)). CP will demonstrate that the
stay criteria have been met in this situation.
BACKGROUND
IHB is a closely-held Indiana corporation and is
jointly owned by Conrail and CP. Conrail, as the
majority owner, holds a fifty-one percent (51%) interest in IHB, and CP holds a forty-nine percent (49%)
interest. Conrail is owned by CRR Holdings LLC,
which in turn is owned exclusively by CSXT’s and
NSR’s parent corporations, CSX Corporation (“CSX”)

145a
and Norfolk Southern Corporation (“NS”). See Notices
Ex. 4, at 1. CSX and NS each have an equal right to
direct the exercise of Conrail’s ownership rights vis-àvis IHB and to select an equal number of directors to
the IHB Board to be elected by Conrail. Id. at 5. The
IHB Board is comprised of four directors (“Majority
Directors”), who are employed by CSX and NS and
appointed by Conrail, and three directors (“Minority
Directors”), who are employed by CP or its affiliated
entities and appointed by CP. The Majority Directors
vote as a bloc on matters relating to IHB. Id. at 9.
As acknowledged in the Notices, IHB has occupied
and operated over the Rail Properties for over a
century, pursuant to two agreements executed in 1906
and 1913. Notices at 2. Under the terms of the 1906
agreement, IHB paid Conrail and its predecessor an
annual depreciation-adjusted rent of approximately
$150,000 to operate over the Rail Properties. This rent
was calculated to achieve a five percent (5%) return on
investment.
The Property Owners stopped invoicing IHB for rent
in 1999, at which point IHB ceased making rental
payments for its use of the Rail Properties. On or
around the same time, Conrail ceased making annual
payments to IHB to account for its share of certain
operating and maintenance expenses associated with
the Rail Properties. Although the 1906 and 1913
Agreements purportedly expired by their terms in
2005 and 2012, respectively, IHB continues to operate
over and invest in the Rail Properties without
interruption.5
5

None of the parties to the 1906 and 1913 Agreements have
sought and obtained Board authority to terminate those agreements.

146a
CP, IHB management, and the Property Owners
have engaged in several rounds of negotiations in
recent years to develop a new agreement that would
govern IHB’s operations over the Rail Properties. For
example, in 2011, Conrail presented IHB with a proposed lease agreement that would have required IHB
to pay an annual rent of $5,500,000, representing a
3,566% increase from what IHB paid under the 1906
Agreement. IHB management raised numerous concerns with the proposal and determined that its high
rental rates would jeopardize IHB’s financial viability.
In late 2014 and early 2015, CP-appointed Minority
Director James Clements suggested that the Board
find a use for IHB’s excess cash reserves. Shortly
thereafter, the Property Owners presented IHB with a
new proposed master trackage rights agreement that
included terms that were more financially onerous
than those proposed in 2011. For example, the agreement would have required IHB to pay an annual rent
of $7.4 million, increasing to $8 million by 2020.
IHB management rejected the proposal because, in
part, IHB’s ending cash position by 2020 would be
negative $5.9 million if it were required to pay the rent
contemplated by the proposal. At the IHB Board’s
direction, IHB management then solicited independent market value and return on investment analyses
to assist in evaluating and negotiating the terms of a
new agreement. In September and October of 2016,
IHB management made new proposals to the Property
Owners, based on these independent analyses (“IHB
Management Recommendation”). Under the IHB
Management Recommendation, IHB would make
annual rental payments of $362,285 to Conrail,
$642,700 to NSR, and $341,714 to CSXT.

147a
On December 7, 2016, the IHB Board unanimously
passed a resolution (“IHB Board Resolution”) approving the IHB Management Recommendation, acknowledging that it was based on “an independent and
neutral evaluation reflecting the market rate of rent
and market terms and conditions for Trackage Rights
Agreements with” the Property Owners.6 IHB Board
Resolution at 1. The IHB Board Resolution required
“each Authorized Officer” to “execute and deliver, on
behalf of the IHB the transaction documents
constituting the IHB Management Recommendation.”
Id. at 1-2.
Despite the Majority Directors having just agreed to
the IHB Board Resolution, the Property Owners
immediately began efforts to coerce and influence IHB
management to reject the IHB Management Recommendation and the IHB Board Resolution. For
example, Conrail wrote several letters to IHB in
December 2016 and January 2017, stating it would
seek STB intervention if IHB did not agree to make an
annual rental payment to Conrail of between $1.9
million and $2.57 million. NSR demanded that IHB
pay it $1.85 million in annual rent, and further
demanded that IHB pay back rent that had allegedly
accrued, even though IHB had not paid rent for its use
of the Rail Properties since 1999. CSX warned that it
would evict IHB or disallow its use of the Rail
Properties if IHB did not agree to pay $1.68 million in
annual rent.
At a February 1, 2017 special board meeting, IHB’s
General Manager acknowledged that the Property
Owners’ exorbitant demands and coercive acts com6

A true and correct copy of the IHB Board Resolution is
attached as Exhibit 2.

148a
pelled him to change IHB management’s position with
respect to the IHB Management Recommendation.
The Board then adopted the Proposed Master Trackage Rights Agreement that forms the basis of these
proceedings, including the exorbitant rental rates set
forth therein. Accordingly, the rental rates included in
the Proposed Master Trackage Rights Agreement,
along with other terms that are unfavorable to IHB,
were procured through threats from the Property
Owners.
On March 6, 2017, CP filed a Verified Complaint in
the United States District Court for the Northern
District of Indiana, alleging that the Property Owners
breached their fiduciary duties to IHB and CP by,
among other actions, coercing IHB management’s
acceptance of a Proposed Master Trackage Rights
Agreement that is not in IHB’s best interest and that
is in direct contravention to the terms of the IHB
Management Recommendation. Additionally, the
Verified Complaint alleges that the Property Owners
have diverted for their own purposes the corporate
gain that IHB could have realized through the IHB
Management Recommendation and that, absent this
breach of fiduciary duties, the funds that would
otherwise be available to IHB and its shareholders.
Although the Pending Litigation is based entirely on
state law, the issues underlying that dispute will
affect the validity and terms of the Proposed Master
Trackage Rights Agreement. Accordingly, CP requests
that the Board stay the effective date of the Notices
pending the outcome of the Pending Litigation.

149a
ARGUMENT
I. A STAY OF THE NOTICES IS WARRANTED
The Filing Railroads seek a class exemption pursuant to 49 C.F.R. § 1180.2(d)(7), which allows for an
exemption for the acquisition and renewal of trackage
rights “by a rail carrier over lines owned or operated
by any other rail carrier or carriers that are: (i) based
on written agreements, and (ii) not filed or sought in
responsive applications in rail proceedings.” However,
as set forth above, the Pending Litigation will impact
whether the Filing Railroads possess a valid written
agreement on which their Notices are based.
Accordingly, a stay is warranted to allow the validity
of the Proposed Master Trackage Rights Agreement to
be determined.
A. There is a Strong Likelihood that CP Will
Prevail on the Merits.
i. CP Has a Strong Case on the Merits of its
Fiduciary Duty Claims.
CP has a strong case that the Property Owners
breached their fiduciary duties to IHB and CP when
procuring IHB’s acceptance of the Proposed Master
Trackage Rights Agreement. IHB is a closely-held
corporation under Indiana law, because it is owned
exclusively by two shareholders (CP and Conrail) and
its shares are not traded in any securities market.
Melrose v. Capitol City Motor Lodge, Inc., 705 N.E.2d
985, 990 (Ind. 1998). Accordingly, the directors, shareholders, and officers of IHB owe each other heightened
fiduciary duties analogous to those owed by partners
in a partnership. G&N Aircraft, Inc. v. Boehm, 743
N.E.2d 227, 241 (Ind. 2001); W & W Equip. Co. v.
Mink, 568 N.E.2d 564, 571 (Ind. Ct. App. 1991). In
part, the Property Owners “must deal fairly, honestly

150a
and openly with the corporation and their fellow
shareholders” and “may not act out of avarice, expediency or self-interest in derogation of their duty of
loyalty to the other stockholders and to the corporation.” McLinden v. Coco, 765 N.E.2d 606, 615 (Ind. Ct.
App. 2002) (citation and internal quotation marks
omitted).
Indiana courts apply these strict fiduciary principles
to leases, closely scrutinizing transactions in which a
majority shareholder or director of a closely-held
corporation leases property to the corporation. See
Ferguson v. Chandler, No. 49A04V-73, 893 N.W.2d
781 (Ind. Ct. App. Sept. 4, 2008) (“[M]aintaining a
landlord-tenant relationship with a closely-held corporation in which the landlord also serves as an officer,
director, or shareholder may constitute a breach
of fiduciary duty.”) (citing Hartung v. Architects
Hartung/Odle/Burke, Inc., 301 N.E.2d 240, 244 45
(Ind. Ct. App. 1973)). For example, a majority
shareholder was found to have breached his fiduciary
duties where he leased property to the corporation for
its headquarters, tripled the amount of rent previously
charged to the corporation, and increased the rent
charged to the corporation’s subsidiary by a magnitude of 6.2. Lees Inns of Am., Inc. v. William R. Lee
Irrevocable Trust, 924 N.E.2d 143, 158 59 (Ind. Ct.
App. 2010); see also G&N Aircraft, 743 N.E.2d at 227
(stating in dicta that the defendant’s “threat to evict
[the corporation] was made in its capacity as an
individual landlord. Presumably, if he held no position
in [the corporation] this would have been a lawful act
on his part”). Indiana courts have also recognized that
a director or shareholder breaches its fiduciary duties
by causing the corporation to enter into an unfair
transaction with another entity in which the
director or shareholder holds an ownership interest.

151a
McLinden, 765 N.E.2d at 615 16 (finding that a claim
for breach of fiduciary duty had merit where separate
entity in which shareholder of a closely-held
corporation held an ownership interest entered into a
transaction that was unfair to the corporation).
On its face, the Proposed Master Trackage Rights
Agreement is a self-interested lease transaction
because the Property Owners have actively coerced
and negotiated against IHB to benefit themselves
through increased rental payments. The rental rates
set forth in the Proposed Master Trackage Rights
Agreement greatly exceed the rates that IHB previously paid under the 1906 agreement and the rates
included in the IHB Management Recommendation,
which the IHB Board Resolution acknowledges were
based on independent market analysis. Accordingly,
even though the Pending Litigation has just
commenced, CP can show at this stage that it is likely
to succeed on the merits of its fiduciary duty claims.
ii. The Notice of Exemption Process is
Unwarranted in Light of the Complexity
of the Issues Underlying the Pending
Litigation.
Even if CP’s likelihood of success in the Pending
Litigation is uncertain, the issues underlying the
Pending Litigation involve complicated state law
matters that go to the heart of the instant transaction.
Notices of exemption are “intended to be used for
routine and non-controversial cases.” Winamac S. Ry.
Co.—Trackage Rights Exemption—A. & R. Line, Inc.,
FD 35208, slip op. at 2 (served Jan. 9, 2009). “In cases
where unresolved issues arise, the Board will reject a
Notice.” Id.; see also ABC & D Recycling, Inc.—Lease
and Operation Exemption—A Line of R.R. in Ware,
Mass., FD 35397, slip op. at 4 (served Jan. 20, 2011)

152a
(“A notice that raises unresolved issues or questions
that require considerable scrutiny may be rejected.”).
In particular, the Board has rejected notices of
exemption where ongoing litigation presents a “controversy surrounding key components of the transaction
at issue[,]” such as a dispute over “the validity of the
trackage rights agreement upon which the sought
trackage rights exemption would be based.” SteelRiver
Infrastructure Partners LP, SteelRiver Infrastructure
Assocs. LLC, SteelRiver Infrastructure Fund N. Am.
LP, and Patriot Funding LLC—Control Exemption—
Patriot Rail Corp., et al., FD 35622, slip op. at 3 n.5
(served June 15, 2012); see also Rail Switching Servs,
Inc.—Operation Exemption—Pemiscot Cnty. Port
Auth., FD 35685, slip op. at 4 (served Jan. 8, 2013)
(rejecting notice of exemption where the owner of the
line opposed the exemption, disagreed that the parties
had an agreement that allowed the Board to grant
operating authority, and an “ongoing contractual
dispute between the parties raise[d] fundamental
issues of state contract law that should be addressed
before [the filing railroad] again seeks to obtain Board
authority to operate over the Line”).
Because the Court has not yet ruled on the validity
of the Proposed Master Trackage Rights Agreement,
CP does not seek a rejection of the Notices at this time.
However in the event the Court voids the agreement
or orders the parties to enter into a revised agreement
on different terms, CP will file a petition to reject the
Notices. In any event, a stay is warranted because the
outcome of the Pending Litigation could significantly
alter the issues underlying these proceedings. W.
Resources, Inc. v. The Atchison, Topeka & Santa Fe Ry.
Co., NOR 41604 (served May 31, 1996) (granting stay
where “[r]esolution by the court of the broad contract
issues before it would assist this agency in defining the

153a
scope of its inquiry into any issues remaining between
the parties, and facilitate resolution of those issues”).
B. CP and IHB Will Suffer Irreparable Harm in
the Absence of a Stay
CP and IHB will suffer irreparable harm if the
Board does not grant a stay. “The party seeking a stay
is required to demonstrate that the injury claimed is
imminent, ‘certain and great.’“ Del. & Hudson Co.—
Lease and Trackage Rights—Springfield Terminal Ry.
Co., FD 30965 (Sub-No. 4) (served Nov. 2, 1995)
(quoting Wis. Gas Co. v. FERC, 758 F.2d 669, 667 (D.C.
Cir. 1985)). “It is well-settled that economic loss by
itself does not constitute irreparable harm.” Id. “The
possibility that adequate compensatory or other
corrective relief will be available at a later date, in the
ordinary course of litigation, weighs heavily against a
claim of irreparable harm.” Id.
The harm that CP and IHB will suffer in the absence
of a stay goes beyond pecuniary injury. As discussed
above, IHB management has previously rejected
proposals from the Property Owners that included
terms very similar to the Proposed Master Trackage
Rights Agreement, on the grounds that the exorbitant
rental rates included therein could jeopardize the
financial viability of the company. Although IHB
management does not predict at this time that the
rental rates included in the Proposed Master Trackage
Rights Agreement would lead to IHB’s insolvency, it
would drastically reduce IHB’s cash position, making
it difficult to prepare for exigencies and make needed
investments in the Rail Properties. This in turn
jeopardizes the efficient flow of traffic through the
heavily-congested Chicago terminal.

154a
In addition, without a stay, the Court in the Pending
Litigation could rule, under primary jurisdiction or a
related doctrine, that its consideration of the state law
issues underlying the Pending Litigation are foreclosed by the Board’s grant of exemption authority. If
so, CP could be left without a means to redress its
injuries as a minority shareholder and, if warranted,
obtain relief on behalf of IHB. Thus, allowing the
Exemptions to become effective could cause substantial confusion with respect to the Court’s jurisdiction
over the Pending Litigation and the validity of the
Proposed Master Trackage Rights Agreement.
C. A Stay Will Not Substantially Harm Other
Parties
The Filing Railroads will not suffer harm if the
Board grants a stay. As explained above, IHB has not
made rental payments for its use of the Rail Properties
since 1999. Although CP, IHB management, and the
Property Owners engaged in some discussion over a
new trackage rights agreement in 2011, the Property
Owners only came forward with the Proposed Master
Trackage Rights Agreement—including its exorbitant
rental rates—after Minority Director Clements suggested that IHB find a use for its excess cash reserves.
As a result, the Property Owners cannot credibly
argue that they will suffer harm if IHB does not pay
rent while the validity of the Proposed Master
Trackage Rights Agreement is litigated. Moreover, as
acknowledged by the Notices, IHB continues to
operate over the Rail Properties and exercise its rights
to supervise, dispatch, and maintain the Rail Properties, even though the 1906 and 1913 agreements have
purportedly expired by their terms. Notices at 3.
Accordingly, granting a stay will simply maintain the

155a
status quo under which the parties have operated
since 1999.
D. The Public Interest Warrants a Stay.
It is also in the public interest to stay the Notices
and maintain the status quo. As stated, IHB has
operated over, invested in, and maintained the Rail
Properties for over a century, and it continues to do so
without interruption. IHB therefore plays a key role in
ensuring the efficient flow of traffic through the
heavily-congested Chicago terminal, a duty that it has
long fulfilled. The Property Owners seek to disrupt
this status quo by subjecting IHB to the onerous terms
included in the Proposed Master Trackage Rights
Agreement. If subjected to these terms, IHB would be
forced to divert substantial assets to the Property
Owners in lieu of investing in and maintaining the
Rail Properties or preserving those funds to use as
operating capital in a down economy. As a result, the
Proposed Master Trackage Rights Agreement could
have unforeseen and potentially drastic consequences
on rail service in the Chicago terminal. In addition, a
stay would avoid any confusion that may be caused by
granting the Notices while the validity and terms of
the Proposed Master Trackage Rights Agreement are
being litigated.
II. ALTERNATIVELY, THE BOARD’S DECISION
SHOULD CLEARLY PROVIDE THAT THESE
EXEMPTIONS DO NOT AFFECT THE
PENDING LITIGATION.
If the Board determines that a stay is not
warranted, CP requests that the Board render a
decision clearly indicating that the issuance of the
exemptions in these proceedings does not constitute a
ruling—on the merits or otherwise—with respect to

156a
the Pending Litigation. The Board’s exemption
authority is permissive, and granting the exemptions
in these proceedings does not mandate implementation of the Proposed Master Trackage Rights Agreement nor address issues of state law concerning the
parties’ fiduciary and contractual relationships. The
Board would be acting consistently with precedent if it
clearly states that its rulings in these proceedings will
not impact the state law issues underlying the
Pending Litigation.
For example, in Grand Elk R.R., Inc.Acquisition of
Incidental Trackage Rights Exemption Norfolk S. Ry.
Co., FD 35187 (Sub-No. 1) (served Nov. 1, 2016), the
Board denied a petition by CSXT to reject, or in the
alternative, stay the effective date of a verified notice
of exemption filed, by Grand Elk Railroad (“GER”) to
acquire from NSR certain trackage rights over a rail
line owned by CSXT. Id., slip op. at 1. CSXT disputed
the validity of the assignment agreement through
which NSR’s trackage rights were conveyed. Id. at 2.
At the time the notice was filed, litigation was pending
in state court regarding NSR’s ability to assign its
trackage rights to GER under the parties’ assignment
agreement. Id. In denying CSXT’s petition, the Board
stated that the “contractual dispute between CSXT
and NSR is already in state court, and need not be
resolved before the Board’s permissive authority is
allowed to take effect.” Id. at 3. The Board further
noted that the “authorization granted through this
exemption does not constitute a ruling on the parties’
contractual rights.” Id.
The Board regularly states that its decisions in a
given proceeding will not impact issues of state law
that are either being litigated at the time the decision
is rendered or could be litigated in the future. See, e.g.,

157a
Lehigh Ry., LLC—Lease Exemption Containing Interchange Commitment—Norfolk S. Ry. Co., FD 36062,
slip op. at 2 (served Oct. 14, 2016) (“The contractual
dispute . . . is a matter for another forum to decide and
need not be resolved before the Board’s permissive
authority is allowed to take effect.”); Jackson Cnty.,
Mo.—Acquisition and Operation Exemption—Union
Pac. R.R. Co., FD 35982, slip op. at 2 (served Feb. 4,
2016) (“Further, any rights that CenturyLink seeks to
enforce under the Easement Agreement or the related
court order can be brought before the state court.”);
Saratoga and North Creek Ry., LLC—Operation
Exemption—Tahawus Line, FD 35631, slip op. at 2
(served June 15, 2012) (“The operating authority
Saratoga will receive under the class exemption is
permissive, and is not determinative of any underlying
state law property claims for this railroad right-ofway.”); Pyco Indus., Inc.—Feeder Line Application—
Lines of S. Plains Switching, Ltd. Co., FD 34890, slip
op. at 10 (served Sept. 5, 2008) (“[T]he interpretation
of the 1999 purchase and sale agreement . . . is a
matter of state contract law for the courts of Texas to
resolve”); Saginaw Bay S. Ry. Co.—Acquisition and
Operation Exemption—Rail Line of CSX Transp., Inc.,
FD 34729, slip op. at 3 (served May 5, 2006)
(“[C]ontractual disputes such as this one are properly
for the courts to decide.”); D&I R.R. Co.—Trackage
Rights Exemption—State of S.D. and Sioux Valley
Reg’l R.R. Auth., FD 34646 (Sub-No. 1), slip op. at 4
(served Jan. 19, 2005) (“In view of the ongoing
litigation . . . , it seems best to note that the Board has
made no determination, one way or the other,
concerning either the right of the State to grant the
Elk Point-Sioux City trackage rights without BNSF’s
consent or the right of D&I to operate over the Elk
Point-Sioux City line without BNSF’s consent.”); MVC

158a
Transp., LLC—Acquisition Exemption—P&LE Properties, Inc., FD 34462 (Sub-No. 1), slip op. at 6 (served
Oct. 20, 2004) (noting that questions of “local property
law, contract law, and mortgages” are “for a court to
answer, not the Board” and providing that the
“Board’s publication of the notice of exemption has not
given MVC an ownership interest in the track assets
superior to what it already might have under
Pennsylvania state law”). A decision clearly indicating
that any exemptions do not affect the Pending Litigation is therefore consistent with Board precedent.
CONCLUSION
CP has demonstrated that a stay of the Notices in
these proceedings would be consistent with Board
precedent. Therefore, CP respectfully requests that
the Board stay the Notices pending the outcome of
the Pending Litigation. Alternatively, CP respectfully
requests that the Board clearly state that its decision
in these proceedings has no impact on the Pending
Litigation.
Dated: March 8, 2017
Jeffrey J. Ellis
Chief Legal Officer
CANADIAN PACIFIC
7550 Ogden Dale
Road SE
Calgary, AB T2C 4X9
403-660-1479

Respectfully submitted,
s/ David F. Rifkind
David F. Rifkind
STINSON LEONARD
STREET LLP
1775 Pennsylvania Avenue,
NW, Suite 800
Washington, D.C. 20006
202-969-4218
202-572-9994 Fax
david.rifkind@stinson.com

159a
William M. Tuttle
Thomas Burman
General Counsel - US STINSON LEONARD
Marie van Uitert
STREET LLP
Legal Counsel - US
150 South Fifth Street,
CANADIAN PACIFIC Suite 2300
120 South Sixth Street, Minneapolis, MN 55402
Suite 1000
612-335-1595
Minneapolis, MN
612-3351657 Fax
55402
thomas.burman@stinson.com
Attorneys for Soo Line Railroad Company d/b/a
Canadian Pacific

160a
CERTIFICATE OF SERVICE
I hereby certify that on this 8th day of March, 2017,
I served the foregoing Petition to Stay of the Soo Line
Railroad Company d/b/a Canadian Pacific by email
and first class mail, postage-prepaid, on the following:
Joel Cornfeld
General Counsel
Indiana Harbor Belt
Railroad Company
2721 161st Street
Hammond, IN
46323-1099
Joel.Cornfeld
@ihbrr.com
Counsel for Indiana
Harbor Belt Railroad
Company
Paul R. Hitchcock
Associate General
Counsel
CSX Transportation, Inc.
500 Water Street
Jacksonville, FL 32202
paul.hitchcock@csx.com
Counsel for CSX
Transportation, Inc.

David L. Coleman
General Solicitor
Norfolk Southern
Railway Company, Inc.
Three Commercial Place
Norfolk, VA 23510
David.Coleman
@nscorp.com
Counsel for Norfolk
Southern Railway
Company
Robert M. Jenkins III
Mayer Brown LLP
1999 K Street, NW
Washington, DC
20006-1101
rmjenkins
@mayerbrown.com
Counsel for Consolidated
Rail Corporation
/s/ David F. Rifkind
David F. Rifkind

161a
APPENDIX K
MEMORANDUM IN OPPOSITION
TO MOTION TO DISMISS
Case No.: 2:17-cv-106
————
BEFORE THE
SURFACE TRANSPORTATION BOARD
————
Docket No. FD 36099
INDIANA HARBOR BELT RAILROAD COMPANY—
TRACKAGE RIGHTS—CONSOLIDATED RAIL
CORPORATION, CSX TRANSPORTATION, INC.,
and NORFOLK SOUTHERN RAILWAY COMPANY
————
Docket No. FD 36100
CSX TRANSPORTATION, INC.—TRACKAGE RIGHTS—
CONSOLIDATED RAIL CORPORATION AND NORFOLK
SOUTHERN RAILWAY COMPANY
————
Docket No. FD 36101
NORFOLK SOUTHERN RAILWAY COMPANY—
TRACKAGE RIGHTS—CONSOLIDATED RAIL
CORPORATION and CSX TRANSPORTATION, NC.
————
Docket No. FD 36102
CONSOLIDATED RAIL CORPORATION—
TRACKAGE RIGHTS- CSX TRANSPORTATION, INC.
and NORFOLK SOUTHERN RAILWAY COMPANY
————

162a
REPLY TO PETITION FOR STAY
The Indiana Harbor Belt Railroad Company
(“IHB”), Consolidated Rail Corporation (“Conrail”),
CSX Transportation, Inc. (“CSXT”), and Norfolk
Southern Railway Company (“NSR”) reply here to the
Petition for Stay (“Petition”) filed with the Surface
Transportation Board (“STB” or “Board”) by Soo Line
Railroad Company, d/b/a Canadian Pacific (“CP”), on
March 8, 2017. The Petition should be denied.
CP does not claim that there was anything false or
misleading in the notices of exemption, and it does not
ask the Board to reject the notices. Rather, it argues
that the Board should stay the effective date of the
exemption because it is possible that a court in the
future may find a breach of fiduciary duty under state
law with respect to the Master Trackage Rights
Agreement (“MTRA”) for which Conrail, CSXT, and
NSR (collectively, the “Property Owners”) and IHB
noticed an exemption. Alternatively, if the Board
declines to issue a stay, CP asks for the Board to state
that the exemption will have no impact on the statelaw claims CP has filed.
By its own acknowledgement, CP bears a heavy
burden of justifying a stay. Pet. at 3. CP must show
that: “(1) there is a strong likelihood that it will prevail
on the merits of any challenge to the action sought to
be stayed; (2) it will suffer irreparable harm in the
absence of a stay; (3) other interested parties will not
be substantially harmed by a stay; and (4) the public
interest supports the granting of a stay.” Norfolk S.
Ry, Co.—Petition for Exemption In Balt. County, MD,
AB-290 (Sub-No. 311X), slip op. at 3 (served May 4,
2010). The Petition fails to meet any of these stringent
criteria, much less all of them.

163a
1. CP Has Not Established A Strong Likelihood
That It Will Prevail On The Merits
The action that CP seeks to stay is the Board permitting the notices of exemption to become effective, as
scheduled, on March 15, 2017. CP accordingly must
show a strong likelihood that the Board’s permissive
authorization of the MTRA will impermissibly conflict
with the court’s conduct of its proceedings on CP’s
fiduciary duty claims. CP has not demonstrated any
conflict, much less impermissible conflict.
Established STB precedent reflects a long-standing
presumption that a stay is not warranted by pending
or threatened litigation under state law that may
affect the rights of the parties to the exemption. As
CP’s own filing concedes with respect to CP’s alternative request, the Board has in numerous cases held
that its permissive authorization of a transaction in a
notice of exemption proceeding does not decide any
state-law issues regarding the transaction that may be
pending in court or that may be filed in court in the
future. Pet. at 13-14 (citing, inter alia, Grand Elk R.R.,
Inc.—Acquisition of Incidental Trackage Rights
Exemption—Norfolk S. Ry. Co., FD 35187 (Sub-No. 1),
slip op. at 3 (served Nov. 1, 2016), for the proposition
that contractual disputes regarding the validity of an
agreement “need not be resolved before the Board’s
permissive authority is allowed to take effect.”)
Particularly given CP’ s representation that its federal
court lawsuit does not seek a “determination of what
is fair and reasonable trackage rights compensation”
(Pet. at 2 n.4), IHB and the Property Owners agree
that the Board can leave for the court any state-law
fiduciary duty claims that do not implicate the Board’s
exclusive or primary jurisdiction over the prescription

164a
of fair and reasonable trackage rights terms absent a
voluntary agreement.
Furthermore, even if the issue here were whether
there is a strong likelihood that CP will prevail on the
merits of its state-law fiduciary duty claims, nothing
in CP’s Petition or the court Complaint attached to the
Petition supports such a finding. The Petition (like the
Complaint) devotes considerable “background” space
to tales about the extensive back-and-forth between
IHB management and Conrail, CSXT, and NSR (Pet.
at 4-6),1 and then maintains that because the rent is
higher than in the 1906 agreement and in IHB
management’s initial rent proposals, CP is likely to
succeed on the merits of its fiduciary duty claims (Pet.
at 9). Of course, it is hardly surprising that the rent
should be higher than provided in the now-expired
1906 agreement, which had no escalation provision.
No more than one could argue that the nominal rent
provided for the lease of a house in 1906 should be the
measure of appropriate rent for the same house today,
no reasonable argument can be made that the
trackage rights rental established in the long-expired
1906 agreement should be the measure of reasonable
trackage rights rental today.
As to IHB management’s initial rent proposals, they
were certainly developed independently by IHB
management. In fact, the IHB board went out of its
way to make sure that IHB management hired its own
appraiser, counsel, and economic expert to advise IHB.
Attached as Exhibit 1 are the Resolutions adopted by
1

To be clear, the Property Owners take great exception to the
Petition’s distortions and mischaracterizations of the actual facts.
This, however, is not the time or place to set the record straight
on the true course of events leading up to the negotiated MTRA.

165a
the IHB board on June 2, 2016, authorizing IHB
management to hire such counsel and consultants. CP
attempts to make much of the December 7, 2016 IHB
board Resolutions. However, those Resolutions simply
authorized IHB management to reiterate rental offers
to the Property Owners that IHB management had
previously developed and that the Property Owners
had previously rejected. CP ignores that IHB management was authorized at the December board meeting
to continue negotiations if the Property Owners
rejected the rental offers, that the predicates for those
proposals were very much in dispute, and that they
were later revised based on careful consideration. As
the Resolutions adopted by the IHB board on February
1, 2017 (attached as Exhibit 2) expressly recognize,
IHB management ultimately negotiated rental terms
with Conrail, CSXT, and NSR that it determined
reflected rates of return that were well below the
current pre-tax nominal cost of capital applied by the
STB to determine fair and reasonable trackage rights
fees. Further, IHB management produced a multiyear financial report incorporating the rental terms in
the MTRA and, as also expressly recognized in the
February 1 Resolutions, confirmed that the financial
report showed that those rental terms would permit
IHB to maintain positive cash flows and positive cash
balances. Accordingly, as the February 1 Resolutions
reflect, IHB management had good, objective reasons,
which the IHB board endorsed, for determining that
the compensation terms in the MTRA were fair and
reasonable.2

2

Contrary to CP’s assertion (Pet. at 6), IHB’s General
Manager did not at the February 1, 2017 IHB board meeting
“acknowledge” or otherwise suggest that the Property Owners’

166a
As an alternate argument under its “likelihood of
success on the merits” rubric, CP suggests that even
were its likelihood of success uncertain, the Board
could find that the notices of exemption could be flatly
rejected because they involve complex, unresolved
issues. Pet. at 9-10. In fact, there are no such issues,
and none of the cases cited by CP is on point. But the
Board need not devote any attention to this issue,
because immediately after suggesting that the notices
of exemption could be rejected, CP says that it is not
asking the Board to do so. Pet. at 10. And for the
reasons discussed in the cases cited by CP itself (Pet.
at 13-14), whatever the ultimate disposition of CP’s
state-law fiduciary duty claims, there is no reason for
the Board not to exercise its permissive authority now
to permit the MTRA to become effective.
2. CP Has Not Demonstrated That CP Or IHB
Will Suffer Irreparable Harm Absent A Stay
Although CP claims that “CP and IHB” will suffer
irreparable injury absent a stay, IHB is not here
claiming irreparable injury, and CP makes no demonstration in its Petition of how CP will suffer
irreparable injury. CP acknowledges that economic
loss by itself does not constitute irreparable injury,
since adequate compensatory or other corrective relief
may be available at a later date, in the ordinary course
of litigation. Pet. at 11 (citing Del. & Hudson—Lease
and Trackage Rights—Springfield Terminal Ry. Co.,
FD 30965 (Sub-No. 4) (served Nov. 2, 1995) and Wis.
Gas Co. v. FERC, 758 F.2d 669, 667 (D.C. Cir. 1985)).

“exorbitant demands and coercive acts” had compelled him to
agree to the revised MTRA rental terms.

167a
Even assuming that CP has standing to assert
irreparable injury to IHB, CP’s effort to do so falls far
short of the mark. CP claims, without any support,
that the reduction in IHB’s cash position will make it
“difficult to prepare for exigencies and make needed
investments in the Rail Properties.” Pet. at 11. Indeed,
CP suggests that this “in turn jeopardizes the efficient
flow of traffic through the heavily-congested Chicago
terminal.” Id. However, as discussed above and as
stated in the February 1 Resolutions, IHB management specifically examined what effect the compensation provisions of the MTRA would have on its ability
to cover its investment needs. That included not only
operating and maintenance costs, but also projected
capital expenditure projects. And IHB management
determined that IHB would maintain positive cash
flows and positive cash balances. See Exhibit 2.
It bears emphasizing as well that CSXT and NSR
have their own respective operations on two of the
principal rail lines supervised, maintained, and
dispatched by IHB, and they depend on IHB for
substantial switching services to help move traffic
through the Chicago terminal. Accordingly, the Property Owners have every incentive to ensure that IHB
has the money it needs to support its operations and
the maintenance and capital needs of all of the
properties it supervises, maintains, and dispatches, as
well as the properties over which it conducts switching
operations.
3. CP Has Not Demonstrated That A Stay Will Not
Substantially Harm The Property Owners and
IHB
The Property Owners have been attempting for
years since the expiration of the 1906 agreement to
establish modern trackage rights terms, including

168a
market-based compensation, with IHB. While they
have been seeking those terms, they have been receiving no rent from IHB for the properties over which
IHB operates. CP suggests that a stay would simply
maintain the “status quo” (Pet. at 12), but the status
quo is obviously untenable.3
CP ignores that the MTRA provides not only
updated compensation terms but also updated noncompensation terms—none of which CP is challenging.
The Board need only look at the MTRA to see just how
many important terms are included regarding management and operations, maintenance and operating
expenses and capital costs, accounting plans and
audits, liability, environmental claims, insurance,
dispute resolution, and other provisions to see that
there is much more involved in the implementation of
the MTRA than compensation alone. In short, the
status quo is untenable not only because the Property
Owners are receiving no rent, but also because the
Property Owners and IHB have no modern terms governing their operations in today’s complex operating
environment.
4. CP Has Not Demonstrated That A Stay Is In
The Public Interest
In an effort to find some public interest justification
for its stay request, CP reverts to its argument that
IHB will be deprived of the funds it needs to use as
operating capital, with “unforeseen and potentially
drastic consequences on rail service in the Chicago
terminal.” Pet at 12. Once again, CP provides no support for this assertion, and it assiduously ignores the
positive financial report prepared by IHB management for the IHB board, as discussed above, which
found that IHB could meet its capital needs and pay
the compensation provided in the MTRA, with cash to

169a
spare. See Exhibit 2. That is the objective information
here, and CP has provided nothing to rebut it.
There is also another important public interest
factor that CP ignores altogether. The STB has repeatedly made clear that the public interest is served by
voluntary trackage rights agreements, tailored to the
needs of the parties, that avoid the need for lengthy
and costly prescription proceedings at the STB. The
Property Owners and IHB have assiduously endeavored to negotiate terms and implement precisely that
kind of voluntary agreement. CP now asks the STB to
stay that carefully crafted and thoroughly negotiated
agreement and await the uncertain results of a court
action challenging it.
The public interest is certainly not served here by
staying a thoroughly vetted voluntary agreement
because a party has made untested and vigorously
disputed fiduciary duty claims about that agreement.
STB should apply here its long-standing presumption
in favor of permitting such voluntary agreements to
take effect in the face of unadjudicated court actions.
As noted above, that is particularly so in this case,
where CP asserts that it is “not asking for a
determination [from the court] of what is fair and
reasonable trackage rights compensation.” Pet. at
2n.4.
Conclusion
CP has demonstrated none of the requirements for
a stay of exemption for the MTRA, much less all of
them. Consistent with the STB’s well-established
precedent holding that state-law disputes regarding a
transaction need not be resolved before the Board’s
permissive authority is allowed to take effect, CP’s
Petition for Stay should be dismissed.

170a
Respectfully submitted,
/s/ Joel Cornfeld
Joel Cornfeld
Indiana Harbor Belt Railroad
Company
2721 161st Street
Hammond, IN 46323-1099
Counsel for Indiana Harbor
Belt Railroad Company
/s/ Robert M. Jenkins III
Robert M. Jenkins III
Mayer Brown LLP
1999 K Street, NW
Washington, D.C. 20006-1101
Counsel for Consolidated Rail
Corporation
/s/ Paul R. Hitchcock
Paul R. Hitchcock
CSX Transportation, Inc.
500 Water Street
Jacksonville, FL 32202
Counsel for CSX
Transportation, Inc.
/s/ David L. Coleman
David L. Coleman
Norfolk Southern Railway
Company, Inc.
Three Commercial Place
Norfolk, VA 23510
Counsel for Norfolk
Southern Railway
Company
Dated: March 10, 2017

171a
CERTIFICATE OF SERVICE
I hereby certify that on this 10th day of March, 2017,
I served the foregoing Reply to Petition for Stay by
first class mail, postage prepaid, on the following, and
also by email on Messrs. Rifkind and Burman:
Jeffrey J. Ellis
Chief Legal Officer
CANADIAN PACIFIC
7550 Ogden Dale Road SE
Calgary, AB T2C 4X9
403-660-1479
William M. Tuttle
General Counsel — US
Marie van Uitert
Legal Counsel — US
CANADIAN PACIFIC
120 South Sixth Street,
Suite 1000
Minneapolis, MN 55402

David F. Rifkind
STINSON LEONARD STREET LLP
1775 Pennsylvania Avenue,
NW, Suite 800
202-969-4218
202-572-9994 Fax
David.rifkind@sinson.com
Thomas Burman
STINSON LEONARD STREET LLP
150 South Fifth Street,
Suite 2300
Minneapolis, MN 55402
612-335-1595
612-335-1657 Fax
Thomas.burman@stinson.com

/s/ Robert M. Jenkins III
Robert M. Jenkins III

172a
APPENDIX L
RESOLUTIONS
WHEREAS, Indiana Harbor Belt Railroad Company (“IHB”) operates over certain rail lines, yards,
ancillary tracks, and other properties and facilities
(the “Subject Properties”) owned by each of Consolidated Rail Corporation (“Conrail”), CSX Transportation, Inc. (“CSXT”), and Norfolk Southern Railway Company, Inc. (“NSR”, and collectively with Conrail and
CSXT, the “Property Owners”);
WHEREAS, Conrail owns 51% of the outstanding
capital stock of IHB and Canadian Pacific Railway
Company (“CP”) owns 49% of the outstanding capital
stock of IHB;
WHEREAS, the 99-year agreements that governed
IHB’s operations over the Subject Properties (the
“1906 Agreement” and the “1913 Agreement,” together
the “Expired Agreements”) have expired;
WHEREAS, the 1906 Agreement provided for IHB
to pay rent and bear a proportionate share of the cost
of maintaining, renewing, and replacing tracks, facilities, and improvements belonging to the Property
Owners and to charge the Property Owners for certain
maintenance and other fees;
WHEREAS, the 1906 Agreement also provided for
IHB, if it wished, to pay for separate tracks and other
additions and betterments that would belong to
IHB, or to receive a credit to its capital account for
such additions and betterments, unless the Property
Owners bought them from IHB (“Additions and Betterments”);
WHEREAS, questions remain about the Subject
Properties for the period 1999 to present, including the

173a
identification and scope of the Subject Properties and
whether some of the improvements on the Subject
Properties may be Additions and Betterments and
should not be in the valuation bases for a master
trackage rights agreement that will replace the
Expired Agreements (the “New Agreement”);
WHEREAS, the officers of IHB (“IHB Management”) have worked with Conrail in the past to identify the operating and non-operating properties that
would be subject to the New Agreement, and IHB
Management is in the best position to provide maps
and delineate the properties over which IHB operates,
as well as to provide factual information regarding the
Subject Properties including IHB’s investments (including Additions and Betterments) in those properties;
WHEREAS, the Board of Directors of IHB (the
“Board”) desires IHB Management expeditiously to
provide all useful information to CP, Conrail, CSXT,
and NSR regarding the properties over which IHB
operates, including IHB’s investments in those properties, so that IHB Management may finalize its recommendation regarding the New Agreement and present the New Agreement, if acceptable to IHB Management, to the Board for approval by the Board at its
September 2016 meeting or, if not acceptable, to suggest a timetable needed to reach an acceptable agreement;
NOW THEREFORE, BE IT RESOLVED, that IHB
Management is hereby instructed to provide to CP,
Conrail, CSXT, and NSR as soon as practicable, but no
later than July 15, 2016, all information requested by
CP, Conrail, CSXT or NSR for the purpose of, or otherwise useful in, delineating the properties over which
IHB operates and determining the types of invest-

174a
ments (including Additions and Betterments) IHB has
made in those properties;
FURTHER RESOLVED, that the General Manager
of IHB is hereby authorized and instructed to retain
outside counsel and, if the General Manager determines appropriate, one or more consultants, including
an appraiser, if deemed necessary, to assist IHB Management in seeking information from the Property
Owners, evaluating and negotiating proposed terms of
the New Agreement and advising IHB Management
regarding their recommendations to the Board regarding the New Agreement;
FURTHER RESOLVED, that the advice of such
counsel to IHB Management, and communications to
such counsel from IHB Management and from such
counsel to IHB Management, shall be disclosed to all
members of the Board, in their capacity as Board
members, to the extent necessary to fulfill their fiduciary duties;
FURTHER RESOLVED, that IHB Management is
hereby instructed to perform such evaluation and
negotiation by August 15, 2016, if reasonably practical; and
FURTHER RESOLVED, that IHB Management is
hereby authorized and instructed to seek to finalize its
recommendation regarding the New Agreement and
present the New Agreement, if acceptable to IHB Management, to the Board for approval by the Board at its
September 1, 2016 meeting or, if not acceptable, to
suggest a timetable needed to reach an acceptable
agreement.

175a
APPENDIX M
RESOLUTIONS
WHEREAS, Indiana Harbor Belt Railroad Company (“IHB”) operates over certain rail lines, yards,
ancillary tracks, and other properties and facilities
(the “Subject Properties”) owned by Consolidated Rail
Corporation (“Conrail”), CSX Transportation, Inc.
(“CSXT”), and Norfolk Southern Railway Company,
Inc. (“NSR”);
WHEREAS, Conrail owns 51% of the outstanding
capital stock of IHB and Canadian Pacific Railway
Company (“CP”) owns 49% of the outstanding capital
stock of IHB;
WHEREAS, the 99-year agreements that governed
IHB’s operations over the Subject Properties (the
“1906 Agreement” and the “1913 Agreement,” together
the “Expired Agreements”) have expired;
WHEREAS, since 2012, the officers of IHB (“IHB
Management”) and Conrail, CSXT, and NSR (the
“Property Owners”) have been negotiating a master
trackage rights agreement to replace the Expired
Agreements, as well as retroactive payment for pastdue rent;
WHEREAS, as directed by the IHB Board at the
December 7, 2016 board meeting, IHB Management
made a rent proposal to each of the Property Owners;
WHEREAS, the Property Owners rejected the rent
proposals for the reasons stated in the correspondence
sent by each of the Property Owners to IHB
Management, which reasons included substantial
problems with the predicates for those proposals;

176a
WHEREAS, upon request from IHB Management,
the Property Owners modified their own rent proposals to lower the amount they were seeking;
WHEREAS, IHB Management has now reached
agreement with the Property Owners on all terms of a
master trackage rights agreement, as reflected in the
form of agreement attached hereto (the “MTRA”), and
has reached agreement on a payment amount for pastdue rent equal to the amount IHB Management has
already reserved for that purpose;
WHEREAS, IHB Management has produced a
multi-year financial report incorporating the rental
terms in the MTRA, and has confirmed that the
financial report shows that those rental terms will
permit IHB to maintain positive cash flows and
positive cash balances;
WHEREAS, IHB Management has determined that
the rental terms in the MTRA reflect rates of return
on the current value of the Subject Properties that are
well below the current pretax nominal cost of capital
for the railroad industry calculated annually by the
Surface Transportation Board (“STB”) and applied by
the STB in determining fair and reasonable trackage
rights fees;
WHEREAS, IHB Management believes that the
terms of the MTRA are fair and reasonable, and that
payment of the reserved amount for past-due rent is
fair and reasonable, and IHB Management recommends that the Board of Directors of IHB (the “IHB
Board”) authorize the General Manager of IHB, on
behalf of IHB, to execute and deliver the MTRA, with
an effective date of January 1, 2017, and to cause MB
to pay to the Property Owners $2,646,362, the amount
reserved for past-due rent;

177a
WHEREAS, the IHB Board finds that the terms of
the MTRA, attached hereto, are fair and reasonable,
and that payment by IHB to the Property Owners of
the amount IHB Management has already reserved
for past-due rent is fair and reasonable;
NOW, THEREFORE, BE IT RESOLVED, that the
IHB Board hereby authorizes and approves the
execution, delivery and performance by IHB of the
MTRA in the form attached hereto and authorizes,
empowers, and directs the General Manager of IHB,
on behalf of IHB, to execute and deliver the MTRA in
the form attached hereto, to be effective January 1,
2017, and to take all such other action as may be
necessary or appropriate to effectuate the MTRA,
including filing for any and all necessary regulatory
approvals; and the IHB Board hereby authorizes,
empowers and directs the General Manager of IHB, on
behalf of IHB, to cause IHB to pay to the Property
Owners the above-described past-due rent as agreed
with the Property Owners.

178a
APPENDIX N
CHAPTER 105—JURISDICTION
Sec. 10501. General jurisdiction.
10502. Authority to exempt rail
carrier transportation.
§ 10501. General jurisdiction
(a)(1) Subject to this chapter, the Board has
jurisdiction over transportation by rail carrier that
is—
(A) only by railroad; or
(B) by railroad and water, when the
transportation is under common control,
management, or arrangement for a continuous
carriage or shipment.
(2) Jurisdiction under paragraph (1) applies only to
transportation in the United States between a place
in—
(A) a State and a place in the same or
another State as part of the interstate rail
network;
(B) a State and a place in a territory or
possession of the United States;
(C) a territory or possession of the United
States and a place in another such territory or
possession;
(D) a territory or possession of the United
States and another place in the same territory
or possession;
(E) the United States and another place in
the United States through a foreign country; or

179a
(F) the United States and a place in a
foreign country.
(b) The jurisdiction of the Board over—
(1) transportation by rail carriers, and the
remedies provided in this part with respect to
rates, classifications, rules (including car service,
interchange, and other operating rules), practices,
routes, services, and facilities of such carriers; and
(2) the construction, acquisition, operation,
abandonment, or discontinuance of spur,
industrial, team, switching, or side tracks, or
facilities, even if the tracks are located, or intended
to be located, entirely in one State,
is exclusive. Except as otherwise provided in this part,
the remedies provided under this part with respect to
regulation of rail transportation are exclusive and
preempt the remedies provided under Federal or State
law.
(c)(1) In this subsection—
(A) the term “local governmental authority”—
(i) has the same meaning given that
term by section 5302 of this title; and
(ii) includes a person or entity that contracts with the local governmental authority
to provide transportation services; and
(B) the term “public transportation” means
transportation services described in section
5302 of this title that are provided by rail.
(2) Except as provided in paragraph (3), the
Board does not have jurisdiction under this part
over—

180a
(A) public transportation provided by a local
government authority; or
(B) a solid waste rail transfer facility as
defined in section 10908 of this title, except as
provided under sections 10908 and 10909 of this
title.
(3)(A) Notwithstanding paragraph (2) of this
subsection, a local governmental authority,
described in paragraph (2), is subject to applicable
laws of the United States related to—
(i) safety;
(ii) the representation of employees for
collective bargaining; and
(iii) employment, retirement, annuity,
and unemployment systems or other
provisions related to dealings between
employees and employers.
(B) The Board has jurisdiction under
sections 11102 and 11103 of this title over
transportation provided by a local governmental authority only if the Board finds that such
governmental authority meets all of the
standards and requirements for being a rail
carrier providing transportation subject to the
jurisdiction of the Interstate Commerce Commission that were in effect immediately before
January 1, 1996. The enactment of the ICC
Termination Act of 1995 shall neither expand
nor contract coverage of employees and employers by the Railway Labor Act, the Railroad
Retirement Act of 1974, the Railroad Retirement Tax Act, and the Railroad Unemployment
Insurance Act.

181a
(Added Pub. L. 104–88, title I, § 102(a), Dec. 29, 1995,
109 Stat. 807; amended Pub. L. 104–287, §5(21), Oct.
11, 1996, 110 Stat. 3390; Pub. L. 110–432, div. A, title
VI, §602, Oct. 16, 2008, 122 Stat. 4900; Pub. L. 114–
94, div. A, title III, §3030(g), Dec. 4, 2015, 129 Stat.
1497.)
REFERENCES IN TEXT
The ICC Termination Act of 1995, referred to in subsec. (c)(3)(B), is Pub. L. 104–88, Dec. 29, 1995, 109
Stat. 803. For complete classification of this Act to the
Code, see Short Title of 1995 Amendment note set out
under section 101 of this title and Tables.
The Railway Labor Act, referred to in subsec.
(c)(3)(B), is act May 20, 1926, ch. 347, 44 Stat. 577, as
amended, which is classified principally to chapter 8
(§ 151 et seq.) of Title 45, Railroads. For complete
classification of this Act to the Code, see section 151 of
Title 45 and Tables.
The Railroad Retirement Act of 1974, referred to in
subsec. (c)(3)(B), is act Aug. 29, 1935, ch. 812, as
amended generally by Pub. L. 93–445, title I, § 101,
Oct. 16, 1974, 88 Stat. 1305, which is classified
generally to subchapter IV (§ 231 et seq.) of chapter 9
of Title 45. For further details and complete
classification of this Act to the Code, see Codification
note set out preceding section 231 of Title 45, section
231t of Title 45, and Tables.
The Railroad Retirement Tax Act, referred to in subsec. (c)(3)(B), is act Aug. 16, 1954, ch. 736, §§ 3201,
3202, 3211, 3212, 3221, and 3231 to 3233, 68A Stat.
431, as amended, which is classified generally to
chapter 22 (§3201 et seq.) of Title 26, Internal Revenue
Code. For complete classification of this Act to the
Code, see section 3233 of Title 26 and Tables.

182a
The Railroad Unemployment Insurance Act, referred to in subsec. (c)(3)(B), is act June 25, 1938, ch.
680, 52 Stat. 1094, as amended, which is classified
principally to chapter 11 (§351 et seq.) of Title 45,
Railroads. For complete classification of this Act to the
Code, see section 367 of Title 45 and Tables.
PRIOR PROVISIONS
Provisions similar to those in this section were
contained in sections 10501 and 10504 of this title
prior to the general amendment of this subtitle by Pub.
L. 104–88, § 102(a).
A prior section 10501, Pub. L. 95–473, Oct. 17, 1978,
92 Stat. 1359; Pub. L. 96–448, title II, §214(c)(3)–(5),
Oct. 14, 1980, 94 Stat. 1915; Pub. L. 103–272, §4(j)(15),
July 5, 1994, 108 Stat. 1369, related to jurisdiction of
the Interstate Commerce Commission, prior to the
general amendment of this subtitle by Pub. L. 104–88,
§ 102(a). See sections 10501 and 15301 of this title.
AMENDMENTS
2015—Subsec. (c)(1)(A)(i). Pub. L. 114–94,
§ 3030(g)(1)(A), substituted “section 5302” for “section
5302(a)”.
Subsec. (c)(1)(B). Pub. L. 114–94, § 3030(g)(1)(B),
substituted “public transportation” for “mass transportation” and “section 5302” for “section 5302(a)”.
Subsec. (c)(2)(A). Pub. L. 114–94, §3030(g)(2),
substituted “public transportation” for “ mass transportation”.
2008—Subsec. (c)(2). Pub. L. 110–432 amended par.
(2) generally. Prior to amendment, text read as
follows: “Except as provided in paragraph (3), the
Board does not have jurisdiction under this part over

183a
mass transportation provided by a local governmental
authority.”
1996—Subsec. (c)(3)(B). Pub. L. 104–287 substituted “January 1, 1996” for “the effective date of the
ICC Termination Act of 1995”.
EFFECTIVE DATE OF 2015 AMENDMENT
Amendment by Pub. L. 114–94 effective Oct. 1,
2015, see section 1003 of Pub. L. 114–94, set out as a
note under section 5313 of Title 5, Government
Organization and Employees.
EFFECTIVE DATE
Section effective Jan. 1, 1996, except as otherwise
provided in Pub. L. 104–88, see section 2 of Pub. L.
104–88, set out as a note under section 1301 of this
title.
ABOLITION OF INTERSTATE COMMERCE COMMISSION
Interstate Commerce Commission abolished by
section 101 of Pub. L. 104–88, set out as a note under
section 1301 of this title.

184a
SUBCHAPTER II—COMBINATIONS
§ 11321. Scope of authority
(a) The authority of the Board under this subchapter is exclusive. A rail carrier or corporation participating in or resulting from a transaction approved by or
exempted by the Board under this subchapter may
carry out the transaction, own and operate property,
and exercise control or franchises acquired through
the transaction without the approval of a State
authority. A rail carrier, corporation, or person participating in that approved or exempted transaction is
exempt from the antitrust laws and from all other law,
including State and municipal law, as necessary to let
that rail carrier, corporation, or person carry out the
transaction, hold, maintain, and operate property, and
exercise control or franchises acquired through the
transaction. However, if a purchase and sale, a lease,
or a corporate consolidation or merger is involved in
the transaction, the carrier or corporation may carry
out the transaction only with the assent of a majority,
or the number required under applicable State law, of
the votes of the holders of the capital stock of that
corporation entitled to vote. The vote must occur at a
regular meeting, or special meeting called for that
purpose, of those stockholders and the notice of the
meeting must indicate its purpose.
(b) A power granted under this subchapter to a
carrier or corporation is in addition to and changes its
powers under its corporate charter and under State
law. Action under this subchapter does not establish
or provide for establishing a corporation under the
laws of the United States.
(Added Pub. L. 104–88, title I, § 102(a), Dec. 29, 1995,
109 Stat. 838.)

185a
PRIOR PROVISIONS
Provisions similar to those in this section were
contained in section 11341 of this title prior to the
general amendment of this subtitle by Pub. L. 104–88,
§ 102(a).
A prior section 11321, Pub. L. 95–473, Oct. 17, 1978,
92 Stat. 1432, related to limitations on ownership of
certain water carriers, prior to the general
amendment of this subtitle by Pub. L. 104–88, §
102(a).
EFFECTIVE DATE
Section effective Jan. 1, 1996, except as otherwise
provided in Pub. L. 104–88, see section 2 of Pub. L.
104–88, set out as a note under section 1301 of this
title.

